<html>
<title> - PUTTING U.S. AVIATION AT RISK: THE IMPACT OF THE SHUTDOWN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


       PUTTING U.S. AVIATION AT RISK: THE IMPACT OF THE SHUTDOWN

=======================================================================

                                (116-2)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-067 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  
                        Subcommittee on Aviation

                     RICK LARSEN, Washington, Chair

ANDRE CARSON, Indiana                GARRET GRAVES, Louisiana
STACEY E. PLASKETT, Virgin Islands   DON YOUNG, Alaska
STEPHEN F. LYNCH, Massachusetts      DANIEL WEBSTER, Florida
ELEANOR HOLMES NORTON,               THOMAS MASSIE, Kentucky
  District of Columbia               SCOTT PERRY, Pennsylvania
DANIEL LIPINSKI, Illinois            ROB WOODALL, Georgia
STEVE COHEN, Tennessee               JOHN KATKO, New York
HENRY C. ``HANK'' JOHNSON, Jr.,      DAVID ROUZER, North Carolina
Georgia                              LLOYD SMUCKER, Pennsylvania
DINA TITUS, Nevada                   PAUL MITCHELL, Michigan
JULIA BROWNLEY, California           BRIAN J. MAST, Florida
ANTHONY G. BROWN, Maryland           MIKE GALLAGHER, Wisconsin
GREG STANTON, Arizona                BRIAN K. FITZPATRICK, Pennsylvania
COLIN Z. ALLRED, Texas               TROY BALDERSON, Ohio
JESUS G. GARCIA, Illinois            ROSS SPANO, Florida
EDDIE BERNICE JOHNSON, Texas         PETE STAUBER, Minnesota
SEAN PATRICK MALONEY, New York       SAM GRAVES, Missouri (Ex Officio)
DONALD M. PAYNE, Jr., New Jersey
SHARICE DAVIDS, Kansas
ANGIE CRAIG, Minnesota
GRACE F. NAPOLITANO, California
SALUD O. CARBAJAL, California
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chair, Subcommittee on Aviation:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure, opening statement..............................     5
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Subcommittee on Aviation:

    Opening statement............................................     7
    Prepared statement...........................................     8
Hon. Stacey E. Plaskett, a Delegate in Congress from the Virgin 
  Islands, prepared statement....................................    77
Hon. Greg Stanton, a Representative in Congress from the State of 
  Arizona, prepared statement....................................    77

                               WITNESSES

Paul Rinaldi, President, National Air Traffic Controllers 
  Association, AFL-CIO:

    Oral statement...............................................     9
    Prepared statement...........................................    10
Michael Perrone, President, Professional Aviation Safety 
  Specialists, AFL-CIO:

    Oral statement...............................................    19
    Prepared statement...........................................    21
Nicholas E. Calio, President and CEO, Airlines for America:

    Oral statement...............................................    25
    Prepared statement...........................................    27
Sara Nelson, International President, Association of Flight 
  Attendants--CWA, AFL-CIO:

    Oral statement...............................................    29
    Prepared statement...........................................    31
Peter J. Bunce, President and CEO, General Aviation Manufacturers 
  Association:

    Oral statement...............................................    33
    Prepared statement...........................................    35

                       SUBMISSIONS FOR THE RECORD

Letter of February 12, 2019, from the Aeronautical Repair Station 
  Association et al., Submitted for the Record by Hon. Larsen....    48
Letter of February 12, 2019, from the Commercial Drone Alliance 
  et al., Submitted for the Record by Hon. Larsen................    49
Statement from the National Business Aviation Association, 
  Submitted for the Record by Hon. Larsen........................    73
Statement from Faye Malarkey Black, President and Chief Executive 
  Officer, Regional Airline Association, Submitted for the Record 
  by Hon. Larsen.................................................    74
Statement from the American Federation of Government Employees, 
  Submitted for the Record by Hon. DeFazio.......................    78

                                APPENDIX

Questions from Hon. Steve Cohen for Paul M. Rinaldi..............    81
Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Paul M. 
  Rinaldi........................................................    82
Questions from Hon. Stacey E. Plaskett for Paul M. Rinaldi.......    83
Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Michael 
  Perrone........................................................    83
Questions from Hon. Stacey E. Plaskett for Nicholas E. Calio.....    83

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                            February 8, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Committee on Transportation and 
Infrastructure
    FROM:   Staff, Subcommittee on Aviation
    RE:       Subcommittee Hearing on ``Putting U.S. Aviation 
at Risk: The Impact of the Shutdown''

                                Purpose

    The Subcommittee on Aviation will meet on Wednesday, 
February 13, 2019, at 10 o'clock a.m., in HVC 210 of the 
Capitol Visitor Center to hold a hearing titled, ``Putting U.S. 
Aviation at Risk: The Impact of the Shutdown.'' The hearing 
will gather stakeholder perspectives on how the recent 35-day 
partial shutdown of the Federal Government impacted Federal 
Aviation Administration (FAA) functions and operations, as well 
as the U.S. aviation industry and workforce. The subcommittee 
will hear testimony from the Association of Flight Attendants 
(AFA), General Aviation Manufacturers Association (GAMA), 
National Air Traffic Controllers Association (NATCA), 
Professional Aviation Safety Specialists (PASS), and Airlines 
for America (A4A).

                                Overview

    The FAA is the Federal agency responsible for ensuring the 
safe and efficient operation of the National Airspace System. 
During the recent 35-day partial shutdown of the Federal 
Government \1\--the longest in U.S. history--due to a lapse in 
appropriations, between 30 and 40 percent of FAA employees were 
furloughed,\2\ challenging the agency's ability to fulfill this 
critical mandate. Thousands of safety-critical FAA employees, 
including more than 14,000 air traffic controllers and a 
limited number of aviation safety inspectors and technicians, 
worked during the shutdown without compensation.\3\ In addition 
to impacts on the FAA workforce, the shutdown negatively 
affected the U.S. aviation industry, including airlines, 
general aviation, airports, manufacturers, and passengers.
---------------------------------------------------------------------------
    \1\ Due to a lapse in Federal spending, a partial shutdown of the 
Federal Government occurred, from December 22, 2018, to January 25, 
2019.
    \2\ See DOT, Operations During a Lapse in Annual Appropriations 
Plans by Operating Administration, at 3 (Dec. 2018), https://
cms.dot.gov/sites/dot.gov/files/docs/mission/budget/328471/
consolidated-december-2018-shutdown-plan-final.pdf and revised on Jan. 
11, 2019, https://www.transportation.gov/sites/dot.gov/files/docs/
mission/budget/328471/usdot-consolidated-december-2018-shutdown-plan-
01-11-19-red-line.pdf.
    \3\ Id.
---------------------------------------------------------------------------

                   Shutdown Impacts on FAA Workforce

    Air Traffic Controllers. More than 14,000 controllers 
worked during the shutdown without pay.\4\ During the shutdown, 
controllers in the busiest U.S. air traffic facilities worked 
overtime--as much as 60 hours per week.\5\ Controllers handle, 
on average, more than 40,000 flights daily, across 29 million 
square miles of airspace.\6\ Yet, according to NATCA, while 
controllers were performing their safety-critical 
responsibilities, some were concerned about when they would 
receive their next paychecks and how they would pay 
expenses.\7\
---------------------------------------------------------------------------
    \4\ Figure provided to committee staff by the FAA on Dec. 21, 2018.
    \5\ See Letter, Air Traffic Controllers, Pilots, Flight Attendants 
Detail Serious Safety Concerns Due to Shutdown (Jan. 23, 2019), 
available at https://www.natca.org/Images/NATCA_PDFs/Publications/
20190123-AFA-ALPA-NATCA-Joint-Statement-FINAL.pdf.
    \6\ See FAA, Air Traffic by the Numbers, https://www.faa.gov/
air_traffic/by_the_numbers/ (last visited Feb. 4, 2019).
    \7\ See TIME, ``We're All Human.'' Air Traffic Controllers Are 
Missing Another Paycheck, and It's Taking a Toll, Jan. 24, 2019, http:/
/time.com/5512249/air-traffic-controllers-paychecks-shutdown/.
---------------------------------------------------------------------------
    According to NATCA, controller staffing at FAA air traffic 
control facilities is already at a 30-year low, due in part to 
the Government shutdown in 2013, and more than 20 percent of 
the current controller workforce is eligible to retire.\8\ 
During the 35-day shutdown, the FAA's controller training 
academy was closed, preventing a pipeline of new controllers 
from completing the training needed to enter an FAA facility 
for on-the-job-training.\9\
---------------------------------------------------------------------------
    \8\ See Letter, supra note 5.
    \9\ Id.
---------------------------------------------------------------------------
    Inspectors and Technicians. According to PASS, during the 
35-day shutdown, the majority of FAA aviation safety inspectors 
were furloughed. These inspectors are responsible for oversight 
of commercial and general aviation aircraft, pilots, flight 
instructors, and repair stations in the United States and 
abroad.\10\ In addition, FAA manufacturing inspectors--who 
oversee the manufacturing of aircraft and aircraft components--
and engineering services technicians--who implement air traffic 
control operation projects--were furloughed,\11\ potentially 
impacting the FAA's ability to ensure the highest level of 
aviation safety. Despite the FAA recalling inspectors and 
engineers during the shutdown, these employees, like 
controllers, did not receive pay until the shutdown ended.
---------------------------------------------------------------------------
    \10\ PASS, Aviation Safety Inspectors Grounded During Government 
Shutdown (Dec. 22, 2018), https://www.passnational.org/index.php/news/
706-aviation-safety-inspectors-grounded-during-government-shutdown.
    \11\ Id.
---------------------------------------------------------------------------
    Other FAA Employees. Despite contract authority provided by 
the FAA Reauthorization Act of 2018, multiyear appropriations, 
and use of franchise funds, allowing the FAA to pay and keep on 
the job approximately 2,300 FAA employees, in total, more than 
17,000 employees with positions at the FAA were furloughed at 
the start of the shutdown. The furlough of these employees, 
across all of the agency's lines of business, temporarily 
ceased, disrupted, or delayed important work and agency 
oversight of the industry. Below are examples, provided by 
various aviation stakeholders, of how the furlough of FAA 
employees impacted agency operations and the U.S. aviation 
industry.
    <bullet>  Airspace Modernization: The FAA's work on 
NextGen--the modernization program for the U.S. air traffic 
control system--was suspended,\12\ further delaying the 
anticipated safety and efficiency benefits for airspace users 
and the traveling public.
---------------------------------------------------------------------------
    \12\ Id. at 5.
---------------------------------------------------------------------------
    <bullet>  Important FAA Rulemakings: Planned and ongoing 
aviation rulemaking activities were suspended.\13\ Many of 
these rules, such as safety rules to address the risks posed by 
drones in U.S. airspace, are needed to advance the U.S. 
aviation industry and make our skies safer.\14\
---------------------------------------------------------------------------
    \13\ Id.
    \14\ See DOT, Report on DOT Significant Rulemakings, Nov. 2018, 
available at https://www.reginfo.gov/public/do/
eAgendaMain?operation=OPERATION_GET_AGENCY_RULE_
LIST&currentPub=true&agencyCode=&showStage=active&agencyCd=2100&Image58.
x=
25&Image58.y=14 (listing more than 20 FAA-significant rulemakings).
---------------------------------------------------------------------------
    <bullet>  Certification and Validation: The shutdown 
prevented the aviation industry from receiving important FAA 
approvals. For example, airlines were unable to add new planes 
to their fleets, delaying or disrupting services,\15\ and 
manufacturers could not receive the FAA-approval needed to get 
new aircraft, aviation equipment, and products to market.\16\ 
In addition, the furlough of FAA employees temporarily halted 
FAA-inspection and certification of repair stations and 
training manuals for pilots.\17\ Combined, the lack of FAA-
approvals cost companies, especially small businesses, 
financially.\18\
---------------------------------------------------------------------------
    \15\ Letter from more than 30 aviation and aerospace organizations 
to the President of the United States, Speak of the U.S. House of 
Representatives, and Majority Leader of the U.S. Senate, Jan. 10, 2019, 
https://www.iata.org/pressroom/Documents/letter-us-aviation-shutdown-
impacts.pdf.
    \16\ GAMA, FAA Shutdown Impacts on General Aviation Manufacturing 
and Maintenance (Jan. 22, 2019) (on file with committee staff).
    \17\ Id.
    \18\ Id.
---------------------------------------------------------------------------
    <bullet>  Airport Infrastructure: The FAA issued no new 
Airport Improvement Program grants to U.S. airports during the 
shutdown, and the furlough of FAA employees who work with 
airports on upcoming construction projects may cause 
unnecessary delays and increased costs of infrastructure 
projects.\19\
---------------------------------------------------------------------------
    \19\ See Letter, supra note 15.
---------------------------------------------------------------------------
    <bullet>  Congressional Mandates: Nearly all of the FAA's 
implementation of congressional mandates in the recently 
enacted FAA Reauthorization Act of 2018 and prior laws was 
brought to a halt. Such mandates include requiring 10 hours of 
minimum rest between duty periods for U.S. flight attendants, 
FAA review of its current cabin evacuation procedures, 
requiring the installation of secondary cockpit barriers on 
each new aircraft that is manufactured for delivery to 
passenger airlines, general aviation safety provisions, and 
other important FAA reform mandates.\20\
---------------------------------------------------------------------------
    \20\ See sections 335-337, and sections 392-396 of the FAA 
Reauthorization Act of 2018 (Pub. L. 115-254).
---------------------------------------------------------------------------

                Other Shutdown Impacts on U.S. Aviation

    Civil aviation plays a central role in the United States, 
supporting more than $1.5 trillion of economic activity and 
more than 11 million jobs, according to industry groups.\21\ 
The unprecedented 35-day partial shutdown negatively affected 
the U.S. aviation industry, including airlines, general 
aviation, airports, manufacturers, and passengers. The shutdown 
also affected:
---------------------------------------------------------------------------
    \21\ See Letter, supra note 15.
---------------------------------------------------------------------------
    <bullet>  Aviation Security. More than 50,000 
Transportation Security Administration (TSA) airport security 
agents worked during the shutdown without paychecks.\22\ As the 
shutdown stretched on, an increasing number of TSA agents took 
unscheduled leave or quit their jobs, leaving airports worried 
about staffing at security checkpoints.\23\
---------------------------------------------------------------------------
    \22\ N.Y. TIMES, T.S.A. Agents Refuse to Work During Shutdown, 
Raising Fears of Airport Turmoil, Jan. 11, 2019, https://
www.nytimes.com/2019/01/11/nyregion/tsa-shutdown.html.
    \23\ Id.
---------------------------------------------------------------------------
    <bullet>  Air Travel. One U.S. airline reported losing an 
estimated $25 million in business due to fewer Government 
employees and contractors traveling during the shutdown.\24\ In 
addition, airport security lines at the Nation's busiest 
airports grew due to fewer TSA agents on duty, causing longer 
than normal wait times.\25\ The shutdown also resulted in the 
furlough of all employees in the Department of Transportation's 
aviation consumer protection division--the office responsible 
for monitoring compliance with and investigating violations of 
U.S. consumer protection and civil rights requirements.\26\
---------------------------------------------------------------------------
    \24\ USA TODAY, Delta CEO: Government Shutdown Tab $25 Million and 
Counting, Jan. 15, 2019, https://www.usatoday.com/story/travel/flights/
2019/01/15/delta-ceo-government-shutdown-costs-25-million-lost-
business/2576031002/.
    \25\ See N.Y. TIMES, supra note 22.
    \26\ See Operations During a Lapse, supra note 2.
---------------------------------------------------------------------------
    <bullet>  Accident Investigations. The furlough of 
employees at the National Transportation Safety Board (NTSB)--
the independent agency responsible for investigating 
transportation accidents and advocating for safety 
improvements--stopped work on more than 1,800 ongoing general 
aviation and limited aviation safety investigations, and 
prevented the Board from working with the FAA to investigate 15 
general aviation accidents that occurred during the 
shutdown.\27\
---------------------------------------------------------------------------
    \27\ NTSB, NTSB Resumes Normal Operations--Updated (Jan. 29, 2019), 
https://www.ntsb.gov/news/press-releases/Pages/NR20190129.aspx.
---------------------------------------------------------------------------

                               Witnesses

    <bullet>  Mr. Paul Rinaldi, President, National Air Traffic 
Controllers Association, AFL-CIO
    <bullet>  Mr. Mike Perrone, National President, 
Professional Aviation Safety Specialists
    <bullet>  Mr. Nicholas E. Calio, President and CEO, 
Airlines for America
    <bullet>  Ms. Sara Nelson, International President, 
Association of Flight Attendants-CWA
    <bullet>  Mr. Pete Bunce, President and CEO, General 
Aviation Manufacturers Association

 
       PUTTING U.S. AVIATION AT RISK: THE IMPACT OF THE SHUTDOWN

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2019

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 210, House Capitol Visitor Center, Hon. Rick Larsen 
(Chairman of the subcommittee) presiding.
    Mr. Larsen. The subcommittee will come to order. Before we 
start, I want to recognize Chairman DeFazio.
    Mr. DeFazio. Well, thank you, Mr. Chairman. In 
commemoration of this long-anticipated occasion, your first 
chairing of the Subcommittee on Aviation, I have here a small 
gift. So hopefully that will come in handy.
    Mr. Larsen. Craft brewery from Oregon.
    [Laughter.]
    Mr. DeFazio. That is after the hearing.
    Mr. Larsen. Then we had better finish after noon. Very 
nice. Thank you very much, Peter.
    Mr. DeFazio. A gavel, which is commemorative.
    [Applause.]
    Mr. Larsen. It has got my name on it, so I never have to 
give this one away.
    Mr. DeFazio. Right.
    Mr. Larsen. Well, then, we will take a recess and come back 
into order with the new gavel.
    [Laughter.]
    Mr. Larsen. Thanks, Pete. Appreciate it. Garret will take 
the other one.
    So I ask unanimous consent that Members not on the 
subcommittee today be permitted to sit with the subcommittee at 
today's hearing and ask questions. Without objection, so 
ordered.
    And I want to say good morning to everyone and welcome to 
the first Aviation Subcommittee hearing of the 116th Congress. 
Nineteen days ago, the partial Government shutdown ended but 
left significant consequences to the U.S. aviation workforce, 
industry, and economy in its wake.
    But we have a forward-looking aviation and aerospace agenda 
for this Congress. In fact, it was my intention for the first 
hearing of this subcommittee to be exploring that agenda that 
included ensuring aviation safety, fostering innovation in the 
U.S. airspace, improving U.S. competitiveness in the global 
marketplace, and enhancing the air travel experience for 
passengers.
    This agenda is still my agenda; the subcommittee will 
continue to pursue it. However, the recent shutdown shed new 
light on its impacts on the aviation industry and the 
workforce. But the roots of this hearing go back at least to 
2013 and that shutdown under a Democratic administration, when 
FAA employees were furloughed and air traffic controllers 
worked without pay.
    Even then we were trying to find a way to shield this most 
critical part of the Government from future shutdowns. So the 
purpose of this hearing, then, is twofold. First, I want to 
ensure that this subcommittee creates the public record of 
shutdown impacts on the aviation and aerospace industry. The 
panel assembled here today is in the best position to explain 
these impacts.
    I would note that the shutdown has also delayed the 
subcommittee's work. FAA furloughs have delayed implementation 
of last year's FAA reauthorization, which in turn delays the 
oversight mission of this subcommittee. The shutdown also 
delayed planning for the subcommittee's trip to the FAA Tech 
Center to observe their critical research to improve the safety 
of the national airspace.
    The second purpose of this hearing is to build a case for 
H.R. 1108, the Aviation Funding Stability Act of 2019. I want 
to ensure that the FAA has resources and funding stability 
needed to preserve the safety of the Nation's aviation system.
    Throughout this most recent shutdown, I met with the 
dedicated women and men of the aviation workforce and did hear 
about the harmful impacts the shutdown had on their lives. One 
constituent from Bellingham, Washington, shared with me that 
her brother, an air traffic controller, worked more than 60 
hours a week without pay during the shutdown. Her brother faced 
severe mental and physical stress wondering when his next 
paycheck would come.
    Aerospace companies in northwest Washington State let me 
know that they feared that we needed to suspend production. 
Local aviation safety personnel showed me their pay stubs for 
zero dollars. Another air traffic controller with whom I had 
met had to dip into her children's college savings to get by. 
During the shutdown, thousands of air traffic controllers, 
engineers, technicians, and critical safety personnel were 
working without pay.
    U.S. aviation is the gold standard of flight because of 
these skilled individuals. Their work ensures the safety of the 
traveling public and efficiency of the U.S. airspace. As I 
noted, the FAA was unable to begin implementation of 
congressional mandates in the FAA reauthorization such as 
requiring 10 hours of rest for flight attendants, further 
integrating new users in the airspace, and setting up rules to 
address sexual harassment of employees, passengers, and crew.
    Furloughed FAA inspectors were unable to approve new 
aircraft, aviation products, and infrastructure, hindering U.S. 
global competitiveness. The FAA's work on streamlining the 
certification process for aviation and aerospace products came 
to a halt. No new airport improvement program grants could be 
issued, hurting projects to modernize and maintain airports.
    And as the full committee heard last week, Federal aviation 
infrastructure investment falls short already of growing needs. 
Washington State alone needs over $190 billion in 
infrastructure investments, with aviation projects requiring 
$12.6 billion.
    Congress must do what it can to ensure that the FAA, its 
employees, and the U.S. aviation economy are protected from 
another Government shutdown. So to this end, committee chair 
Mr. DeFazio and I introduced legislation that authorizes the 
FAA to continue to draw from the Airport and Airway Trust Fund, 
AATF, during a funding lapse and operate at current levels with 
no congressional action required.
    The partial Government shutdown unnecessarily hurt American 
families and jeopardized the safety of the largest, busiest, 
and most complex airspace system in the world. To use the 
metaphor, the lights must stay on at the runways across the 
United States.
    I appreciate the witnesses for taking the time to join 
today's discussion and for your work during the shutdown. I 
look forward to hearing more about the impacts on your members, 
and how Congress can support you in the future. It is my hope 
that with this hearing, the subcommittee will have made its 
case that the shutdown impacts are harmful to the economy and 
that the Aviation Funding Stability Act is the mechanism to 
shield the FAA and the aviation and aerospace economy from 
detrimental impacts of future shutdowns.
    And I look forward to getting this subcommittee back to its 
forward-looking agenda of ensuring aviation safety, fostering 
innovation in U.S. airspace, improving U.S. competitiveness in 
the global marketplace, and enhancing the air travel experience 
for passengers. And with that, I yield back 17 seconds. Thank 
you.
    [Mr. Larsen's prepared statement follows:]

                                 
 Statement of Hon. Rick Larsen, a Representative in Congress from the 
        State of Washington, and Chair, Subcommittee on Aviation
    Good morning and thank you to today's witnesses for joining the 
first Aviation Subcommittee hearing of the 116th Congress.
    Nineteen days ago, the partial government shutdown ended, but left 
significant consequences to the U.S. aviation workforce, industry and 
economy in its wake.
    We have a forward-looking aviation and aerospace agenda for this 
Congress.
    In fact, it was my intention for the first hearing of this 
Subcommittee to begin exploring an agenda that included: ensuring 
aviation safety, fostering innovation in U.S. airspace, improving U.S. 
competitiveness in the global marketplace; and enhancing the air travel 
experience for passengers.
    This agenda is still my agenda, and this Subcommittee will continue 
to pursue it.
    However, the recent shutdown shed new light on its impacts on the 
aviation industry and workforce.
    But the roots of this hearing go back to the 2013 shutdown under a 
Democratic Administration when FAA employees were furloughed, and air 
traffic controllers worked without pay.
    Even then, we were trying to find a way to shield this most 
critical part of the government from future shutdowns.
    The purpose of this hearing, then, is two-fold.
    First, I want to ensure this Subcommittee creates the public record 
of shutdown impacts on the aviation and aerospace industry.
    The panel assembled here today is in the best position to explain 
these impacts.
    I would note that the shutdown has delayed this Subcommittee's work 
as well. FAA furloughs have delayed implementation of last year's FAA 
authorization, which in turn delays the oversight mission of this 
Subcommittee.
    The shutdown has also delayed planning for this Subcommittee's trip 
to the FAA Technical Center to observe their critical research to 
improve the safety of the National Airspace.
    The second purpose of this hearing is to build the case for H.R. 
1108, the Aviation Funding Stability Act of 2019.
    I want to ensure the FAA has the resources and funding stability 
needed to preserve the safety of the Nation's aviation system.
    Throughout the most recent shutdown, I met with the dedicated women 
and men of the aviation workforce and heard about the harmful impacts 
the shutdown had on their lives.
    One constituent from Bellingham, Washington shared with me that her 
brother, an air traffic controller, worked more than 60 hours a week, 
without pay, during the shutdown. Her brother faced severe mental and 
physical stress wondering when his next paycheck would come.
    Aerospace companies in Northwest Washington let me know they feared 
they would need to suspend production.
    Local aviation safety personnel received pay stubs for $0.
    And another air traffic controller with whom I met had to dip into 
her children's college savings to get by.
    During the shutdown, thousands of air traffic controllers, 
engineers, technicians and critical safety personnel were working 
without pay.
    U.S. aviation is the gold standard of flight because of these 
skilled individuals. Their work ensures the safety of the traveling 
public and efficiency of the U.S. airspace.
    As I noted, the FAA was unable to begin implementation of 
Congressional mandates in the FAA Reauthorization, such as requiring 
ten hours of rest for flight attendants, further integrating new users 
into the airspace and addressing sexual harassment of employees, 
passengers and crew.
    Furloughed FAA inspectors were unable to approve new aircraft, 
aviation products and infrastructure, hindering U.S. global 
competitiveness.
    The FAA's work on streamlining the certification process for 
aviation and aerospace products, came to a halt.
    No new Airport Improvement Program grants could be issued, hurting 
projects to modernize and maintain airports.
    As the full Committee heard last week, federal aviation 
infrastructure investment falls far short of growing needs.
    Washington state alone needs over $190 billion in infrastructure 
investments, with aviation projects requiring $12.6 billion.
    Congress must do what it can to ensure the FAA, its employees and 
the U.S. aviation economy are protected from another government 
shutdown.
    To this end, Committee Chair DeFazio and I introduced legislation 
that authorizes the FAA to continue to draw from the Airport and Airway 
Trust Fund (AATF) during a funding lapse and operate at current funding 
levels with no Congressional action required.
    The partial government shutdown unnecessarily hurt American 
families and jeopardized the safety of the largest, busiest and most 
complex airspace system in the world.
    To use a metaphor, the lights must stay on at runways across the 
United States.
    I appreciate the witnesses for taking the time to join today's 
discussion and for your work during the shutdown.
    I look forward to hearing more about the impacts on your members, 
and how Congress can support you in the future.
    It is my hope that with this hearing, this Subcommittee will have 
made its case that the shutdown impacts are harmful to the economy and 
that the Aviation Funding Stability Act is the mechanism to shield the 
FAA and the aviation and aerospace economy from the detrimental impacts 
of future shutdowns.
    And I look forward to getting this Subcommittee back to its 
forward-looking agenda of ensuring aviation safety, fostering 
innovation in U.S. airspace, improving U.S. competitiveness in the 
global marketplace, and enhancing the air travel experience for 
passengers.

    Mr. Larsen. And I want to now call, though, on the ranking 
member of the full committee, Mr. Sam Graves, for the ranking 
member's statement.
    Mr. Graves of Missouri. Thank you, Chairman Larsen, and 
congratulations on being appointed to chairman. It is always 
good.
    I guess if you think about it, we have probably averted 
another shutdown. That is the good news. But with the Green New 
Deal or the Green Dream, I guess we are not going to have to 
worry about that in aviation anymore because we are going to 
shut down the whole aviation sector and all 11 million jobs 
that go along with that.
    Mr. Larsen. A point I have made myself.
    Mr. Graves of Missouri. My actual purpose today is I want 
to thank the NATCA employees, the PASS employees, and all the 
Federal employees who worked without pay during the shutdown to 
keep the economy moving and our skies safe. And I understand 
that during the entire duration of the shutdown, while the 
number of operations were up from the same time as last year, 
there was no increase in serious safety incidents. And we owe a 
tremendous debt of gratitude for the professionalism that was 
displayed under some very difficult circumstances.
    As we learn more about the short- and long-term impacts of 
the shutdown, Congress has to hear, I believe, from the FAA and 
the Department of Transportation about how the shutdown played 
out and what efforts are underway to recover from those obvious 
impacts. This information, I think, is vital to us to truly 
understand the scope of the situation.
    [Mr. Graves of Missouri's prepared statement follows:]

                                
  Statement of Hon. Sam Graves, a Representative in Congress from the 
State of Missouri, and Ranking Member, Committee on Transportation and 
                             Infrastructure
    Thank you, Chairman Larsen for holding this hearing and 
congratulations on being named Subcommittee Chairman.
    Fortunately, it looks like another shutdown will be averted. 
Although if some in Congress get their way, we may not have to worry 
about shutting down the aviation system in the future--because 
apparently, under the Green New Deal, there wouldn't even be an 
aviation system anymore. Imagining replacing our aviation system--a 
cornerstone of our economy that provides approximately 11 million 
Americans with jobs--is just ludicrous, but that's a topic for another 
day.
    Today, I want to thank NATCA employees, PASS employees, and all 
Federal employees who worked without pay during the shutdown to keep 
our economy moving and our skies safe. I understand that during the 
duration of the shutdown, while the number of operations were up from 
the same time last year, there was no increase in serious safety 
incidents.
    We owe you all a tremendous debt of gratitude for your 
professionalism under very difficult circumstances.
    As we learn more about the short- and long-term impacts of the 
shutdown, Congress must hear from the FAA and the Department of 
Transportation about how the shutdown played out and what efforts are 
underway to recover from those impacts. This information is vital for 
us to truly understand the scope of the situation.

    Mr. Graves of Missouri. So with that, I thank you again for 
having this important hearing, and appreciate the opportunity 
very much.
    Mr. Larsen. Thank you, Mr. Graves.
    I now recognize the chair of the full committee, Mr. 
DeFazio, for a statement.
    Mr. DeFazio. Thanks, Mr. Chairman. Your election--we do not 
appoint them on our side, Sam; we elect them--is a high point, 
and I think it is going to benefit aviation and the industry 
very well.
    Like the two before me, I want to thank all of those who 
worked without pay during the 35 days. I also want to thank 
those who were furloughed and have come back to a mountain of 
work, and feel like maybe that they are not essential. They are 
essential, and I want to assure them that that, in part, is why 
we have this legislation before us today.
    I met with local employees, including air traffic 
controllers, and one younger, newer controller was working 
overtime because my tower, like many across the country, is 
understaffed so they are already working overtime shifts. But 
he also, because of a lack of pay, had to take a job as an Uber 
driver.
    So how rested is that young man if he works extra hours in 
a very stressful job and then undertakes something else that 
barely makes him minimum wage so that they can at least put on 
the table? That just cannot happen again. And that certainly 
happened to people, and I am sure TSA workers and many others 
were doing that in addition to the garage sales and all those 
other stupid things that were recommended they do or they had 
to do out of necessity.
    I am concerned that the system was not as safe as it could 
and should be during the shutdown because of the reason I 
already mentioned: people stressed out, not getting paychecks, 
doing extra work to provide for their families. Aviation is too 
critical to allow this to happen again.
    And we still have not gotten over the impacts of the 2013 
shutdown, where the school was closed and a bunch of the people 
who were in the school, some of them aged out, actually, and 
others just did not come back. And I imagine this time it might 
even be worse because it was a longer shutdown and they are 
going to question, boy, am I going to go through this rigorous 
training process to get a job where every once in a while I am 
working for free?
    So we are discouraging the next generation, and we are 
already at a critical point with so many people eligible to 
retire. And by the way, if they say, ``Wow, retirees got paid 
and I did not; maybe it is time for me to pull the plug,'' they 
are not going to be there to train that next generation of air 
traffic controllers.
    So we have got to provide some certainty to those who are 
working there now and those who want to work there in the 
future and those who work in other aspects. The critical things 
that the FAA is working on did not get done.
    It took me 3 years to finally push back against the model 
aircraft people and require that we have remote drone 
identification, which is absolutely critical, or we are going 
to be shutting down airports all around the country because 
some idiot is illegally flying their drone and we cannot find 
them? And sooner or later they are going to fly one into a 
turbine engine, and maybe we are going to have a catastrophic 
failure.
    So they have got to get that rule out. The flight attendant 
duty time rule was delayed. Many other critical rulemakings 
were delayed at the FAA. So that is why we have introduced this 
legislation. The FAA is unique. It pays for itself. Why should 
they be subject to a shutdown?
    And it is so critical, and it is so safety critical, and it 
is internationally critical. So this is, I think, a commonsense 
piece of legislation. I am hopeful that once we get whatever 
deal is coming forth this week passed, if we get it passed, and 
if it gets signed by the President, and we do not have another 
shutdown, which I am cautiously optimistic, that people will 
look favorably upon our legislation as a way of preventing this 
sort of dysfunction in the future.
    With that, I yield back the balance of my time.
    Mr. Larsen. Thank you, Mr. Chairman.
    So I would now like to move to the panel--oh, I am sorry. 
First I will move to Mr. Graves. The other Mr. Graves is 
recognized.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. And first 
I want to congratulate you for assuming the chairmanship of the 
subcommittee. I look forward to working with you and continuing 
the longstanding bipartisan tradition that this committee and 
subcommittee has held. And I look forward also, Mr. DeFazio, 
for continuing to work with you in building on some of the 
success we have had in recent years on transportation highway 
bill, the water resources bill, the disaster bill, FAA bill, 
and others.
    And Ranking Member Graves, I want to thank you for the 
confidence that you have instilled in appointing us to this 
position, and looking forward to working with you and the other 
leadership to implement the FAA authorization bill and many 
other priorities.
    First, I want to thank the FAA employees and many other 
Federal employees who worked during the shutdown without being 
paid. Let's be clear on what a shutdown is. A shutdown is a 
failure of elected officials to do their job. I feel very much 
for the Federal employees that were working without pay 
because, one, you did not do anything to deserve it; two, you 
cannot do anything to solve it. And I think that is unfair.
    In regard to us, I think that one of the real solutions is 
actually to force Members of Congress to not get paid during a 
shutdown, and make it automatic, to where we feel the pain as 
much or more so than any other Federal employee that is 
subjected to our inability to come up with solutions. We did 
donate. We tried to reject our pay from December. We did donate 
all of our pay from December during the shutdown to various 
organizations, including Coast Guard Foundation, Coast Guard 
Mutual Assistance, and others. We worked on a daily basis to 
bring food to Federal employees at TSA, FAA, Coast Guard, 
Federal law enforcement agencies, and others, in many cases 
working together with Congressman Cedric Richmond, in an effort 
to somewhat temper the blow and also show strong support to the 
Federal employees that were stuck in the predicament that they 
were.
    While I know that the focus right now is on the last 
shutdown, and I get it--that is the one that is on everyone's 
minds--I think it is also important to keep in mind that during 
the Carter administration, I believe we had 56 days' worth of 
shutdowns. During the Obama administration, we had a 16-day 
shutdown. And the second longest shutdown in American history, 
or in recent history, at least, was during the Clinton 
administration.
    And I say it again: It is a failure of our ability to do 
our jobs. And I think it is inappropriate. And I hate that the 
Federal employees ended up carrying the burden of this. But it 
is important also, as Ranking Member Graves noted, that it 
looks like we are going to be able to avert a shutdown and 
provide a full fiscal year budget through September 30th of 
this year and immediately begin working on the fiscal year 2020 
budget. And I am excited and looking forward to the opportunity 
to work with you all on the authorization components of those 
to make sure that we can continue to have a functional 
Government moving forward.
    So I want to say again I want to thank you for being here. 
I am sorry that the Federal employees were impacted the way 
that they were. And I am looking forward to working with 
Chairman Larsen to continue implementation of the FAA 
Authorization Act and many other important priorities within 
the aviation industry. I yield back.
    [Mr. Graves of Louisiana's prepared statement follows:]

                                
Statement of Hon. Garret Graves, a Representative in Congress from the 
    State of Louisiana, and Ranking Member, Subcommittee on Aviation
    Thank you, Mr. Chairman, for calling this important hearing on the 
impacts of the shutdown to the aviation system.
    I want to start by first congratulating you on your selection as 
chair of the Subcommittee on Aviation. This Subcommittee has a long 
history of bipartisan cooperation and of setting aside politics to 
ensure that our national air transportation system remains vibrant and 
safe. I look forward to working with you and with all members of the 
Subcommittee.
    Nothing exemplifies this Subcommittee's bipartisanship better than 
the FAA Reauthorization Act of 2018, which is the longest FAA 
reauthorization since the 1980's. As this Subcommittee oversees the 
many mandates included in the law, it is important that we understand 
the status of the FAA's implementation plans following the shutdown.
    It is unfortunate that the FAA is not here today to share that 
information with us, but I know the Subcommittee will be focusing on 
the FAA's implementation efforts in the coming months.
    It is also important that we understand both the short-and long-
term impacts of shutdowns on our system and on aerospace stakeholders. 
Today's witnesses and the stakeholders they represent can take credit 
for maintaining the safe operation of the National Airspace System 
during the shutdown. The professionalism of the men and women who run 
the day-to-day operations of all aspects of the system is remarkable. 
Despite very trying circumstances, they continued their work ensuring 
the safety of the system and are to be commended.
    I thank the witnesses for participating in today's hearing.

    Mr. Larsen. Thank you, Mr. Graves, for your comments. 
Appreciate that very much.
    And now let's turn to the panel. I want to welcome our 
witnesses: Mr. Paul Rinaldi, president of the National Air 
Traffic Controllers Association, AFL-CIO; Mr. Mike Perrone, 
national president, Professional Aviation Safety Specialists; 
Mr. Nicholas E. Calio, president and CEO of Airlines for 
America; Ms. Sara Nelson, international president, Association 
of Flight Attendants-CWA; and Mr. Pete Bunce, president and CEO 
of General Aviation Manufacturers Association.
    Thank you for being here today. We all look forward to your 
testimony. I am going to ask unanimous consent that our 
witnesses' full statements be included in the record. Without 
objection, so ordered. And since your written testimony has 
been made part of the record, the subcommittee requests that 
you limit your oral testimony to 5 minutes.
    So we will proceed with testimony, starting with Mr. 
Rinaldi.

  TESTIMONY OF PAUL RINALDI, PRESIDENT, NATIONAL AIR TRAFFIC 
 CONTROLLERS ASSOCIATION, AFL-CIO; MICHAEL PERRONE, PRESIDENT, 
PROFESSIONAL AVIATION SAFETY SPECIALISTS, AFL-CIO; NICHOLAS E. 
 CALIO, PRESIDENT AND CEO, AIRLINES FOR AMERICA; SARA NELSON, 
INTERNATIONAL PRESIDENT, ASSOCIATION OF FLIGHT ATTENDANTS--CWA, 
    AFL-CIO; AND PETER J. BUNCE, PRESIDENT AND CEO, GENERAL 
               AVIATION MANUFACTURERS ASSOCIATION

    Mr. Rinaldi. Thank you, Chairman Larsen and Ranking Member 
Graves, Chairman DeFazio, Ranking Member Graves. Thank you for 
the opportunity to testify about the negative effects of the 
35-day shutdown on the members of the National Air Traffic 
Controllers Association.
    Every day over 70,000 flights and 2 million passengers move 
through our National Airspace System. Although it is the safest 
system in the world, during the shutdown many of our programs 
that reduce the risk and enhance the safety of the system have 
come to a complete stop.
    At the time that the shutdown finally ended, I believe the 
system was on the verge of unraveling. Even though the system 
is safer today than it was during the shutdown, it is still 
less safe than it was before the shutdown. The shutdown eroded 
critical layers that are necessary to support and maintain the 
safety of the National Airspace System.
    For example, programs to prevent wrong surface landings 
were paused. Each year we have more than 200 events in which 
aircraft lands, or attempts to land, on wrong runways, 
taxiways, or even, believe it or not, the entirely wrong 
airport. Most recently last week at Philadelphia International 
Airport, a flight was cleared to land on runway 35, but it had 
lined itself up with the parallel taxiway of Taxiway Echo.
    A runway safety enhancement called ATAP alerted the 
controller immediately, who instructed the pilot to execute a 
go-around. The pilot overflew two commercial airplanes on the 
taxiway by 600 feet. ATAP is deployed in six airports across 
this country. Prior to the shutdown, the FAA had scheduled to 
deploy ATAP at 13 major additional airports by the end of 
March. That implementation is now delayed to the end of June.
    In addition, the FAA stopped addressing the risk identified 
through our voluntary safety reporting program ATSAP. ATAP and 
ATSAP are just two of a dozen programs that are now 
significantly delayed and were not functioning correctly during 
the shutdown. That is what makes the system less safe today.
    Mr. Chairman, on January 25th, travelers experienced delays 
due to decreased capacity. Because the system is complex and 
interconnected, when delays occur at one facility, it ripples 
across the entire system. On that day, a small number of 
controllers in critically staffed areas at two facilities 
individually determined they were not fit for duty.
    NATCA did not coordinate these absences. This was the 
result of illness and the stress of working over a month 
without getting paid and not knowing when you are going to get 
paid. NATCA does not condone or approve any Federal employee 
participating in a coordinating activity that negatively 
affects the capacity of the National Airspace System.
    Mr. Chairman, the pressure and the extra stress that was 
inserted into our National Airspace System because of the 
shutdown was intense. We were getting text messages from 
controllers with 17 years' worth of experience making mistakes 
on routine clearances, climbing airplanes into paths of other 
airplanes at the same altitude because they were distracted 
because they were thinking about their mortgage. They were 
thinking about school payments, car payments, food. They were 
thinking about the shutdown. They were fatigued. They were not 
focused at the task at hand.
    We had controllers going to work every day driving Ubers, 
waiting on tables, to take care of their family. We have worked 
really hard to mitigate distractions and reduce the fatigue in 
our work environment, but this shutdown increased fatigue and 
inserted all types of distractions in our control rooms.
    Add insult to injury, our workforce still has not been made 
financially whole. This is completely unacceptable, inserting 
this type of risk into our system. As you know, we are at a 30-
year low of fully certified controllers in the system, of which 
20 percent of them can retire at any moment. If 20 percent 
retire tomorrow because we look at another shutdown, we will 
not be able to run the volume of traffic we do today.
    It takes 3 to 5 years to mentor an apprentice to become a 
fully certified controller. The FAA had to stop their hiring 
and shut down the training academy because of the shutdown. Our 
staffing crisis is exacerbated by the shutdown. We need to make 
sure this never happens again.
    I want to thank the Secretary of Transportation Elaine 
Chao, along with Acting Administrator Dan Elwell and the ATO 
Chief Operating Officer Teri Bristol, for their leadership 
through this unacceptable challenge of the National Airspace 
System.
    Chairman DeFazio, Chairman Larsen, I applaud you for 
introducing the Aviation Funding Stability Act of 2019, H.R. 
1108. NATCA strongly supports this bill because it meets our 
four core principles and it ensures the safety and efficiency 
of the National Airspace System. It protects the front line 
workforce. The bill provides stable, predictable funding for 
our National Airspace System, and it gives the ability to 
continue to provide service to all the users of the aviation 
community.
    NATCA urges all Members of Congress to support this 
legislation. I thank you for your time, and I look forward to 
your questions.
    [The prepared statement of Mr. Rinaldi follows:]

                                
Prepared Statement of Paul M. Rinaldi, President, National Air Traffic 
                    Controllers Association, AFL-CIO
    Thank you for the opportunity to testify on behalf of the National 
Air Traffic Controllers Association, AFL-CIO (NATCA) about ``Putting 
U.S. Aviation at Risk: The Impact of the Shutdown.'' NATCA is the 
exclusive representative for nearly 20,000 employees, including the 
Federal Aviation Administration's (FAA) air traffic controllers, 
traffic management coordinators and specialists, flight service station 
air traffic controllers, staff support specialists, engineers and 
architects, and other aviation safety professionals, as well as 
Department of Defense (DoD) and Federal Contract Tower (FCT) air 
traffic controllers.
                            general overview
                            
    On Friday, January 25, the longest Federal Government shutdown in 
U.S. history ended after 35 days. However, no one should be under the 
illusion that it was business as usual for aviation during the 
shutdown. Every day, 71,500 flights and over 2 million passengers move 
through the National Airspace System (NAS). Although it is the safest 
and most efficient system in the world, during the shutdown, many 
activities and processes that proactively reduce risk and increase 
safety were suspended. Even though the NAS is safer now than it was 
during the shutdown, it is less safe today than it was before the 
shutdown began.
    The NAS and the FAA did not revert to normalcy when the shutdown 
ended. It may take weeks, months, or even years for some aspects of the 
system to return to normal order. That also is assuming that the 3-week 
continuing resolution (CR) that ended the shutdown leads to a longer 
term appropriations bill that averts another shutdown on February 15.
    Over 3,000 aviation safety professionals represented by NATCA were 
furloughed, along with hundreds of thousands of other Federal 
employees. Another 15,000 NATCA-represented controllers and aviation 
safety professionals continued to work for more than a month without 
pay, and without the necessary support staff who provide a critical 
layer of safety in operating and overseeing the safest, most complex, 
most efficient airspace system in the world. All of these air traffic 
controllers and aviation safety professionals were used as pawns in a 
political fight that had nothing to do with aviation. This is wrong and 
must not be allowed to happen again.
    The safety of the NAS is vital and should never be used as a 
bargaining tool. Our work needs to be 100 percent right, 100 percent of 
the time. Air traffic control is an inherently stressful profession and 
it is wrong that the men and women who operate and oversee the system 
were forced to worry about how they would feed their families or pay 
their rent or mortgage while performing their work without pay.
    Moreover, nearly 20 percent of all certified professional 
controllers (CPC) are currently eligible to retire. We know from 
anecdotal evidence that the shutdown led some controllers to decide to 
retire earlier than they had planned. We also know that other 
controllers who were not yet eligible to retire, as well as a few 
students at the FAA Academy, chose to resign in order to find another 
way to pay their rent and feed their families. The NAS cannot sustain 
greater-than-anticipated controller attrition without resulting in 
reduced capacity--meaning more flight delays for the flying public.
    The reality that no one wants to hear is that the NAS was less safe 
during the shutdown than before it began. The system began to 
experience decreased efficiency and capacity as a result of the 
shutdown and was on the verge of unraveling. NATCA sounded the alarm. 
Our leadership was receiving messages from controllers with decades of 
experience who had aircraft under their control climbing directly into 
the path of another aircraft because they were stressed and distracted 
with the uncertainty on when the shutdown would end, thinking about 
their mortgage and car payments, medical bills, and feeding their 
families, rather than their jobs.
    On the day the shutdown ended, January 25, travelers experienced a 
number of flight delays due to decreased capacity. Because the NAS is 
an extremely complex and interconnected system, when delays occur at 
one major facility there is a ripple effect across the adjoining 
airspace and sometimes throughout the entire system. NATCA did not 
coordinate these controller absences. NATCA does not condone or endorse 
any Federal employees participating in or advocating for a coordinated 
activity that negatively affects the capacity of the NAS or other 
activities that undermine the professional image and reputation of the 
men and women we represent.
    On that day, a small number of controllers from critically staffed 
areas in two air traffic control facilities individually determined 
that they were not fit for duty. This was a result of illnesses, the 
stress of working for over a month without being paid, and not knowing 
when the shutdown would end and normalcy would return.
    Given the unprecedented nature and length of the shutdown, there is 
no question that it has damaged and will continue to harm the system, 
which supports 12 million aviation-related jobs and contributes over 
$1.5 trillion annually to the U.S. economy. Every time the Government 
is shut down, or brought to the brink of a shutdown due to political 
disagreements that have nothing to do with aviation, it has real 
consequences for real people. Unfortunately, shutdowns and threats of 
shutdowns have become a common occurrence.
    Since the start of Fiscal Year 2018, the FAA has experienced 3 
shutdowns and 11 additional threatened shutdowns either due to a lapse 
in appropriations or a lapse in FAA authorization. Below is a timeline 
of this stop-and-go funding cycle since the beginning of fiscal year 
2018:
    <bullet>  Sept. 30, 2017--Threatened Lapse in both Appropriations 
and FAA Authorization (CR through 12/8; and FAA Extension through 3/31)
    <bullet>  Dec. 8, 2017--Threatened Lapse in Appropriations (CR 
through 12/22)
    <bullet>  Dec. 22, 2017--Threatened Lapse in Appropriations (CR 
through 1/19)
    <bullet>  Jan. 20, 2018--THREE-DAY SHUTDOWN (CR through 2/9)
    <bullet>  Feb. 9, 2018--MULTIHOUR SHUTDOWN (CR through 3/23)
    <bullet>  March 23, 2018--Threatened Lapse in Appropriations (CR 
through 9/30)
    <bullet>  March 31, 2018--Threatened Lapse in FAA Authorization; 
(Extension through 9/30)
    <bullet>  Oct. 1, 2018--Threatened Lapse in both Appropriations and 
FAA Authorization (received CR through 12/7; and FAA Extension through 
10/7)
    <bullet>  Oct. 7, 2018--Threatened Lapse in FAA Authorization (5-
year FAA Reauthorization)
    <bullet>  Dec. 7, 2018--Threatened Lapse in Appropriations (CR 
through 12/2)
    <bullet>  Dec. 22, 2018--35-DAY SHUTDOWN (CR through 2/15)
    <bullet>  Feb. 15, 2019--Threatened Lapse in Appropriations (TBD)
                        critical safety concerns
    The shutdown was tremendously harmful because it eroded the layers 
of critical elements necessary to support and maintain the safety of 
the NAS. Many safety activities that proactively reduce risk and 
increase the safety of the NAS were suspended as a result of the 
shutdown. For instance, the FAA Air Traffic Organization's (ATO) Top 5 
Hazards in the NAS were not being addressed, which include risks 
associated with Pilot Weather Reports (PIREPS), Wrong Surface Landings, 
Safety Alerts, Altitude Compliance, and Operational Risk Management 
(ORM).
    Specifically, safety enhancements that prevent wrong surface 
landings were suspended because of the shutdown. Each year, there are 
more than 200 events in which an aircraft lands, or attempts to land, 
on the wrong runway, on a taxiway, or at the wrong airport entirely. 
The aviation industry, NATCA, and the FAA are working on the 
implementation and additional development of new technologies that 
would provide air traffic controllers with an early warning system 
designed to mitigate the risk of aircraft landing on the incorrect 
surface (i.e. runway, a taxiway, or at the wrong airport). Development 
was significantly delayed because of the shutdown.
    Just last week, at Philadelphia International Airport (PHL), a 
flight was cleared to land on Runway 35, but aligned itself on Taxiway 
E, parallel to the intended runway. A runway safety enhancement in 
Airport Surface Detection System--Model X (ASDE-X) called ASDE-X 
Taxiway Arrival Prediction (ATAP) Alerting System alerted the local 
controller who immediately instructed the pilot to execute a go-around. 
The pilot overflew two commercial airplanes on the taxiway by 600 and 
700 feet respectively on the go-around.
    The ATAP system is currently enabled at five airports in addition 
to PHL: Hartsfield-Jackson Atlanta International Airport (ATL), Bradley 
International Airport (BDL), Charlotte Douglas International Airport 
(CLT), Dallas/Fort Worth International Airport (DFW), and Seattle-
Tacoma International Airport (SEA). Prior to the shutdown, the FAA 
scheduled ATAP to be enabled on March 31, 2019, at 13 additional major 
airports. However, due to the shutdown, that implementation is now 
delayed until June 30, 2019, at eight airports: Baltimore/Washington 
International Thurgood Marshall Airport (BWI), Newark Liberty 
International Airport (EWR), Honolulu Control Facility (HCF), McCarran 
International Airport (LAS), Chicago Midway International Airport 
(MDW), Memphis International Airport (MEM), Chicago O'Hare 
International Airport (ORD), and Salt Lake City International Airport 
(SLC).
    Voluntary safety reporting programs, such as the Air Traffic Safety 
Action Program (ATSAP), also were negatively affected. Critical 
communication between the ATSAP review teams and furloughed staff was 
deferred, resulting in an inability to properly identify and mitigate 
safety and training deficiencies. The voluntary safety reporting 
program for NATCA-represented engineers and service area support staff 
also was not operating, while all work on existing reported safety 
issues and associated mitigation activities was suspended.
    In addition, some of the critical safety equipment and technology 
that controllers use every day is decades old and at risk of 
malfunctioning. Even before the shutdown, the FAA had moved to a ``fix-
on-fail'' maintenance philosophy and had stopped stockpiling critical 
parts for essential operational equipment. However, because of the 
shutdown, critical maintenance and repair projects have been delayed 
even more. There now is a backlog of maintenance projects at facilities 
around the country. An additional Government shutdown would make this 
situation worse.
   the negative effects on the workforce and the controller staffing 
                                 crisis
    The partial Government shutdown was a disaster for the FAA 
workforce, including air traffic controllers, traffic management 
coordinators, and other aviation safety professionals who worked 
without pay for more than a month. Many of them still have not been 
made whole financially. It also was disastrous for over 3,000 NATCA-
represented FAA employees who were furloughed without pay during the 
shutdown. Their critical safety work wasn't being performed at all and 
piled up awaiting their return to duty.
Shutdown Exacerbated Controller Fatigue Problem
    In a voluntary survey of NATCA members, we found that many of them 
started working second jobs because their chosen profession was not 
paying them. Air traffic controllers are subject to very strict fatigue 
rules that are intended to ensure that they receive appropriate rest 
and sleep between shifts. However, in order to make ends meet during 
the shutdown, many controllers were not resting or sleeping as much 
between shifts. Instead, they were working second jobs so that they 
could pay their rent and feed their families. This was a significant 
problem, because during their non-working time air traffic controllers 
need to be resting, relaxing, and sleeping in order to counteract the 
unique stress and fatigue that comes with the job.
    FAA Order 7210.3AA prescribes the specific fatigue rules and shift 
limitations based upon fatigue science studies for controllers, 
including the 10-hour maximum per shift for all radar facilities and 
air traffic control towers. It also mandates the duration and frequency 
of rest periods between shifts. Specifically, that order provides:

  Air traffic control specialists whose primary duties are those 
directly related to the control and separation of aircraft must meet 
the following criteria:
    1.  Do not work more than 10 operational hours in a shift.
    2.  Hours worked before a shift, whether operational or not, will 
count as operational hours.
    3.  All work beyond 10 hours must be nonoperational.
    4.  Have at least an 8-hour break from the time work ends to the 
start of any shift, except as follows:
     (a)  Employees are required to have a minimum of 9 consecutive 
hours off duty preceding the start of a day shift. For purposes of this 
paragraph only, a day shift is generally defined as a shift where the 
majority of hours fall between 7 o'clock a.m. and 4 o'clock p.m.
     (b)  This requirement applies to all shift changes, swaps, and 
overtime to include scheduled, call-in, and holdover assignments.
    5.  Have an off-duty period of at least 12 hours following a 
midnight shift. (A midnight shift is defined as a shift in which the 
majority of hours are worked between 10:30 p.m. and 6:30 a.m.)
    6.  If an employee is assigned more than two (2) consecutive ten 
(10) hour midnight shifts, all of the consecutive ten (10) hour 
midnight shifts require a 2100L (Non flex) start time.
    7.  Ten (10) hour midnight shifts are limited to no more than four 
(4) in any six (6) day period.
    8.  No day shift may immediately precede a ten (10) hour midnight 
shift.
    9.  Eight (8) hour midnight shifts may be extended by no more than 
one (1) hour per single shift.
    10.  A 0530L start time or later is required when working an eight 
(8) hour day shift prior to an eight (8) hour midnight shift. Employees 
may not flex to an earlier start time than 0530L.
    11.  Do not work more than six shifts without taking a regular day 
off.
    12.  Authorized leave, compensatory time used, and credit hours 
used are considered hours of work.
    13.  These criteria apply to shift adjustments, including the 
exchange of shifts and/or days off and the change of shifts and/or days 
off.
    Even under normal circumstances, extended workdays and workweeks 
can lead to significant fatigue concerns for the workforce. Just last 
week, the National Transportation Safety Board once again identified 
fatigue on its list of 10 most wanted transportation safety 
improvements. Although NATCA and FAA, along with other stakeholders, 
have worked collaboratively to develop a fatigue awareness and 
education campaign called ``Fully Charged,'' which is part of the 
collaborative Foundations of Professionalism program, the only long-
term solution is sufficient staffing.
    NATCA has worked very closely with the FAA in recent years to 
develop and implement new fatigue risk management tools and to educate 
the workforce on the need for rest and sleep during non-work time. This 
shutdown undermined all this essential work. A tired workforce will 
make more mistakes. A tired and distracted workforce will make even 
more. The shutdown injected significant risk into a system that is 
designed to eliminate risk.
Hiring Freeze and FAA Academy Closure
    The FAA Training Academy in Oklahoma City was closed during the 
shutdown and just began classes again last week. The FAA also suspended 
hiring and training for all new hires and controller advanced skills 
classes were canceled throughout the shutdown.
    In late December 2018, the FAA gave notices to approximately 440 
students at the FAA Academy placing them on furlough or returning them 
to their facilities where they are partially certified. FAA also gave a 
stop work order to Science Applications International Corporation 
(SAIC), the contractor that performs training functions at the Academy. 
The FAA canceled a month of Air Traffic Basics courses and advised over 
100 students not to show up for their scheduled class start dates. The 
FAA canceled additional classes through February 11. Now that classes 
have started again, all future students will have to be rescheduled 
into appropriate classes to begin training later than what would have 
otherwise occurred.
    Prior to the shutdown, the FAA's hiring target for fiscal year 2019 
was 1,431 and now we are concerned that the goal will not be 
attainable. This is unacceptable. Further staffing reductions could 
have an immediate and detrimental effect on capacity, meaning fewer 
aircraft in the sky and greater potential for delays.
No Staffing for Integrating New Users and Implementing NextGen 
        Technology
    If this staffing crisis continues, the FAA will be hard-pressed to 
maintain current capacity, let alone modernize the system and expand it 
for new users, such as commercial space operations, Unmanned Aircraft 
Systems (UAS), and supersonic jets. Understaffing at air traffic 
facilities hinders the deployment and training of NextGen programs, 
procedures, and equipment. Moreover, integrating new users into the NAS 
was put on hold during the shutdown, and those delays will negatively 
affect private sector innovation--both big and small companies alike.
Air Traffic Controller Staffing Crisis Background
    Air traffic controller staffing has been a concern for many years. 
It reached a crisis level in 2015 and despite some recent progress 
within the FAA's hiring, training, and transfer processes, it remains a 
challenge, one that has been exacerbated by the shutdown.
    Since 2015, NATCA has been raising concern and awareness about the 
staffing issue because of the disastrous effects that further staffing 
reductions could have on system capacity. On December 8, 2015, NATCA 
addressed the controller staffing crisis at a congressional Roundtable 
policy discussion held by this subcommittee. On June 15, 2016, NATCA 
testified about the controller staffing crisis before this subcommittee 
at a hearing titled ``A Review of the Federal Aviation's Air Traffic 
Controller Hiring, Staffing and Training Plans.'' Then, on May 17, 
2017, NATCA again testified about the controller staffing crisis, as 
part of the justification for needing ATC reform, before the full 
Committee on Transportation and Infrastructure, at a hearing titled 
``The Need to Reform the Federal Aviation Administration and Air 
Traffic Control to Build a 21st-Century Aviation System for America.''
    The FAA's CPC workforce has reached a 30-year low. Controller 
staffing has fallen 10 percent since 2011, and a significant percentage 
of the certified controller workforce remains eligible to retire (18 
percent). Stop-and-go funding for the FAA has made this problem worse. 
Sequestration forced the FAA to institute a hiring freeze and shutter 
the FAA Academy between March and December 2013. The hiring freeze 
compounded an already tenuous staffing situation in which the FAA had 
barely been able to replace retiring controllers. The FAA never made up 
for the sequester-related hiring freeze in 2013.
    New hires who are admitted into the FAA Academy today will require 
2 to 5 years of training before they become fully trained and capable 
of separating air traffic on their own. Moreover, of those who are 
admitted, currently only 64 percent of students in either the Tower/
Terminal or En Route options will successfully complete their Academy 
training and screening before moving on to train at their facility. 
There is additional attrition once Academy graduates begin on-the-job 
training at their facilities.
    Even increased hiring by the FAA in 2015, 2016, and 2017 did not 
make up for the attrition experienced from 2013 through 2017. Although 
the FAA has exceeded its hiring targets each of the past 3 years, CPC 
staffing levels continued to go down by 3.2 percent over that period. 
One potential solution, as part of a comprehensive hiring and training 
program, is to utilize the Academy's maximum throughput capacity 
(approx. 2,000 students per year).
    Facilities that are at critical staffing levels (defined as 
requiring mandatory overtime and a 6-day work week to fully staff all 
positions) are facing a dire situation, as retirement-eligible 
controllers continue to retire at a high rate, and those left on the 
job begin the time-intensive process of training controllers 
transferring from less complex/busy facilities and/or Academy 
graduates.
    The shutdown caused a ripple effect further delaying Academy 
training courses throughout 2019. There is no question that this 
shutdown has and will continue to exacerbate the existing air traffic 
controller staffing crisis.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


              Air Traffic Controller Staffing: 2011-2018 \\
------------------------------------------------------------------------
                      2011   2012   2013   2014   2015  2016  2017  2018
------------------------------------------------------------------------
On-Board             15,23  15,06  14,46  14,05  14,01  14,0  14,0  14,2
                      6      3      1      9      0      50    09    85
CPC \1\              11,63  11,75  11,52  11,19  10,83  10,6  10,5  10,4
                      9      3      2      2      3      19    44    83
CPC-IT \2\           965    1,143  1,187  1,200  1,218  1,25  1,20  1,32
                                                         9     5     0
DEV \3\ (Including   2,632  2,167  1,741  1,667  1,959  2,17  2,26  2,48
 AG \4\)                                                 2     0     2
AG                   676    671    440    665    936    878   883   980
Retirement Eligible  3,064  3,224  3,077  2,982  3,355  2,91  2,41  1,84
                                                         5     0     2
FAA Planned to Hire  829    981    1,315  1,286  1,772  1,61  1,78  1,70
                                                         9     1     1
FAA Actually Hired   824    925    554    1,112  1,345  1,68  1,88  1,78
                                                         0     0     7
------------------------------------------------------------------------
\\Source: FAA Finance Staffing Data Snapshot, FAA Controller Workforce
  Plan
\1\ CPC: Certified Professional Controller
\2\ CPC-IT: Certified Professional Controller in Training (fully
  certified elsewhere, transferred to a new facility and began training
  there)
\3\ DEV: Developmental (trainee)
\4\ AG: Graduate of the FAA Initial Classroom Training Academy in
  Oklahoma City, newly hired, and started at their first facility as a
  trainee

                        operational consequences
    Air traffic control is a complex, high-consequence profession 
requiring multiple layers of safety processes and procedures (e.g. 
safety reporting, quality control, quality assurance, training) to 
ensure that we deliver the highest level of safety to the flying 
public. Just as you would not ask a surgeon to perform a surgery 
without their surgical team, you should not require controllers to 
perform their work without their support team of approximately 3,000 
NATCA-represented aviation safety professionals, many of whom remained 
furloughed throughout the shutdown.
    For example, staff support specialists who work at air traffic 
control facilities to provide tactical, strategic, and administrative 
support of training; quality assurance/quality control of air traffic 
control and traffic management; manage and redesign airspace and air 
traffic control procedures; support operational automation, military 
operations, and air traffic safety management systems. They were 
furloughed during the shutdown. Aircraft certification engineers assist 
in design, production approvals, and airworthiness certification of 
aircraft and their components. They were furloughed during the 
shutdown. Other NATCA-represented engineers design and construct 
critical infrastructure necessary for safe flight operations including 
air traffic control towers, radar maintenance and installation, 
navigational aids, and communications systems. Many of them also were 
furloughed during the shutdown. FAA's flight test pilots were 
furloughed during the shutdown.
 wasted taxpayer money and resources--delays to modernization and the 
                        integration of new users
    As a result of the shutdown, all FAA modernization work and new 
user integration was stopped. The shutdown has and will continue to 
cause significant delays to these projects, wasting critical resources 
and Federal taxpayer money. Even now, delays to the timelines for each 
project will have a cascading effect on each project as the FAA 
scrambles to restart work and deconflict waterfall timelines. For 
instance, we know that the shutdown cost taxpayers up to $8M in order 
to repeat training for controllers related to the implementation and 
deployment of Enroute Controller Pilot Data Link Communications 
(CPDLC), most often referred to as DataComm. This system is the next 
generation of communication between pilots and controllers.
    In addition, work on integrating new users such as Unmanned 
Aircraft Systems (UAS), commercial space launches, and supersonic 
aircraft into the NAS was put on hold, which will negatively affect 
private sector innovation. Critical construction to the physical 
infrastructure also stopped at airports and radar facilities across the 
country.
Delays to Programs that Benefit General Aviation
    General aviation also felt the effects of the shutdown as many 
related programs continue to experience significant delays. Below are 
some examples of these delayed programs:
    <bullet>  Northeast Corridor quick climb out procedures out of 
Teterboro and Westchester County.
    <bullet>  Multiple Airport Route Separation (MARS) safety case--The 
MARS concept will procedurally deconflict departure and arrival flows 
between multiple adjacent airports, with air traffic control providing 
radar monitoring instead of radar separation and vectoring.
    <bullet>  Decoupling of approach procedures in LaGuardia (LGA), 
Newark (EWR), and Teterboro (TEB) to reduce delays.
    <bullet>  Noise reducing departure procedures out of Teterboro.
    <bullet>  Atlantic Coast Routings that will eventually improve flow 
and throughput along the Atlantic seaboard.
    <bullet>  Use of Performance Based Navigation (PBN) procedures to 
leverage aircraft avionics and ground infrastructure to maximize safety 
and efficiency between airports and in congested airspace.
    <bullet>  Las Vegas and south Florida metroplex projects, which are 
developing procedures for satellite airports like Henderson Executive 
Airport (HND), Southwest Florida International Airport in Fort Myers 
(RSW), Palm Beach International Airport (PBI), and Orlando Executive 
Airport (ORL).
Delays to VOR Network Modernization Program (VORMON)
    The NAS is in the process of transitioning away from a standalone 
VOR network (i.e. Very High Frequency (VHF) Omni-Directional Range 
radio ground-based navigational aide) to the more-efficient Performance 
Based Navigation (PBN) system. Very High Frequency Omni-directional 
Range Minimum Operational Network (VORMON) will eliminate redundant 
coverage and will provide more efficient routings in congested 
metropolitan areas. Conventional airways (SIDS, STARS, IAP, etc.) that 
were previously supported by VOR may be replaced with PBN procedures.
    Typically, it takes between 24 to 36 months to design and implement 
a PBN procedure to replace a conventional VOR procedure. In 2018, 22 
VORs were removed. In 2019 and 2020, the FAA was scheduled to remove 27 
and 48 VORs, respectively. This schedule is now in serious jeopardy due 
to the shutdown.
Delays to Performance Based Navigation (PBN) Procedures
    The modernization of the U.S. satellite-based network of PBN flight 
paths will help air traffic conduct Trajectory Based Operations (TBO). 
PBN services are laying the foundation for the NAS of the future by 
enabling many NextGen operational improvements, capabilities, and 
initiatives. Through these programs, the FAA is beginning to monitor an 
aircraft's trajectory including its time at points along a 3-D path so 
that we can anticipate the timing of arrivals at major airports. 
Ultimately, PBN procedures and routes save time and fuel while reducing 
emissions.
    The FAA has already published more than 9,300 PBN procedures and 
routes. Before the shutdown, there were over 1,000 procedures that were 
being developed in collaboration with pilots, air traffic controllers, 
and airports. This has been significantly delayed and, even now that 
the shutdown is over, it may take 24 to 36 months to continue the 
design and implementation process for many of these procedures. For 
instance, multiple large and small PBN projects will be delayed 
including projects in south Florida, Las Vegas, Detroit, Cleveland, 
Denver, the Northeast Corridor initiative, and airspace modernization 
efforts at Louisville International Airport (SDF).
Time Based Flow Management (TBFM) and Traffic Flow Management System 
        (TFMS) Further Deployment Delayed
    TBFM and TFMS will enhance NAS efficiency by using the capabilities 
of a decision-support tool, which is already deployed at numerous air 
traffic control facilities. TBFM and TFMS maximize aircraft throughput 
and capacity within the system in order to maintain a high level of 
efficiency and predictability by reducing delays, travel time, and fuel 
expenses. These programs also help reduce the effects on the 
environment including noise, emissions, and other environmental issues 
in the implementation and operation of the aviation system.
    Improvements in TBFM/TFMS core Time Based Metering capability and 
its trajectory modeler--an expansion of its departure capabilities to 
additional locations--and enhancements to departure capabilities, will 
enhance efficiency and optimize demand and capacity. Moreover, 
capabilities in this portfolio will be leveraged to enable aircraft to 
maintain a spacing interval behind a preceding aircraft, further 
improving capacity and flight efficiency. Improvements also will enable 
controllers to more accurately deliver aircraft to the Terminal Radar 
Approach Control (TRACON) facilities while providing the opportunity 
for aircraft to fly optimized descents.
    Approximately 93 FAA facilities currently have TBFM: 20 Air Route 
Traffic Control Centers (ARTCCs), 28 TRACONs, and 45 Air Traffic 
Control Towers. However, enhancements and updates that will enable 
future capabilities will be significantly delayed due to the shutdown.
Delays to Terminal Flight Data Manager (TFDM) Deployment
    TFDM is the surface management solution for NextGen. With growing 
congestion on the airport surface due to the increase in commercial air 
traffic nationwide, the need for efficient aircraft traffic planning on 
the airport ground is critical. This program has been delayed due to 
the shutdown.
    Over the life of the system, TFDM is expected to provide 313 
million gallons in fuel savings, while reducing over 3 million metric 
tons of carbon emissions. The flying public also will experience fewer 
delays, more reliable flight schedules, improved passenger 
satisfaction, and improved predictability. Airlines and other flight 
operators will experience improved schedule predictability and crew 
utilization, less taxi time and fuel burn, increased reliability of 
connection, and reduced departure lines on the taxiway. Airport 
operators expect to reduce their CO2 footprint, reduce engine noise, 
and experience a more balanced use of airport resources.
    Air traffic services expect to benefit through automatically 
updated flight plans and electronic flight strips, easier rescheduling 
canceled and delayed flights, fewer aircraft in the movement area and 
departure queue, and improved surface situational awareness at the 
TRACON, ARTCC, and Command Center. Most importantly, TFDM will improve 
safety, as controllers will experience less ``heads down'' time.
Trajectory Based Operations (TBO) Deployment
    TBO is an Air Traffic Management (ATM) method for strategically 
planning, managing, and optimizing flights throughout the NAS by using 
time-based management, information exchange between air and ground 
systems, and the aircraft's ability to fly precise paths (PBN) in time 
and space. TBO deployment at the first three sites--Northeast Corridor, 
Denver, and Atlanta--has been significantly delayed due to the 
shutdown.
    Once fully deployed, TBO will leverage improvements in navigation 
accuracy, communications, surveillance, and automation to decrease the 
uncertainty of an aircrafts' path in four dimensions--lateral (latitude 
and longitude), vertical (altitude) and time--which will result in 
significant improvements in strategic planning. However, TBO requires 
every participant and system to be operating on the same plan. That 
plan is expressed and shared through the agreed trajectory, which is 
used as a reference for the flight and contains estimates for arrival 
times at key points along the flight.
    The time-based parameter provides a common planning reference 
across all phases of flight, including pre-departure. This facilitates 
planning integration across ATC domains, enables the FAA to plan 
against the schedule objectives of users (i.e. departure and arrival 
times), and allows for more dynamic planning through a constrained area 
such as a major weather event, metering adjustments across merge points 
for the convergence of major flows, or for individual aircraft being 
integrated into congested flows.
FAA Will Struggle to Meet 2020 Mandate for Automatic Dependent 
        Surveillance-Broadcast (ADS-B)
    ADS-B is a new type of surveillance dependent on a global 
navigation satellite system (GNSS), typically GPS, where the position 
of the aircraft is derived in its avionics and broadcast to a network 
of ground based radio stations. ADS-B positions are typically more 
accurate than traditional radar and broadcast much faster, about once 
per second. ADS-B reports also include more information than simply an 
aircraft's position.
    The FAA has mandated that all aircraft must be equipped with ``ADS-
B Out'' technology (equipment installed on the aircraft that transmits 
position information to the ADS-B system) by January 1, 2020. Prior to 
the shutdown, ADS-B was scheduled to be deployed at the last FAA 
facility by September 2019. The FAA now will be hard-pressed to meet 
that target date and full ADS-B deployment is likely to be delayed.
Enterprise Information Display System (E-IDS) Development and Testing 
        Delayed
    Development and deployment of E-IDS will allow controllers to 
access vital information while working an operational position such as 
approach plates, letters of agreement, weather, airport configurations, 
standard operating procedures, and Notices to Airmen (NOTAMs). E-IDS is 
currently in the development phase and, once completed, will combine 
the five existing information display systems into one. Several of 
these existing systems are well-beyond their lifecycle and are 
constantly at risk of failing. This program could be significantly 
delayed due to the shutdown.
Consolidated Wake Recategorization (CWT)
    CWT enables controllers to use more efficient aircraft separation 
standards (flying planes closer together) without compromising safety, 
which means that more planes can take off and land throughout the 
system. Currently, CWT is deployed at seven terminal facilities, with 
18 more to come. Further deployment of this program has been delayed 
due to the shutdown.
NextGen Weather Program (NWP)
    NWP is a critical part of NextGen because it helps reduce the 
negative effects of weather on aviation, resulting in safer, more 
efficient, and more predictable day-to-day NAS operations. NWP will be 
able to provide tailored aviation weather products within the NAS, 
helping controllers and operators develop reliable flight plans, make 
better decisions, and improve on-time performance. This program has 
been delayed due to the shutdown.
                               conclusion
    There can be no doubt that the status quo is broken and has been 
for some time. The 35-day shutdown was just the latest of many 
instances in which FAA funding, its workforce, and the aviation 
industry have been held hostage by a political disagreement that has 
nothing to do with aviation. A second shutdown would be much more 
disastrous for the system if the 3-week CR does not lead to a longer 
term appropriations bill on or before February 15.
    This shutdown emphasized that a stop-and-go funding stream is 
unsustainable. Stop-and-go funding crises wreak havoc on the NAS, delay 
critical modernization and infrastructure projects, and exacerbate the 
current controller staffing crisis, which has resulted in a 30-year low 
of CPCs. Every time the NAS is forced to endure another shutdown or a 
threatened lapse in appropriations or FAA authorization, the United 
States is at risk of losing its status as the safest, most efficient 
airspace system in the world. We must not let this happen again and 
NATCA will continue to fight for a solution to this problem.
    As a result, NATCA's position on air traffic control reform remains 
consistent. We do not support any one particular reform model and we 
will meticulously review the details of any proposal before deciding 
whether to support or oppose it. In order to receive NATCA's 
consideration for support, a reform proposal must improve upon the 
status quo, without adopting a for-profit air traffic control model, 
and--at minimum--meet NATCA's Four Core Principles for Reform:
    1.  Any reform model must ensure that the frontline workforce is 
fully protected in its employment relationship. It is crucial to 
maintain NATCA members' pay and benefits, including retirement and 
health care, along with our negotiated agreements for their work rules, 
and indemnification for our members for acts within the scope of their 
employment.
    2.  Safety and efficiency must remain the top priorities within the 
system. We cannot allow maintenance to lag or a reduction in staffing 
to save money. The NAS must be fully staffed to ensure both safety and 
efficiency, and to maintain capacity.
    3.  A stable, predictable funding stream must adequately support 
air traffic control services, staffing, hiring and training, long-term 
modernization projects, preventative maintenance, and ongoing 
modernization to the physical infrastructure. Stop-and-go funding 
crises slow the hiring and training process, which exacerbate the 
current controller staffing crisis. The lack of a stable funding stream 
also prevents timely implementation of NextGen modernization projects.
    4.  Any reform model must maintain a dynamic aviation system that 
continues to provide services to all segments of the aviation 
community, from commercial passenger carriers and cargo haulers to 
business jets and to general aviation, from the major airports to those 
in small communities and rural America. We cannot emphasize enough how 
important it is that our system continues to provide services to the 
diverse users of the NAS. The United States has a vibrant general 
aviation community that relies on us, while the economic success of 
rural America also is connected to access to the NAS through serving 
even the most remote areas.
    NATCA thanks Chairman DeFazio and Chairman Larsen for introducing 
the Aviation Funding Stability Act of 2019 (H.R. 1108). We are urging 
everyone in Congress to support it. NATCA has thoroughly reviewed the 
Aviation Funding Stability Act of 2019. It would provide a stable, 
predictable funding stream for the NAS by preventing Government 
shutdowns from affecting the FAA. NATCA strongly supports this 
legislation.
    Thank you for the opportunity to offer testimony on this critical 
issue.

    Mr. Larsen. Thank you, Mr. Rinaldi.
    Mr. Perrone, you are recognized for 5 minutes.
    Mr. Perrone. Thank you. Chairman DeFazio, Chairman Larsen, 
Ranking Member Grave, and members of the subcommittee, thank 
you for inviting me to testify on behalf of the Professional 
Aviation Safety Specialists to discuss the impacts of the 
recent Government shutdown.
    The impacts of the shutdown resonated throughout the 
industry as aviation safety inspectors and many others sat idly 
on the sidelines for weeks. Frustration grew, morale dropped, 
while modernization was brought to a standstill. In addition, 
the FAA's ability to recruit and retain highly skilled workers 
may have been severely damaged.
    PASS represents approximately 11,000 FAA employees 
nationwide, including Puerto Rico, Guam, and American Samoa. 
They install, maintain, support, and certify complex air 
traffic control equipment. They inspect and oversee the 
commercial and general aviation industries. They develop flight 
procedures and perform quality analysis of aviation systems 
using air traffic control. They aid in the building and 
restoring of air traffic control facilities as well.
    These employees are the voice of aviation safety. They 
provide a unique insight into the system in the industry they 
oversee. Our members are tasked with ensuring that the U.S. 
aviation system remains the safest in the world 24 hours a day, 
7 days a week. Yet for 35 days, many of them were not 
performing their duties.
    Those who were on the job were working under stressful 
conditions without pay, while some worked over 10-hour shifts. 
Dedicated Federal employees, many of them lifelong public 
servants and military veterans, became collateral damage in a 
dispute unrelated to aviation safety.
    Employees within the FAA's Office of Aviation Safety 
represent the backbone of the system. They develop regulatory 
standards and ensure your aircraft and those responsible for 
keeping it in the sky are up to the task and in full regulatory 
compliance.
    But when the shutdown began, thousands of aviation safety 
inspectors were furloughed and told not to report to work. They 
wanted to, but they couldn't. For 35 days the FAA's safety 
oversight was severely curtailed. With each passing day, a 
layer of safety was stripped away as the system became more 
exposed to risk. For example, the FAA was not overseeing 
foreign repair stations for 35 days, and the world knew it. 
This is not an acceptable standard.
    The aviation industry depends on vital certification work 
that PASS-represented employees perform. But during the 
shutdown, important certification activities were on hold. The 
FAA and the aviation industry will likely feel the effects of 
this shutdown for years to come.
    Thousands of other FAA employees, primarily in the Air 
Traffic Organization, or ATO, remained on the job without pay. 
This includes airway transportation system specialists as well 
as other safety professionals. Modernization of the system was 
brought to a halt. Implementation of NextGen programs, 
procedures, and equipment were not being deployed, and training 
was halted. This will inevitably lead to delays in the 
implementation of new technologies and procedures. Again, the 
long-term impacts of the shutdown will resonate throughout the 
industry.
    As stated before, the agency's ability to attract and 
retain highly skilled employees after the shutdown may have 
been damaged. Employees trained and certified by the Government 
will look to the private sector for job security. Inspectors 
are fleeing to the private sector, and years of experience will 
be lost. The call to public service may be lost as well.
    The human impact must be considered. The timing of the 
shutdown before and after the holidays could not have been 
worse. FAA employees needed to be focused on critical duties, 
not on whether they can pay their bills or if they need a 
second job to put food on the table.
    During the shutdown, I heard from one of my members in 
Gonzales, Louisiana, who is in the administrative side of the 
house, and was furloughed during the shutdown. She is a single 
mother of three and putting two children through college. She 
is also a veteran, who dutifully served her country. Yet for 35 
days, her main concern was the shutdown and when she would be 
able to pay her bills. She told me of the psychological effects 
and the stress it put on her and her family. She deserves 
better than this. All Federal employees deserve better than 
this.
    In closing, PASS emphasizes that every day the Government 
is shut down, our country is gambling with aviation safety. We 
cannot subject the flying public to unnecessary risk due to 
political disagreements. Aviation safety is like a team sport: 
Without support staff, facilities would not operate at an 
optimum level. Without technicians, the air traffic controllers 
would not be able to perform their job. And without inspectors, 
the aviation system becomes less safe and efficient. The full 
team needs to be on the job, free of unnecessary burdens 
unrelated to the mission.
    Thank you very much for the opportunity to testify on this 
important issue, and I look forward to answering any questions.
    [The prepared statement of Mr. Perrone follows:]

                                
Prepared Statement of Michael Perrone, President, Professional Aviation 
                      Safety Specialists, AFL-CIO
    Chairman Larsen, Ranking Member Graves, and members of the 
subcommittee, thank you for inviting me to testify on behalf of the 
Professional Aviation Safety Specialists, AFL-CIO (PASS) to discuss the 
impacts of the most recent Government shutdown and the risk Government 
shutdowns pose to the safety of the aviation system. The impacts of the 
shutdown resonated throughout the industry and across the country as 
aviation safety inspectors sat idly on the sidelines for weeks, morale 
suffered and frustration grew, and modernization was brought to a 
standstill.
    PASS represents approximately 11,000 Federal Aviation 
Administration (FAA) and Department of Defense employees throughout the 
United States. PASS-represented employees in the FAA install, maintain, 
support and certify air traffic control and national defense equipment, 
inspect and oversee the commercial and general aviation industries, 
develop flight procedures, and perform quality analyses of complex 
aviation systems used in air traffic control and national defense in 
the United States and abroad. PASS members work behind the scenes to 
ensure the safety and efficiency of the aviation system that transports 
over 800 million passengers to their destination each year. The 
diversity of the PASS-represented workforce provides insight into the 
safety of the system they maintain and the industry they oversee. PASS 
members are tasked with ensuring that the U.S. aviation system remains 
the safest in the world 24 hours a day, 7 days a week.
    Yet, for 35 days, many of these employees were furloughed and not 
performing their duties while others were working under stressful 
conditions. None of them were getting paid. Thousands of FAA employees 
went for weeks without a paycheck and worked with the uncertainty of 
not knowing when that paycheck would come. These FAA employees--from 
aviation safety inspectors to technicians to administrative staff--are 
the true victims despite the fact that funding of the aviation system 
was not at stake. To put it simply, dedicated Federal employees, many 
of them lifelong public servants and military veterans, were treated as 
collateral damage. As a result, a critical layer of safety was removed, 
and this is unacceptable.
    The following is a detailed discussion of the critical work PASS 
members do and the far-reaching impacts a Government shutdown has on 
their ability to fulfill their responsibilities. I am confident that 
you will agree that these committed, dedicated aviation professionals 
deserve to be treated with respect and dignity and recognized for the 
important work they perform every day: ensuring the continued safety of 
the U.S. aviation system.
                       office of aviation safety
    Within the FAA's Office of Aviation Safety (AVS), PASS represents 
employees in the Flight Standards Service and Manufacturing Inspection 
District Offices (MIDOs) within Aircraft Certification. Our Flight 
Standards bargaining unit is comprised of several thousand aviation 
safety inspectors who perform a range of duties in the field to ensure 
safety standards are being followed. There are also inspectors and 
other highly trained staff that develop regulatory standards and 
policy. Within the Flight Standards Office of Foundational Business are 
examiners in the FAA's Civil Aviation Registry as well as analysts to 
oversee budgeting, staffing, training and other support functions. 
Collectively, these employees represent the safety net of the aviation 
system; in other words, these employees ensure your aircraft and those 
responsible for keeping it in the air are up to the task and in full 
regulatory compliance.
    At the onset of the shutdown, Flight Standards and MIDO employees 
were furloughed and told not to report to work. Essentially, an entire 
layer of safety was stripped away as the system became exposed to more 
risk with each passing day. According to FAA policy and directives, 
this meant that, among other things, the following tasks were not being 
performed or being performed at a reduced level:
    <bullet>  Approval of exemptions for unmanned aerial systems 
operations
    <bullet>  Issuance of airmen certificates
    <bullet>  Development of Next Generation Air Transportation System 
(NextGen) safety standards, as well as development, testing and 
evaluation of NextGen technologies
    <bullet>  Aviation rulemaking
    <bullet>  Evaluations, audits and inspections
    <bullet>  Full range of air traffic safety oversight \1\
---------------------------------------------------------------------------
    \1\ Department of Transportation, Office of the Assistant Secretary 
for Budget and Programs, and CFO, ``Operations During a Lapse in Annual 
Appropriations Plans by Operating Administration,'' December 2018 
(revised as of January 11, 2019).
---------------------------------------------------------------------------
Reduction in Safety Oversight
    Aviation safety inspectors are responsible for developing, 
administering and enforcing regulations and standards concerning civil 
aviation safety. According to the FAA, these employees set the 
``standards for certification and oversight of airmen, air operators, 
air agencies, and designees as well as safety of the flight of civil 
aircraft in air commerce.'' \2\  This is a workforce vital to 
monitoring the risk of the system--they should be on the job every day 
performing this work without fear of when the next paycheck will 
arrive. Without every inspector and safety employee on the job focused 
solely on their duties, the potential risks to aviation safety 
increased.
---------------------------------------------------------------------------
    \2\ Department of Transportation, Federal Aviation Administration, 
Aviation Safety Workforce Plan 2017-2026, p. 25, 2017.
---------------------------------------------------------------------------
    Furthermore, the FAA utilizes a risk-based approach to aviation 
safety. This is intended to allow the agency to identify, address and 
mitigate risk in the National Airspace System (NAS) and allocate 
resources to the areas of greatest concern. While PASS has voiced 
concerns with this philosophy in the past due to reliability of 
information and methods for assessing risk, the system was 
dysfunctional during the shutdown. With aviation safety inspectors off 
the job, risk was not being identified, addressed or mitigated. 
Critical safety information received from the airlines was not being 
entered in the agency's systems. While a catastrophe did not occur 
during this most recent shutdown, this should not be an acceptable 
standard for the safest system in the world.
    Aviation safety inspectors are also responsible for inspecting 
aircraft and work performed at foreign repair stations. The airline 
industry has significantly increased its reliance on outsourced 
maintenance to foreign repair stations, and PASS has consistently 
expressed concern that oversight of this work is lacking. PASS 
appreciates that lawmakers have worked with the union to increase the 
number of inspections of FAA-certificated foreign repair stations. 
However, during a shutdown, this work is seriously curtailed. Simply 
put, the FAA was not overseeing foreign repair stations for 35 days and 
the world knew it.
Impacts on Certification and Other Inspector Activities
    Commercial and general aviation depend on the work of PASS-
represented employees and the vital certification work they perform. 
During the shutdown, oversight of important certification activities 
was put on hold. This undoubtedly resulted in a backlog of aircraft and 
design approvals. Aircraft manufacturers depend on FAA inspectors and 
engineers being on the job to review and certify new equipment on a 
timely basis. Yet, no new safety designs could be approved, quality 
system audits and supplier control audits were delayed, and 
investigations were postponed. Inspectors had to limit their focus and 
were not able to certify airplanes, repair stations, airline operators 
and aviation personnel. A lapse in Government operations seriously 
affects the FAA's ability to continue to issue its thousands of design 
approvals and type certificates on an annual basis, along with the 
ability to conduct safety-required surveillance and oversight necessary 
in such a technologically complex system.
    There was also a decrease in FAA airworthiness directives during 
the shutdown, which are legally enforceable regulations to correct 
unsafe conditions in aircraft, engines and propellers. According to a 
Consumer Reports investigation, since January 1, the FAA has published 
only two directives compared to 19 during the same period last year.\3\ 
Normally, these directives stem from the daily work of FAA inspectors. 
However, with the majority of inspectors furloughed, the flying public 
could only trust the airlines inspecting themselves, an inherently 
unwise approach to safety.
---------------------------------------------------------------------------
    \3\ McGee, William J. ``In Shutdown's Wake, FAA Inspectors Face 
Backlog of Safety and Maintenance Issues.'' Consumer Reports, January 
25, 2019. Accessed February 10, 2019: https://www.consumerreports.org/
airline-safety/faa-inspectors-safety-maintenance-backlog-government-
shutdown/.
---------------------------------------------------------------------------
    Although a portion of the principle inspectors were eventually 
recalled during the shutdown, a majority of the FAA personnel who 
certify the safety of aircraft remained furloughed. Certification 
timelines are tightly configured, and the impact of the shutdown will 
not be limited to the 35 days of lapsed Government funding. The FAA 
workforce and the industry will likely feel the lasting effects of the 
shutdown for years to come.
Impacts to Recruiting and Retaining Employees
    The shutdown exacerbated the existing challenges related to 
recruiting and retaining employees as well as heightening the ongoing 
concerns over the FAA's lack of clarity over staffing. For years, PASS 
has been working with lawmakers on this committee and the agency to 
encourage the development of a staffing model for aviation safety 
inspectors in order to properly determine the number of inspectors 
needed to protect the system. During a shutdown, staffing needs become 
even more apparent since the agency is unclear on its reasoning for 
calling back a certain number of inspectors and the timing of the call 
backs is also uncertain. For instance, as the shutdown continued, in 
mid-January, Flight Standards altered its staffing plan and recalled 
approximately 1,700 principle inspectors. However, this only reflected 
about one-third of the inspector workforce within Flight Standards. The 
most recent FAA reauthorization legislation instructs the FAA to work 
with PASS to develop a more reliable staffing model. However, due to 
the shutdown and the threat of yet another closure, and as the FAA 
plays catch up with the backlog of oversight activities halted during 
the shutdown, it is unclear if and when a staffing model will be 
developed.
    The shutdown may very well have long-term impacts within Flight 
Standards, which is already struggling to attract and retain aviation 
safety inspectors. The FAA is continuously competing with the airline 
industry that is oftentimes a more viable financial option for 
inspectors, particularly when airlines are economically sound. To this 
end, PASS is engaged in discussions with the FAA to identify ways to 
maintain these indispensable positions. For example, the FAA recently 
approached PASS with the idea of hiring certain employees at a higher 
salary level than typically offered due to hiring challenges. There is 
no guarantee that this modest increase will be enough to lure qualified 
employees into Government service. Of certainty, the shutdown does not 
help and will have done nothing to encourage employees to leave 
industry or select public service. Additionally, Flight Standards 
continues to lose journeymen level inspectors at a higher rate than it 
is able to backfill. This is incredibly disconcerting, especially 
considering that it can take years to fully train an inspector. 
Inspector staffing is not just about attracting employees; it is about 
attracting employees with the right skills, training and expertise to 
perform the work.
UAS Oversight
    Finally, it goes without saying that the aviation industry is 
rapidly evolving. This could not be more clearly displayed than through 
the growing Unmanned Aircraft Systems (UAS or drones) industry. As of 
July 2017, there were 879,696 registered UAS and over 21,000 UAS remote 
pilots.\4\ That number has no doubt risen over the past 19 months. 
According to the FAA, ``Enabling rapid growth in UAS operations while 
maintaining safety of the NAS for all users has become a significant 
portion of the AVS mission . . . The success of all these initiatives 
is embedded in AVS's diverse, highly skilled workforce.'' \5\ In a 2016 
memo to supervisors acquired by PASS, the former AVS director indicated 
that aviation safety technicians (ASTs) should handle virtually all UAS 
functions. However, ASTs were furloughed during the entire shutdown, 
essentially putting UAS oversight, approval and inspection at a 
standstill for 35 days. This no doubt will have far-reaching economic 
impacts on both the agency and the UAS industry.
---------------------------------------------------------------------------
    \4\ Department of Transportation, Federal Aviation Administration, 
Aviation Safety Workforce Plan 2017-2026, pp. 46-47, 2017.
    \5\ Id., p. 6.
---------------------------------------------------------------------------
    It is indisputable that aviation safety inspectors and other 
employees in AVS should be on the job every day, secure in the 
knowledge that they will receive a paycheck, and able to perform their 
duties to the highest of standards.
                        air traffic organization
    PASS also represents employees in the FAA's Air Traffic 
Organization (ATO) including air transportation systems specialists 
(ATSS), electronics technicians, engineering technicians (colloquially 
referred to as the technician workforce) as well as other safety 
professionals and administrative staff. These employees install, test, 
troubleshoot, repair and certify radar, communications equipment, 
navigational aids, airport lighting and backup power systems, as well 
as maintain other systems, equipment and software associated with the 
NAS. They are the only people authorized to certify the operation of 
FAA systems and equipment, a task considered inherently 
governmental.\6\ In short, and according to the FAA's description of 
the position, they are responsible for ``everything air traffic 
controllers and pilots use for safe flight.''
---------------------------------------------------------------------------
    \6\ Manager, General Law Branch, AGC-110, memorandum to Manager, 
Maintenance Engineering Division, ASM-100, ``Contractor Certification 
of Navigational Systems in National Airspace System (NAS),'' June 18, 
1991.
---------------------------------------------------------------------------
    The majority of these employees were not furloughed--they reported 
to work every day without pay in order to fulfill their responsibility. 
Through rain, snow and ice, these dedicated professionals were on the 
job climbing towers and at the airports repairing and maintaining radio 
towers, RADAR, navigational aids and other equipment to ensure the NAS 
was functioning. Contrary to some reports, at no point during the 
shutdown did these employees engage in fix-on-fail maintenance; 
however, these employees worked under extreme stress to complete their 
work. Thanks to their dedication, the system was maintained at the 
highest standards under the conditions. These employees--many of them 
military veterans--take their commitment to the United States very 
seriously and only want to perform their jobs and be recognized for 
their dedication. When they go to work, they should only have to focus 
on the job of making sure equipment is properly maintained and 
certified, not whether their families are financially secure.
Modernization and Restoration
    Proper staffing at critical airports throughout the country remains 
a challenge while hiring and training new technicians is not a quick or 
easy process. Inadequate technician staffing will no doubt result in 
increased restoration times during an outage and more air traffic 
delays. It can also make it difficult to ensure 24-hour safety 
coverage, a potentially dangerous situation that increases the risk of 
major air traffic issues. Understaffing of the FAA's technical 
workforce combined with the daily stress of the Government shutdown 
only undermines safety. The United States must strive to retain the 
very best men and women to ensure the safety of the world's most 
complex aviation system.
    Modernization of this complex aviation system is also directly 
impacted during a Government shutdown. For 35 days, implementation of 
Next Generation Air Transportation System (NextGen) Modernization 
throughout the country was halted while NextGen programs, procedures 
and equipment were not being deployed. These intricate programs and the 
dedicated professionals carrying them out, all instrumental to NextGen, 
are sidelined during a shutdown. This halts modernization midstride, 
producing impacts that will continue to resonate throughout the system 
and lead to inevitable delays to the implementation of new technologies 
and procedures.
                              human impact
    The timing of the shutdown--before and after the Christmas 
holiday--could not have been worse for those not receiving a paycheck. 
Even though they were not getting paid, many FAA employees still had to 
report to work and endure the associated costs, such as transportation 
and child care. PASS surveyed members on the job during the shutdown to 
determine morale among coworkers. Phrases and words that appeared most 
often included ``terrible,'' ``stressed,'' ``upset,'' ``frustrated'' 
and ``fatigued.'' That is no type of work environment for the men and 
women responsible for ensuring the safety of the flying public.
    It is also worth noting that a Government shutdown impacts morale 
among the workforce. Not only are employees being deprived of 
compensation but forcing some employees to work while others are told 
to stay at home creates resentment and intensifies the frustration. 
While there is an attempt to lessen the burden on the public by 
requiring employees to continue work deemed to be essential, it cannot 
be lost that this disproportionally burdens employees. It is axiomatic 
that if the public and aviation industry felt the full brunt of a 
deprivation of Government services, the pressure to end a Government 
shutdown would be overwhelming.
    PASS also represents support staff in both AVS and ATO, often 
unsung employees who make sure facilities run in a safe and efficient 
manner. Not only are these employees typically lowest paid, they are 
also deemed to be ineligible to work during a shutdown. According to 
FAA guidance, ``Employees whose sole responsibility is performing 
policy and operational support work would remain on furlough.'' \7\ 
This is unacceptable. FAA employees--all FAA employees--should be able 
to focus on the critical duties of the job and not on whether they will 
be able to pay bills for the month or if they need to pick up a second 
job. These are real people struggling with real problems--house 
payments, sick children or parents, health issues, debt--and they 
should not be pawns in congressional negotiations.
---------------------------------------------------------------------------
    \7\ Department of Transportation, Office of the Assistant Secretary 
for Budget and Programs, and CFO, ``Operations During a Lapse in Annual 
Appropriations Plans by Operating Administration,'' December 2018 
(revised as of January 11, 2019).
---------------------------------------------------------------------------
                            economic impact
    The impacts of the shutdown were not just felt in the pocketbooks 
of Federal employees. According to an estimate from the nonpartisan 
Congressional Budget Office (CBO), the Government shutdown cost the 
economy $11 billion. The CBO also projects a slowdown in economic 
growth as the damage of the shutdown is becoming clearer by the day. 
When the Government shutdown in 2013 for over 2 weeks, it took the FAA 
years to recover fully. How long it takes to recover from this 
shutdown, the longest in history, remains uncertain, especially with 
the threat of another Government shutdown looming on the horizon. If 
another shutdown should occur, it will only multiply the effects and 
impacts on the country.
                                closing
    In closing, PASS emphasizes that every day the Government is shut 
down and FAA employees are impacted, the aviation system is gambling 
with aviation safety.
    The U.S. aviation system is a well organized, cohesive unit, with 
all parts working together. As with any functioning system, removing 
one section or placing unwarranted stress on a particular area will 
result in weaknesses with the potential to derail the entire system. 
Without support staff in place, facilities would not operate at an 
optimum level; without technicians in place, controllers would not be 
able to perform their job; and without inspectors in place, the 
aviation system could potentially be less safe and would certainly be 
less efficient. The full team needs to be on the job, free of 
unnecessary burdens unrelated to the mission.
    Aviation plays a critical role in today's economy and delivers 
invaluable services to the flying public and the military. The FAA is 
simply not operating at full potential during a shutdown. The flying 
public should not be subjected to unnecessary risk due to political 
disagreements. The situation must not be repeated. While appropriators 
have assured that the FAA receives full funding in recent years, 
congressional disagreements have resulted in uncertainty. PASS calls on 
those in power to reach a funding deal that will prevent another 
government shutdown and fully fund the Department of Transportation and 
the FAA.

    Mr. Larsen. Thank you, Mr. Perrone.
    I now recognize Mr. Calio for 5 minutes.
    Mr. Calio. Thank you to Chairman Larsen, Ranking Member 
Graves, Chairman DeFazio, and Ranking Member Graves, for the 
opportunity to testify today. On behalf of Airlines for America 
and its members, the country's leading passenger and cargo 
carriers, we appreciate the committee's leadership and focus on 
this timely issue of shutdown impacts and potential solutions.
    We also want to sincerely thank those Federal employees who 
went to work every day during the partial shutdown even though 
they were not being compensated. This includes our partners at 
the FAA, TSA, and CBP. Despite significant and prolonged 
hardship, they kept the U.S. aviation system operating and they 
ensured the safety and security of the traveling and shipping 
public.
    We all are extremely grateful, and our association and 
carriers were pleased to be able to make significant 
contributions to the nonprofit groups that were assisting 
Federal employees as they suffered through this hardship. 
Chairman Larsen, as you noted, and Ranking Member Graves, as 
you noted, this is at least the fourth shutdown that these 
workers have suffered since 2011, through two different 
administrations.
    I know we are here to memorialize the impacts of the 
shutdown, and we should. But our hope is that we come out of 
this united in an effort to make sure that this never happens 
again. That should be our goal for today and going forward.
    So Chairman DeFazio and Chairman Larsen, we want to thank 
you specifically for your leadership in putting forward a 
solution that would keep the FAA fully funded and operational 
with paid employees, thereby alleviating the serious impacts 
repeatedly experienced by the entire aviation industry.
    H.R. 1108, and Chairman DeFazio, your past efforts to 
redirect diverted TSA revenues, are greatly appreciated. And 
frankly, there is a silver lining here. Everyone at this table 
supports the legislation, and the entire industry is galvanized 
and united as never before.
    I would be remiss not to mention and thank Secretary Chao 
at the Department of Transportation and Acting Administrator 
Elwell for all they did to guarantee that the FAA continued to 
operate safely--and I stress safely--and as efficiently as 
possible for the traveling and shipping public.
    For air travel, the impact of the shutdown was particularly 
acute. While my written testimony contains a broader list of 
impacts that the shutdown had on our industry, and both Mr. 
Rinaldi and Mr. Perrone have laid forth many of those impacts, 
I want to mention just a few.
    Alaska Airlines had a delay in the start of commercial 
service from Paine Field in Washington, forcing already booked 
travelers to go back through Seattle. Southwest Airlines had 
new service to Hawaii; it has been delayed. That means less 
competition and fewer options until the airline can gain FAA 
approval, which is now delayed.
    Federal inspectors were not being paid, reducing the amount 
of oversight of the industry. Hiring new pilots into the 
workforce and promoting existing pilots was also frozen since 
the FAA was not able to process the required checks nor issue 
new pilot certificates. This is particularly harmful to the 
regional airlines, who are having workforce issues.
    I endorse everything Mr. Rinaldi said. I cannot say it any 
better about the impact on the air traffic controllers.
    Just a couple more overt impacts that are not that visible 
to the public. New planes were not able to be put into service. 
Collaborative planning for the summer season, which takes place 
every year and is critically important to how we handle 
convective issues in the summer, just like snow in the winter, 
has not taken place and is behind schedule. We will feel the 
impact of that come this summer. We won't realize it has 
happened because of the shutdown.
    So with that, I am going to move on and just say, in 
closing, we have talked about NextGen. The start and stop on 
NextGen is considerable. Every time the Government shuts down, 
we have to turn off these projects. It has a real impact, and 
it is cumulative over the years, and you cannot make up. You 
cannot just flick the switch back on. This most recent 
shutdown? It is over one-twelfth of the entire year.
    So again, Mr. Chairman, members of this committee, we 
cannot allow this to happen again. We have got a $6 billion 
trust fund. The money gets paid into that trust fund whether 
the Government is operating or not. We ought to move forward 
and find a solution to this. Your legislation is a start. A4A 
will support any solution that works so that we do not have to 
worry about another shutdown.
    Thank you for your time.
    [The prepared statement of Mr. Calio follows:]

                                
Prepared Statement of Nicholas E. Calio, President and Chief Executive 
                  Officer, Airlines for America (A4A)
    Airlines for America appreciates the opportunity to testify today 
on the impacts of the most recent partial Federal shutdown. On behalf 
of our member companies, I first would like to acknowledge and 
sincerely thank the dedicated employees at the Department of 
Transportation (DOT), the Federal Aviation Administration (FAA), the 
Department of Homeland Security (DHS), the Transportation Security 
Administration (TSA) and the U.S. Customs and Border Protection (CBP). 
Despite significant and prolonged hardship, they kept our aviation 
system operating safely and minimized disruption. We are extremely 
thankful for their efforts and desperately hopeful that neither their 
professionalism nor their livelihoods will be unnecessarily put to the 
test again just 2 short days from now.
    Chairman DeFazio and subcommittee Chairman Larsen, I also would 
like to specifically thank you for your leadership in trying to find 
solutions that would alleviate many of the impacts felt by the aviation 
community and the traveling and shipping public. Your most recent 
legislation (H.R. 1108) and your past efforts to redirect diverted TSA 
revenues are greatly appreciated. Moving ahead, we look forward to 
working with you to find collaborative and practical solutions that 
effectively address shutdown related impacts.
    Additionally, I would like to recognize Secretary Elaine L. Chao of 
the DOT and Acting Administrator Dan Elwell of the FAA for their 
leadership. Their decision to call back safety professionals who would 
have otherwise remained furloughed, was critical to the operational 
needs of the U.S. aviation industry and, more importantly, the needs of 
the traveling and shipping public who sustain it.
                    shutdown background and impacts
    This committee knows that shutdowns are not new, and they are not a 
rare phenomenon. In just the past decade, the FAA has been subjected to 
several partial or Governmentwide budget reductions and shutdowns.
    <bullet>  In July 2011, the lapse in FAA's authorization caused the 
FAA to stop work on numerous projects including NextGen modernization 
projects.
    <bullet>  In April 2013, the Governmentwide sequester caused the 
FAA to furlough air traffic controllers resulting in massive delays 
throughout the ATC system and the cancellation of hundreds of flights, 
impacting hundreds of thousands of passengers.
    <bullet>  In October 2013, the Government shutdown resulted in 
additional FAA employee furloughs.
    The airline industry relies upon the FAA to provide critical safety 
and operational oversight through approvals of appropriate operational 
and maintenance specifications. The recent shutdown impacted A4A member 
airlines in several operational areas from complying with new safety 
requirements, bringing new aircraft into operation, approvals for new 
service, flight crewmember certification and checks, training, and the 
longer term planning for operations and Air Traffic Management 
modernization. While not exhaustive, below is a compilation of some of 
the impacts of the most recent shutdown. These examples primarily focus 
on the short-term immediate impact of the shutdown, but the 
ramifications of the shutdown, compounded by previous shutdowns, will 
have dramatic and unforeseen repercussions in the long term.
    <bullet>  New Operations--The shutdown resulted in the delay of new 
authorizations necessary for expanded service. As an example, the lack 
of FAA approvals has adversely impacted the ability of one carrier to 
initiate a new extended overwater (ETOPS) route.
    <bullet>  Aircraft Deliveries/Adding New Aircraft to Operations 
Specifications (OpSpecs)--The inability to obtain FAA approval for 
bringing new aircraft on-line delayed member airlines' ability to serve 
customers with new aircraft offerings, and the associated improvements 
in operational efficiencies, reduced environmental impacts and 
introduction of advanced technology.
    <bullet>  Severe Weather Planning/Operational Collaboration--Based 
on the commitment by the FAA staff, the shutdown did not, for the most 
part, adversely affect the Agency and aviation community daily efforts 
to coordinate the effective allocation of National Airspace System 
resources. However, operational reviews of what could be done 
differently did not occur.
      <bullet>  Looking ahead, we are concerned that the planning 
process essential for responses to the summer season did not begin. 
This delays the foundational planning needed to address convective 
weather that impairs spring/summer operations based on analysis of 
strategies from last year. It also delays much needed reports and 
planning associated with the status of staffing, evaluating impacts and 
timing of new routes as well as new training requirements. Rollout to 
the stakeholders and the training process are significantly delayed.
      <bullet>  The longer term effects of the shutdown may compound 
significant concerns about staffing and experience levels in key 
facilities, especially the Northeast Corridor. Our member carriers are 
warning that this could be a really bad summer for delays.
    <bullet>  Training Programs Enhancing Safety--Airlines were unable 
to receive FAA approvals for revisions to training programs, including 
complying with new FAA requirements such as Pilot Extended Envelope 
Training. This training is designed to improve the ability of pilots to 
address aircraft stall recognition and recovery.
    <bullet>  Airworthiness Directives (ADs)--Members of A4A were 
unable to complete certain ADs due to the inability to obtain FAA 
approvals for associated revisions to maintenance programs.
    <bullet>  Voluntary Safety Reporting--The disposition of voluntary 
safety reports under the Airline Safety Action Program (ASAP) was 
curtailed in cases where FAA participation was prohibited. ASAP 
enhances aviation safety through the prevention of accidents and 
incidents by encouraging voluntary reporting of safety issues and 
events that come to the attention of airline employees. ASAP is based 
on a safety partnership that includes the FAA and the airline 
certificate holder as well as the employee's labor organization. 
Without the participation of the FAA's representative, this program was 
limited in its ability to fully function and address safety concerns 
within the NAS.
    <bullet>  Automatic Dependent Surveillance-Broadcast (ADS-B) 
Equipage--The FAA was unable to approve Supplemental Type Certificates 
necessary to complete the updating of aircraft to meet the pending 
requirement for ADS-B equipage. The industry is on a robust initiative 
to install equipage to meet the FAA January 2020 mandate. Likewise, 
airlines were unable to gain FAA approval for associated OpSpecs.
    <bullet>  NextGen--Air Traffic Control modernization efforts--
Because this is both a planning and implementation initiative, the 
shutdown has impacted near-term improvements and longer term 
implementations being supported by the industry essentially halting the 
development and operational testing of technologies for NextGen.
      <bullet>  The shutdown is jeopardizing the improvements in the 
aviation system--capacity increases, predictability for passengers, 
reduction in flight times, decreases in emissions from the FAA 
investments of $20B and the industry's comparable investments. It is 
directly impacting new technologies for traditional aviation and new 
users like commercial space and drones, U.S. global aviation 
leadership, and the path for leveraging new satellite systems that will 
improve safety.
      <bullet>  The improvements in the Northeast Corridor, central to 
recent efforts by the NextGen Advisory Committee, are in jeopardy as a 
result of the shutdown. We face the potential of the FAA not being able 
to deliver on commitments of more effective and efficient metering of 
aircraft at Newark and LaGuardia Airports. There is doubt about the 
promised anticipated improvements in procedures along with pending 
improvement to high-altitude routes in question because of delays in 
EnRoute DataComm that are driven by operational band width of FAA 
facilities.
                       conclusions and solutions
    We are here as an industry and stakeholder community representing 
more than 7 percent of the U.S. gross domestic product, $1.5 trillion 
of economic impact, and more than 11.5 million jobs. We are here today 
to help develop, discuss and expeditiously implement or enact practical 
and agreeable solutions that will alleviate future shutdown scenarios.
    Having many years of experience in Washington, I have witnessed a 
number of shutdowns in various forms and circumstances. They all have 
some common threads. They quickly expose the critical role our 
Government professionals play in many aspects of our lives that we 
simply take for granted as standard operating procedure. They are 
unnecessary. And they are avoidable. This is especially relevant and 
applicable when it comes to our Federal aviation assets and workforces, 
which are all supported in one form or another by directs taxes or fees 
collected from the industries they regulate or oversee.
    We are in no manner downplaying the critical role of other 
Government agencies or employees impacted by the shutdown; what we do 
believe is that unique nature and funding structure of our aviation 
system should allow for efficient and effective budgetary contingency 
plans that would allow the FAA, TSA, and CBP to temporarily operate 
normally during a shutdown caused by lack of funding.
    The most recent shutdown was quickly approaching an unsustainable 
and detrimental level, as was evidenced by the flight delays on the 
east coast and reports that a growing number of TSA officers resigned 
because of financial hardships due to the shutdown and a lack of pay on 
the day that shutdown ended.
    As the pressures and strains on the system documented above are 
exacerbated by yet another oncoming shutdown this weekend, I predict we 
will quickly reach an unsustainable point in our system. We will, if we 
have not already, cause decades of both human and economic consequences 
that will hamper not only the potential of our system but also the 
capacity to operate in it--all to the detriment of the traveling and 
shipping public.
    We implore all involved, please heed not only our warnings but the 
entire stakeholder community's warnings. This vicious budgetary cycle 
of stops and starts with little to no stability or predictably has 
simply got to stop. The traveling and shipping public and the dedicated 
Federal employees who protect and maintain our Nation's aviation system 
deserve continuity.

    We appreciate the opportunity to testify and look forward 
to any questions. Thank you.
    Mr. Larsen. Thank you, Mr. Calio.
    I now recognize for 5 minutes Sara Nelson.
    Ms. Nelson?
    Ms. Nelson. Thank you, Chairman Larsen, Chairman DeFazio, 
Ranking Member Graves, and Ranking Member Graves, for the 
opportunity to testify on the impact of the longest Government 
shutdown in our history. My name is Sara Nelson, international 
president of the Association of Flight Attendants, representing 
nearly 50,000 of aviation's first responders at 20 airlines.
    Just last week I attended my annual safety and security 
training required for my qualifications as a certified flight 
attendant. And rule number one when performing safety-sensitive 
work is to remove all distractions and focus. Flight attendants 
artfully complete safety tasks, shifting on a moment's notice 
from the emotional intelligence our job requires to the total 
focus it takes to perform safety and security duties.
    And we should talk about addressing the inadequate FAA 
minimum staffing regulations currently in place once we know 
our industry is on safe ground. Today, though, we must focus on 
the distractions created by the shutdown and the impact it had 
on running a safe and secure system.
    For decades, those who want to privatize every Government 
program have vilified Government workers as nameless, faceless 
bureaucrats. But the truth is these are the people who keep us 
safe. They are the people who live and work in our communities. 
If they cannot do their job, flight attendants cannot do our 
job. And no one gets out of this unscathed because aviation is 
what connects and moves our entire economy. This is about our 
safety, our security, and our jobs.
    Shutdowns are never good. Our current experience is 
unprecedented. We can never allow it to happen again. Picture 
this: Airline pilots typically maintain what they call a 
``sterile cockpit'' during takeoff and landing, when no 
communication is permitted between the cabin and the flight 
deck. This is to allow pilots to focus on the most difficult 
and task-intensive parts of the flight.
    But during the shutdown, some pilots briefed flight 
attendants that there would be no sterile cockpit on their 
flight. They were so concerned that the shutdown had 
compromised security screening that they felt they needed to 
alter safety procedures so they could be informed immediately 
if there was a security issue in the cabin.
    Air travel is a fully integrated operation that relies on 
Government and private industry working together. When any link 
in this chain breaks down, the whole system suffers. We still 
feel the shock and horror of losing our flying partners because 
of gaps in security. We never shake that grief, nor the loss we 
have experienced for years with furloughs and bankruptcies.
    Safety and security is nonnegotiable. It is critical that 
Washington stop the threat of day 36 and take steps to ensure 
this never happens again. We hope that does happen this week.
    AFA fully supports the proposed Aviation Funding Stability 
Act of 2019. This legislation makes sense because there is 
absolutely no argument to close the Government when funding 
exists, specifically related to the functions of the FAA. And 
we urge immediate action on this along with all of our 
colleagues.
    Still, we have seen that aviation relies on many areas of 
Government to keep us safe. We call on lawmakers to ensure 
Government workers are never locked out again. We also worked 
with this committee to lock in the FAA Reauthorization Act of 
2018, including critical issues that matter for safety of 
flight attendants, pilots, and our passengers.
    The shutdown stopped implementation of this bill. Flight 
attendant fatigue exists today. The bill includes improved 
rest, along with implementation of a fatigue risk management 
plan, to close this safety loophole.
    Evacuation standards for certification of aircraft do not 
take into consideration the current cabin environment for safe 
evacuations. Secondary cockpit barriers are required to be 
installed on all new aircraft to help thwart an attempt to 
breach the flight deck and end the absurd policy of expecting 
flight attendants to serve as that physical barrier.
    The bill addresses these issues, too, along with sexual 
assault prevention, reporting, and response, among hundreds of 
other safety initiatives. Again, none of this has been 
implemented, and the shutdown made it impossible to move 
forward with accountability.
    Flight attendants started to experience the economic impact 
of the shutdown, as did our communities. For example, delaying 
the Paine Field opening to commercial traffic caused flight 
attendants to lose flying, lose pay, and the same is true for 
pilots and other workers.
    In addition, the economic impact to Everett includes 
cancellation of over 600 crew room overnights in hotels. This 
also means other travelers are not staying in those hotels, 
eating at nearby restaurants, using transportation, or 
otherwise spending in the community. Many airlines' flights 
were canceled because the FAA could not sign off on delivery of 
aircraft, more work lost.
    This was the tip of the iceberg, though. Eleven million 
Americans who do work related to our industry were in jeopardy. 
This hampered our ability to compete with the world, and it 
created damage that may last for years.
    There is bipartisan support to keep the Government open 
with stable, long-term funding. Americans overwhelmingly 
support this. If Washington will not put an end to this crisis, 
we will take action to save lives and protect U.S. aviation.
    I would be happy to answer any questions. Thank you again.
    [The prepared statement of Ms. Nelson follows:]

                                
Prepared Statement of Sara Nelson, International President, Association 
                   of Flight Attendants--CWA, AFL-CIO
    Thank you Chairman DeFazio, Chairman Larsen, Ranking Member Sam 
Graves, and Ranking Member Garret Graves for the opportunity to testify 
on the impact of the longest Government shutdown in our history. My 
name is Sara Nelson, international president of the Association of 
Flight Attendants--CWA, AFL-CIO (AFA), representing nearly 50,000 of 
aviation's first responders at 20 airlines.
    Last week I attended my annual safety and security training 
required for my qualifications as a certified Flight Attendant. Rule 
No. 1 when performing safety-sensitive work: remove all distractions 
and focus. Shutdowns are never good. Our current experience is 
unprecedented. Almost 2 million workers were locked out or forced to 
work without pay for more than a month. Others have been going to work 
when our workspace is increasingly unsafe. The entire airline industry 
is in jeopardy. No one will get out of this unscathed because aviation 
is what connects and moves our entire economy. Lawmakers and people in 
Government know that. Yet somehow, we are here discussing the 35-day 
nightmare for Federal workers and those of us who count on them to keep 
us safe.
    Picture this. Airline pilots typically maintain what they call a 
``sterile cockpit'' during takeoff and landing, when no communication 
is permitted between the cabin and flightdeck. This is to allow pilots 
to focus on the most difficult, and task-intensive, parts of the 
flight. But during the recent Government shutdown--the longest in our 
Nation's history--some pilots briefed flight attendants that there 
would be no sterile cockpit on their flight. They were so concerned 
that the shutdown had compromised security screening, that they felt 
the need to alter safety procedures so that they could be informed 
immediately if there was a security issue in the cabin.
    This is just one of the many chilling stories I heard in recent 
weeks from flight attendants and the pilots we fly with. The shutdown 
put our lives and livelihoods in danger, risked the safety of everyone 
who flies, and threatened our entire economy.
    Many Americans breathed a sigh of relief when the shutdown ended, 
assuming that the crisis had passed. But things will only get worse if 
the shutdown continues into day 36 on February 16.
    Flight attendants are not Federal workers, and people have asked 
why we are so outspoken on this shutdown. It's simple: aviation doesn't 
work without Federal workers. Air travel is a fully integrated 
operation that relies on Government and private industry working 
together. When any link in this chain breaks down, the whole system 
suffers. We still feel the shock and horror of losing our flying 
partners because of gaps in security. We never shake that grief, nor 
the pain we experienced with furloughs and bankruptcies that erased 
retirement security, required us to work harder for less, and spurred 
many stories of personal loss.
    We need air traffic controllers to be fully rested and able to 
focus on their jobs, not worried about losing their homes. We need 
transportation security officers tuned in to their morning briefing, 
not wondering if the food pantry will still be stocked when he gets off 
his shift. We need the intelligence community on the job to identify 
threats and stop them, not worrying about the means to care for their 
own kids. We need the Coast Guard flying out over our waters with full 
view of what's ahead, not just over our borders to serve as the last 
line of defense.
    Safety and security is nonnegotiable. It is critical that 
Washington stop the threat of a day 36 and take steps to ensure this 
never happens again. AFA fully supports the proposed Aviation Funding 
Stability Act of 2019 which would allow the FAA to keep all of its 
programs running and all of its employees working by drawing from the 
Airports and Airways Trust Fund during any lapse in typical Government 
appropriations. This legislation makes sense because there's absolutely 
no argument to close Government when funding exists specifically 
related to the functions of the FAA. Still, we've all seen that 
aviation relies on many areas of Government to keeping flying safe: 
DHS, DOT, CBP, State, Justice, FEMA, FDA, EPA. We call on all lawmakers 
to ensure Government workers are never locked out again.
    If the shutdown continues, we won't know when or where problems may 
happen. That's why my union, along with other aviation unions, warned 
that the risk to aviation posed by the shutdown could not even be 
measured. Because of the disruption of key Federal systems that support 
the operation of the airline industry, air travel could be disrupted at 
any time, anywhere--and that's not even counting the damage if there's 
a serious incident.
    Flight attendants are aviation's first responders and the last line 
of defense for aviation safety and security. We take our responsibility 
seriously. That's why, through our unions, we've fought to ban smoking 
on planes, to keep knives out of the cabin, and so much more. Now, we 
are once again standing up for safety and security.
    We also worked with this committee to achieve long-term 
authorization for aviation to improve further upon, outside of this 
current environment, the safest transportation system in the world. The 
FAA Reauthorization Act of 2018 included critical issues that matter 
for the safety of flight attendants, pilot, and passengers. Flight 
attendant fatigue exists today. The bill includes improves rest along 
with implementation of a Fatigue Risk Management Plan to close this 
safety loophole. Evacuation standards for certification of aircraft do 
not take into consideration the current cabin environment for safe 
evacuation. Secondary cockpit barriers are required to be installed on 
all new aircraft to help thwart an attempt to breach the flight deck 
and end the absurd policy of expecting flight attendants to serve as 
that physical barrier. The bill addresses these issues too, along with 
sexual assault prevention, reporting and response--among hundreds of 
other safety initiatives. None of these things have been implemented 
though and the shutdown made it impossible to move forward with 
accountability.
    Flight attendants started to experience the economic impact of the 
shutdown, as did our communities. Airlines had scheduled flight to a 
new commercial destination, Paine Field (PAE), as of February 4, 2019. 
Horizon flight attendants had schedules reflecting this flying in 
February, but this work is now canceled. Flight Attendants who had PAE 
flying were given the options to sit reserve or take time off without 
pay. Monthly guarantees were reduced. The company stated in a memo to 
AFA that there would be a negative financial impact on affected Flight 
Attendants when there isn't any open time to replace the removed 
flying. While AFA is disputing the lack of pay protection, the 
immediate impact is felt by these flight attendants.
    In addition to the lost wages and per diem to the Horizon Flight 
Attendants, the economic impact to Everett includes cancellation of 
over 600 crew overnight hotel rooms. The total lost revenue to the 
Everett community is unknown as other travelers also aren't staying in 
these hotels, eating at nearby restaurants, using transportation, or 
otherwise spending in the community.
    At other airlines halted approval aircraft caused canceled flights 
and less work for flight attendants. This was the tip of the iceberg. 
If air traffic controllers who are eligible to retire decide that is 
the only option they have to provide for their families, a significant 
portion of airline capacity will be grounded. This will result in 
massive layoffs for flight attendants and directly harm the 11 million 
Americans who do work related to our industry. It will hamper our 
ability to compete with the world and it may create damage that lasts 
years. The consequences for all of our communities is enormous.
                                closing
    There are serious issues we need to debate as a country, but our 
democracy and economy only work when the basic functions of our 
Government are in place. It is immoral to put American lives in danger 
with reckless political games. We cannot allow our airline industry to 
be decimated by continue the shutdown for day 36 and beyond.
    There is bipartisan support to keep the Government open with 
stable, long-term funding. Americans overwhelmingly support this 
solution.
    As I close, I must leave you with this: if Congress ignores the 
will of the American people and takes us to day 36 of the shutdown, 
flight attendants will not risk the lives of our colleagues and our 
passengers.
    We have a duty to protect ourselves and the American people from 
danger. Working people have power when we come together. If Congress 
chooses the chaos of a continued lockout, we will use that power. If 
Congress will not put an end to this crisis, we will take action to 
save lives and protect U.S. aviation.
    I would be happy to answer any questions.

    Mr. Larsen. Thank you, Ms. Nelson.
    I now turn to Mr. Peter Bunce, and recognize you for 5 
minutes.
    Mr. Bunce. Chairman Larsen, Ranking Member Graves, Chairman 
DeFazio, and Ranking Member Graves, thanks for having me here 
today. For those Members that are new to the subcommittee, GAMA 
represents those that make the actual aircraft itself--the 
engines, the avionics, large maintenance, repair, overhaul 
facilities, and training providers. And we are a global 
association.
    If you look at what we have done over the last 10 years, 
working very hand-in-hand with our colleagues, Mr. Perrone's 
organization, along with this committee, we have implemented 
certification reform that, without, would have absolutely 
devastated our industry during this shutdown.
    So we are very thankful for the cooperative way we have 
worked with this. And I want to just echo what my colleagues 
here have said at the table. The legislation that has been put 
forward with the Aviation Funding Stability Act is something 
that has united the industry that I have not seen in the time 
that I have been at the association. And the only reason that 
we only had forty logos on the letter that you saw yesterday 
was just we did not have time--we wanted to get it out before 
this hearing, because there would have been many more. So you 
have universal support for this legislation going forward.
    Now, because we had the certification reform, we were able 
to still function during the shutdown. But that does not mean 
that it did not have significant impact to the manufacturers 
and maintenance providers. And I want to give you just two 
quick examples, and I will use one from Louisiana.
    So you have a rotorcraft company that provides emergency 
medical support throughout the Nation. And in fact, here in 
Washington, DC, those that we hear in the Life Flight 
helicopters were provided by this company. They do 
supplemental-type certificate modifications to these aircraft 
so that they can go ahead and do it.
    They were stalled. They were not able to get these aircraft 
to market. You have to make bets, as a manufacturer or a 
supplier, that you are going to be able to deliver product to 
your customer on time; if you do not, you default on those 
contracts. So that has significant impact, and it ripples 
through the system.
    Another example in Washington State: In the central part or 
western part of the State, we have a manufacturer making small 
aircraft. In fact, it is still fabric-covered. And the impact 
on them was cascading all during the shutdown. So they could 
not move airplanes that were already produced off the ramp to 
foreign buyers that bought the aircraft because validations all 
have to go through the FAA, and they were all stalled.
    When they go and they make an aircraft and they drill a 
hole, if the hole is mis-drilled and it is a little bit larger, 
then you have a deviation from the type design and you have to 
get permission from the FAA to put a bigger rivet in it. That 
is how highly regulated our industry is, like no other. And so 
you have ripple effects all throughout the system.
    So during the shutdown, we had very open lines of 
communication to the FAA leadership. And I just want to echo 
what my colleagues have said. Acting Administrator Elwell, Ali 
Bahrami, who runs the safety division, Teri Bristol on the air 
traffic control side, and up to Secretary Chao, they did 
everything within the limits of the law to be able to listen to 
us, and tried to mitigate as best they could.
    But all of these effects were compounding. So when you go 
into a shutdown or start planning for it, and that happened 
this week, all of a sudden the activity starts to slow down 
because they have got to get ready for the shutdown. And then 
once the shutdown is over with, our calculation, which is borne 
out with the previous shutdown that Ranking Member Graves 
mentioned, is usually about 3 to 4 weeks for every 1 week of 
shutdown because you are not just having to clean out your 
inbox. You have got to keep pace of this increasing amount of 
activity that is coming at Mr. Perrone's people.
    So the safety part of the FAA--we as manufacturers, a lot 
of us fly in the system and we touch Mr. Rinaldi's people all 
the time. And the selfless performance they did during the 
shutdown is so much appreciated. But Mr. Perrone's folks are, 
for us as manufacturers and maintenance providers and training 
providers, they are the unsung heroes because they sit there 
and they allow us, with the safety oversight that permeates 
every single thing that we do. And without them to be able to 
approve each and every part of the process, the system starts 
to break down and the recovery becomes very long.
    So now moving forward, it is very important for us as 
manufacturers to implement what you all did last year in the 
2018 FAA Reauthorization Act. There continues to be significant 
reforms out there in certification, and we had a lot of lessons 
learned during this shutdown.
    We learned that delegated authorities, or ODAs, that are 
managed in one part of the country are not managed the same in 
others. So there are a lot of things that we will be able to 
capture. But I would ask this committee, as we move forward, 
these reforms are important and we need to keep them online 
because we have tremendous new equipment coming into the 
system. A lot of attention is paid to commercial drones, but we 
have got on-demand air mobility coming very quickly. In 
commercial space, we are going to see launches this year on 
significant commercial space operations.
    So we need to make sure that the pressure remains and the 
oversight maintains on the FAA to be able to go and drive last 
year's reforms across the goal line. Thank you.
    [The prepared statement of Mr. Bunce follows:]

                                
  Prepared Statement of Peter J. Bunce, President and Chief Executive 
          Officer, General Aviation Manufacturers Association
    Thank you, Chairman Larsen and Ranking Member Graves. My name is 
Pete Bunce and I am president and CEO of the General Aviation 
Manufacturers Association (GAMA). On behalf of GAMA and over 100 of our 
member companies, we look forward to working with you and the members 
of the House Aviation Subcommittee in the 116th Congress on key 
aviation items. We also look forward to working with House 
Transportation and Infrastructure Committee Chairman Peter DeFazio and 
Ranking Member Sam Graves and the membership of the committee at large. 
Thank you for convening this hearing today which will be vital to 
understanding the short- and long-term impact of the recent partial 
Government shutdown on the Federal Aviation Administration (FAA) and 
the aviation industry, and how best to recover from it.
    GAMA exists to foster and advance the general welfare, safety, 
interests, and activities of the global general and business aviation 
industry. This includes promoting a better understanding of general 
aviation manufacturing, maintenance, repair, and overhaul and training 
and the important role these industry segments play in economic growth 
and opportunity, and in facilitating the critical transportation needs 
of communities, businesses, and individuals. The general aviation 
industry provides $219 billion in economic output overall to the U.S. 
economy and employs over 1.1 million people.\1\
---------------------------------------------------------------------------
    \1\ Contributions of General Aviation to the US Economy in 2013, 
PricewaterhouseCoopers, February 11, 2015.
---------------------------------------------------------------------------
    I appreciate the opportunity to speak about the impact of the 
shutdown on aviation manufacturing. However, I also want to make it 
clear that GAMA recognizes that these impacts go far beyond our 
critical part of the aviation industry. We appreciate and respect the 
work of all Federal employees, especially those working to promote the 
safety, security and economic health of the aviation system, and 
realize how difficult this recent period has been for the Federal 
workforce and those who contract and partner with the Federal 
Government. Our industry is one which relies on the professionalism, 
focus, and success of all aviation employees, both public and private 
sector. The U.S. aviation system is an extremely complex and 
interconnected one which provides the highest levels of safety and the 
largest and most robust air services network in the world--when 
significant stress is imposed on one part of this interdependent 
system, there is negative impact on all.
    I also want to recognize the great work of the House Transportation 
and Infrastructure Committee in enacting a 5-year FAA Reauthorization 
bill into law last year (P.L. 115-254). The law was rightly hailed at 
the time as providing needed stability and direction for the FAA and 
the aviation system and community. This recent shutdown was a challenge 
to that premise and we hope the subcommittee will work with us, FAA, 
and DOT to recover and move forward on critical initiatives which seek 
to strengthen and improve the efficiency of our national aviation 
safety system and enable continued growth and development of new 
aircraft and technologies. From GAMA's member companies' perspective, 
the certification reforms pushed by Congress and being implemented by 
FAA and industry have had a positive impact on safety oversight and 
industry health during normal operations, but also mitigated some of 
the debilitating impacts in this shutdown. Congressional leadership and 
oversight have been critical to the progress we have collectively made 
since 2012 and those efforts need to continue and be strengthened.
    We also ask the administration and Congress to act in a bipartisan 
way to make certain that we do not have another shutdown--either a 
partial one in the next few days or in the future. Either scenario will 
have extremely harmful effects to the aviation industry. Recovering 
from the recent Government closure will be both lengthy and 
complicated, and any subsequent shutdown of the FAA will multiply these 
negative impacts on small businesses, the economy, and safety. The 
strength of aviation manufacturing's economic contribution is dependent 
on a fully operating and functioning FAA being able to undertake 
certification, maintenance, pilot training, and other regulatory 
actions and approvals in order to bring aircraft, engines, avionics, 
and other new technologies and products to the U.S. and global 
marketplace and to properly maintain the existing fleet.
    For this reason, we applaud the leadership of Chairman DeFazio and 
Ranking Member Larsen and vigorously support the Aviation Funding and 
Stability Act of 2019 (H.R. 1108). GAMA is joined by numerous other 
aviation stakeholders in support of this legislation, including many in 
the general aviation community. The purpose of this legislation is 
simple--to enable the FAA to leverage and temporarily draw from the 
Airport and Airway Trust fund in the event of a future Government 
shutdown. If enacted, H.R. 1108 would provide targeted stability for 
the aviation system to function, including air traffic and critical 
elements of aviation safety--which includes certification, maintenance, 
and training--while ensuring congressional oversight. We look forward 
to working with members of this committee, and other stakeholders who 
share jurisdiction, in a bipartisan way to advance the Aviation Funding 
and Stability Act of 2019 in the near term and mitigate the 
consequences of any future Government shutdown on the FAA.
   the shutdown's impact on aviation manufacturing, maintenance, and 
                                training
Aircraft Certification
    By way of background, the FAA Certification process is structured 
to establish, demonstrate, and verify compliance with safety standards 
for design, manufacturing and performance of aircraft as well as to 
monitor and sustain the safety of aircraft once in service. During the 
shutdown, many GAMA member companies could not deliver products or were 
forced to stop development of new products or technologies because FAA 
personnel were unable to perform key certification activities. This 
halted the FAA review of design approvals, flight tests, development of 
new or revised policy/guidance, and approval of issue papers that are 
critical to establishing requirements for aircraft and other product 
certification.
    Manufacturers could not start any new certification projects other 
than routine minor FAA pre-approved activities. This was particularly 
difficult and harmful for small businesses, who rely on an ongoing 
stream of new business activities and their ability to innovate and 
attract new customers. Before any new certification project can start, 
including development of a new and improved component or part, upgraded 
software, or cabin modification, FAA must first establish the 
applicable airworthiness requirements and approve the certification 
plan on how the manufacturer will show compliance.
    Whenever there is a technical issue such as a new design feature or 
means of compliance, it requires FAA to approve an `issue paper' that 
needs to be processed across many different engineering, standards and 
policy offices. Several GAMA member small businesses were hit 
particularly hard by the shutdown because they simply could not 
continue their business without FAA coordination and were forced to 
make very difficult and significant business choices, because they 
could not predict when FAA might be available to resume their 
activities or if FAA would accept any of the work activity they 
completed. Manufacturers and their FAA Aircraft Certification offices 
were able to manage these effects somewhat through advance planning of 
ongoing and upcoming projects prior to the shutdown and by utilizing, 
when available, delegation systems and authorities.
Validation and Global Leadership
    Aviation is a global industry. Once an aviation product is approved 
by the FAA, this product must also be validated or accepted by foreign 
aviation authorities to enable export of U.S. manufactured aircraft and 
equipment. Likewise, for import of aircraft, many of which contain 
significant U.S. content, and components approved by non-U.S. 
authorities, FAA must validate their certification design approvals. 
During the shutdown, all validation programs between the FAA and other 
international aviation authorities were halted. As a result, the export 
and import of aviation products was negatively impacted. This not only 
affected some current deliveries, but there are potentially months of 
delay to many validation programs with significant impact on aircraft 
deliveries that could ripple throughout the aviation system of 
suppliers, operators, training and maintenance providers.
    Additionally, key international meetings critical to establishing 
global standards and enabling industry growth and exports were canceled 
or took place without FAA participation, diminishing FAA and U.S. 
leadership in the international arena.
Operating Authorizations
    Following the delivery of an aircraft, an operator must also obtain 
the FAA's authorization to operate that aircraft. During the shutdown, 
these authorizations for general aviation aircraft were halted. The FAA 
also authorizes specific functions for an operator to use such as 
allowing data link communication, Performance-based Navigation (PBN), 
and Electronic Flight Bags. These authorizations were stopped as well, 
limiting the efficiency and use of improved technology and procedures 
by operators and their aircraft.
Repair Stations and Recurrent Certification
    FAA also regulates and oversees the work done on aircraft and other 
products at maintenance and repair organizations. This includes the 
need for periodic, mandatory certification which were threatened given 
the agency could not perform needed safety inspections. At the same 
time, FAA could not inspect or certify repair station certificates for 
initial issuance, transfer, or approval for changes to grow their 
businesses.
    By example, one company planned to open a new facility after the 
holiday break. They had moved all their personnel and equipment and 
completely vacated their old facility. The new facility could not open 
because FAA was not able to perform an inspection which hampered the 
facility's operations and planned new hiring.
Training
    Another important part of the broader aviation safety system is 
those who provide training. During the recent shutdown, the GAMA member 
flight training providers found that the FAA was unable to approve 
training manual revisions, authorize training center evaluators, and 
qualify flight simulators.
    Without these approvals, training centers could not provide 
required training for pilots and this delay will likely be felt through 
the spring as operators and training centers work to make up a backlog 
of rescheduled training events that had to be canceled.
    For most businesses, it is not just one issue they faced during the 
shutdown but multiple ones. For instance, a small company in Washington 
State was unable to get FAA concurrence for any production changes that 
fall outside limited parameters. These kind of changes occur on a 
regular basis for this and other businesses. Additionally, this 
particular company has made significant investment in new product 
development and is seeking a new Type Certificate and several Type 
Certificate Amendments, each viewed as vital to maintaining their 
competitiveness, which were each impacted. Moreover, they also have 
applications for type certificate validations in several countries and 
the shutdown significantly affected the company's ability to move into 
new markets. As a result, this small company is left with new 
challenges in an already competitive and difficult global marketplace 
coupled with the threat of more uncertainty.
    Another example can be found in family owned Emergency Medical 
Service (EMS) aircraft operator and helicopter completion center that 
employs nearly 1,000 aviation professionals, 250 of whom reside in the 
State of Louisiana where they are headquartered. This privately held 
company also serves as a training provider for 140 EMS aircraft in 25 
States, plus the District of Columbia, that provide a critical link for 
rural healthcare delivery and a vital lifeline in times of emergency.
    Due to the Government shutdown, this company was unable to complete 
delivery of at least four helicopters contracted to be placed in 
service as EMS Medevac helicopters. These deliveries are dependent upon 
the issuance of a Supplemental Type Certificate (STC) from the FAA for 
a Single Pilot Instrument Flight Rule (SPIFR) equipment installation. 
FAA was scheduled to begin ground and flight testing in December, but 
these were postponed due to a 1-day observance honoring the passing of 
former President George H.W. Bush and, unfortunately, rescheduled to 
early January. That testing did not take place due to the shutdown and 
still has not been completed.
    The resulting impact of not receiving this STC in a timely manner 
forced the company to default on contracts and not provide their new 
technology for lifesaving activities. A version of this story was 
repeated many times during the shutdown for other life-saving vehicles 
given the lack of FAA Flight Standards field personnel to provide pilot 
check airmen certifications, route checks, and, approvals for 
modifications.
    In detailing these impacts, it is obvious there is a compounding 
and cascading effect of the shutdown on the overall aviation sector. At 
every point, whether it was certifying or modifying products, 
maintaining and repairing aircraft and systems, keeping the training 
and approval system for new and existing pilots on schedule, or the 
ability of operators to put into service and maintain new aircraft, the 
health and vitality of U.S. aviation manufacturing and the overall 
aviation system was weakened.
              aviation and manufacturing industry recovery
    During the shutdown, GAMA continually surveyed our member companies 
to inquire about impacts and timelines for recovery. We received weekly 
assessments of shutdown impacts and ascertained that for each week the 
shutdown continued, there would be a 3- to 4-week impact on aircraft 
and product certification programs. This calculation is consistent with 
what GAMA member companies reported during previous closures of the 
FAA, though specific impacts depend on how far a company program is 
into the certification process and the extent of their delegated 
authorities. The extended length of residual shutdown impact is due to 
the backlog of tasks that only FAA can perform. While FAA certification 
offices are working to address this backlog, the day to day pace of 
manufacturing and maintenance activities accompanied by the start of 
new projects that FAA must also support compounds and complicates the 
recovery effort.
    The Government shutdown will have a lingering negative impact upon 
certification activities for the foreseeable future. As noted 
previously, key activities, such as flight testing of new aircraft, 
which require specific expertise and involvement by the FAA are tightly 
scheduled. These activities are in continuous demand and losing over a 
month of activity means that FAA personnel who were unable to do the 
required flight test because of the Government closure need to be 
integrated back into the flight test schedule. As a result, development 
program timelines will be pushed significantly to the right. This is an 
incredibly complex allocation of limited FAA resources and imposes a 
burden for FAA management and its workforce to bear. Even under the 
best circumstances, we anticipate disruptions will continue for months. 
In order to work through the backlog of activities, it will be 
important that FAA prioritize its system safety oversight activities 
and focus its limited resources on safety critical activities and tasks 
that only they can perform.
    As with the other associations here today, we also worry about the 
morale of Federal employees and the impact the Government closure has 
had on the workforce. The inspectors, engineers, and leaders we work 
with are skilled and talented and can look to alternative private 
sector opportunities that are currently abundant. Retaining these 
employees is critical to moving forward from a scenario they did not 
create.
    During both the shutdown and the reconstitution, we have worked 
with Acting Administrator Dan Elwell and his leadership team to assess 
the impact of Government closure limiting FAA activities for the 
manufacturing and maintenance sector and identify opportunity for 
mitigation. We greatly appreciate the fact that FAA leadership did what 
they could within the limits of the law to identify available 
flexibilities and correctly posture the safety directorate to maximize 
productivity during the recovery phase. Unfortunately, the ability to 
diminish impacts was limited but it did allow us to keep our membership 
informed, address issues where possible, and help companies with their 
post shutdown planning. This communication was also vital to ensuring 
that FAA remained in its critical system safety oversight role.
    Since the shutdown ended, we have worked to ensure FAA understands 
the most prominent and immediate issues that have emerged from a GAMA 
member company perspective and provided recommendations to help the 
agency prioritize activities to move forward efficiently and 
expeditiously.
    We understand FAA's initial focus is on internal coordination 
simply to restore operations, review ongoing activities, and develop 
revised work plans and prioritize recovery initiatives. We have 
suggested actions that will relieve administrative burdens and focus on 
key efforts that will help FAA and industry return to normal activities 
as soon as possible. One suggested mitigation that the agency 
immediately acted upon was to extend designee and certification 
authorizations that have expired or will soon expire, facilitating full 
use of available delegation and bilateral agreements, and issuing the 
required operational authorizations so that new aircraft can enter 
service. These steps, and numerous others, will help both the FAA and 
industry focus their resources on those tasks that only FAA can perform 
such as: establishing certification basis, approving certification 
plans and issue papers, reviewing flight manuals, and conducting safety 
activities that cannot be delegated--rather than more routine tasks or 
activities that others have authority to undertake.
             impact on the faa reauthorization act of 2018
    The passage of this law was a significant victory for the industry, 
the economy, aviation safety, as well as the traveling public. When 
talking about the bill last fall, we highlighted key provisions that we 
believe need to be implemented fully, effectively, and in a timely 
manner. The shutdown significantly set the timelines back while causing 
economic damage to the aviation manufacturing industry. There will be 
some in the bureaucracy that will want to use the shutdown as an excuse 
not to aggressively implement the reforms contained in last year's FAA 
reauthorization and we believe this underscores the important role 
Congress will play in oversight of FAA's prioritization of activities. 
Collectively, we have lost critical time because of this shutdown and 
it impacts both existing efforts and those on the horizon.
    Last week the Transportation and Infrastructure Committee held a 
hearing focused on physical infrastructure which is critical to 
advancing transportation and economic development in this country. The 
success of aviation is also highly dependent on advancing and 
modernizing the regulatory structure and air traffic control system. 
Manufacturers large and small are developing incredible new 
technologies to more efficiently handle current traffic and safely 
integrate rapidly emerging entrants such as unmanned systems, electric 
vertical take-off and landing vehicles, civil supersonic aircraft, and 
commercial space vehicles.
    The work this committee has accomplished, spurred on by its 
leadership to advance certification and regulatory reform, will greatly 
benefit these new markets and technological developments. These 
reforms, coupled with substantial FAA progress on key initiatives in 
the certification area, kept us functioning during the shutdown, but 
also makes clear the vital need for implementation of the 2018 law as 
we look toward the future of flight. I look forward to working with 
this subcommittee and the broader membership of this committee and 
Congress to prevent future shutdowns but also find ways to realize the 
promise of these important reforms to benefit aviation in the present 
and in the existing years ahead. Thank you, Chairman Larsen and Ranking 
Member Graves for convening this important hearing and we look forward 
to collectively working together to advance the safety and economic 
potential of the manufacturing and maintenance sector, and the broader 
aviation sector.

    Mr. Larsen. Thank you, Mr. Bunce.
    We will now move to questions. I will recognize myself for 
5 minutes. I just want to make a point about Mr. Bunce's last 
point. I hope one of our next hearings will be on U.S. 
innovation in the airspace, and will include discussion of 
these issues like air taxis and commercial space.
    This committee needs to get more on top of those issues 
because aviation in aerospace includes flying by an airplane 
and flying in an airplane, but it is also beginning to include 
much more--these issues of drones, of commercial space, of air 
taxis. And we need to get on top of that. So appreciate you 
bringing that up.
    Mr. Rinaldi, according to your testimony, classes resumed 
last week at the training academy in Oklahoma City. I say 
``resumed'' because they were stopped during the recent 
shutdown. Can you describe how the closure of the academy 
affects the pipeline of new controllers and the ability to meet 
hiring targets this year, or any year we have a shutdown, for 
that matter?
    Mr. Rinaldi. Thank you for the question, sir. Yes. There 
are 22 classes up and running right now. Obviously, if we shut 
down on Friday, they will all go home again. That is horribly 
disruptive to the pipeline of getting controllers out to the 
facilities and start that 3- to 5-year process of 
apprenticeship.
    There are limited spaces at the academy, and we are 
concerned that the agency is not going to be able to meet their 
hiring goal because it has been closed for 35--actually, it was 
longer than 35 days. And another shutdown would just close that 
pipeline for a long time.
    Mr. Larsen. So can you then--let's move to another question 
about retraining the controller workforce on DataComm, one of 
the technologies. Why would there be a need to retrain that 
workforce on DataComm when the FAA has already spent $8 million 
on training? Why does that training need to be repeated?
    Mr. Rinaldi. DataComm is new technology which is pretty 
evasive, and they change the way that the controllers issue 
clearances back and forth from the pilots. It is something that 
needs to be fresh, and it is something you need to do every 
day. It almost needs to become second nature.
    So as we went through 35 days of not training, as we 
approached the 45-day period, you have to do a full training 
process because the implementation just will not be smooth.
    Mr. Larsen. OK. Mr. Perrone, you mentioned with inspectors 
and technicians and the delay for them, from your perspective, 
is there any way for us to catch up or are we just going to 
have to trundle our way through months before we get caught up 
again?
    Mr. Perrone. Thank you. Yes. The problem is, during that 35 
days, as was said, the industry continued moving forward. They 
continued to put aircraft in the pipeline. They continued to 
make sure they did their part. Our inspectors were not working, 
so they just had paperwork sitting on their desk, sitting in 
the inbox.
    After they came back to work, and I know they came back a 
little earlier than the full 35 days, but they had to make up 
for that time, plus every day there is new information out 
there that they have to review. So it is going to take a long 
time.
    And this 3-week period of uncertainty--is the Government 
going to shut down again? Is it not? The FAA had to move 
priorities around. They were not sure what they needed to do, 
and the industry had to let them know and work with them to 
figure out what is next.
    So that is the problem, is now, like somebody said, turning 
on a switch back to work. Here we go. You continue to have the 
day-to-day operation plus the 35-plus days that we were sitting 
idle.
    Mr. Larsen. Thank you.
    Mr. Calio, can you provide the committee with additional 
impacts to the airline industry during the shutdown? You 
mentioned some airplane deliveries as an example. Are there 
additional impacts?
    Mr. Calio. Sure. There were airworthiness directives that 
we could not get approved because the employees were not on the 
job to do it. Again, there was NextGen. There were all--if you 
look at how we fly, in trying to get online, we had planes that 
needed to be recertified. Those couldn't get back online.
    Again, there are so many hidden impacts that are detailed 
in our written testimony. And those are the things we ought to 
be focusing on to stop from happening again because if we all 
agree, and I am the one who said it, you cannot just flip the 
switch back on and make these things happen.
    So what we were doing, Mr. Chairman, was monitoring our 
airlines' short-term impacts, mid-term impacts, and long-term 
impacts. We were piecing and patching, as was the FAA and DOT, 
to try to ameliorate the short-term impacts. But as you look at 
it, it grows down the line. The mid-term becomes longer, and 
there's a buildup there, as Mr. Perrone said. And then the 
long-term keeps up.
    We are still suffering from 2013. And every time we add to 
it, it is wrong, which is why the legislation that you have 
introduced is so important.
    Mr. Larsen. Thanks.
    Ms. Nelson, other impacts of the shutdown, or any shutdown, 
on flight attendants?
    Ms. Nelson. Flight attendants know that we were on the edge 
of facing a real disaster for our jobs. But more so, flight 
attendants were expressing extraordinary concern about safety 
and security. We have seen critical incidents, and we have seen 
those who wish to do ill will. And in each of those cases, we 
did not have any warning for it.
    And what flight attendants were very aware of was that in 
those instances, if we had known, we would have pulled our 
friends off those flights. We would have told people not to go. 
We would have done anything that we could to avoid those 
situations. And they were saying to us, we have to act now 
because now we see that there are these gaps. And we cannot 
stand by and let something catastrophic happen when we know 
that we are setting ourselves up for that.
    Mr. Larsen. So you are kind of the first responder in the 
aircraft, and you are the last to know in these circumstances?
    Ms. Nelson. We count on all of these people to keep us 
safe, to do their jobs. And when people come to the aircraft 
door, we are that last line of defense, and we are the first 
responder when something happens that goes wrong. But when we 
have a break in the chain of all of the safety layers that have 
to be in place to keep us safe, we are set up to fail. And we 
were saying that that is unacceptable.
    Mr. Larsen. Thank you.
    Mr. Bunce, I will come back to you. I am sure others have 
questions for you. But I appreciate your comments on ODA and 
certification reform, so I would like to explore that a little 
bit later.
    But I will now turn to Mr. Graves for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Mr. Calio, I will ask you a question. A lot of discussion 
in regard to the testimony has been focused on safety, which 
obviously is an appropriate topic. Would your members fly 
planes with passengers on board if they have viewed a threat to 
safety?
    Mr. Calio. Never. And the way our system operates, it is a 
risk-based system. I think everybody on the panel would agree 
that the shutdown did introduce more risk into the system 
because some of the layers were missing in terms of oversight. 
That said, what the FAA does is they--and Mr. Elwell said this, 
Acting Administrator Elwell said this--what we will do is 
compromise efficiency for safety. And you saw that at LaGuardia 
finally, when it really--when the rubber really hit the road.
    What they did was a ground stop because we will stretch the 
flights out, stretch out the flight times, and provide less 
flights. So less people fly. It's more inconvenient for 
passengers and shippers. And it affects business. It affects 
the economy. But never, never would we put a plane in the air 
if we considered it to be unsafe.
    Mr. Graves of Louisiana. Mr. Calio, thank you. And I really 
wanted to emphasize that point because there were a lot of 
comments on safety that were made. And I want to make sure that 
we are being clear to the public, the flying public, that--
well, I made my comments opening up about the shutdown, and I 
am not going to reiterate those. I think it is inexcusable, 
what happened.
    But I also think it is important that we do convey the 
safety factors or I guess the lack of risk that existed during 
the shutdown as a result of some of the efforts by the airlines 
and others.
    Mr. Rinaldi, you made mention, too, of an incident in 
Philadelphia. I am disappointed the FAA is not here today, and 
I am looking forward to having much more robust conversations 
with them. Are you aware how much of that incident was a result 
of a pilot versus the controllers?
    Mr. Rinaldi. Well, that incident was the pilot lining up 
for a taxiway that is parallel to the runway. Sometimes from 
the cockpit it is very confusing. The equipment that I 
mentioned gave the controllers a heads up that they were 
outside the cone of the threshold of the runway, therefore 
giving us an alert.
    Mr. Graves of Louisiana. I just wanted to distinguish that 
pilots certainly were not--their pay was not affected by the 
shutdown. And if this was a pilot issue, then tying that back 
to the shutdown perhaps is a tenuous connection. But I just 
wanted to be clear.
    Mr. Rinaldi. Well, the point of that in my testimony was 
that equipment was deployed only at 6 airports, going to be at 
13 additional airports if it was not for the shutdown, now 
delayed to the end of June. That was the point of my testimony.
    Mr. Graves of Louisiana. And Mr. Rinaldi, I think I share 
with you, and probably everyone on the panel, strong concern 
about the delayed implementation, the continued missed 
milestones of NextGen, the cost overruns, and other things. I 
know the full committee chairman has repeatedly made reference 
to this; I think my favorite line is when you called it 
``NeverGen.''
    But this is a grave concern that we have, and something 
that Chairman Larsen and I have briefly discussed and looked 
forward to focusing on to help get that back on track and make 
sure that the full scope of NextGen is implemented in an 
appropriate timeframe and within an appropriate budget.
    Another question: I mentioned earlier, and my math was 
wrong; I just looked at it again. I said that there were a 
number of shutdowns during the Carter administration. There 
were actually five shutdowns totaling 66 days.
    Does anyone--and I am not asking anybody to show their ID. 
But anybody recall any impacts during those shutdowns, and 
perhaps impacts on the aviation industry?
    Mr. Rinaldi. For the Carter administration? I was in high 
school.
    [Laughter.]
    Mr. Calio. I might be old enough, but at that time I was in 
law school and focused on other things.
    Mr. Graves of Louisiana. Great. Thank you.
    I guess next question: Mr. Bunce, thanks for being here and 
it is good to see you again. Can you talk about how the 
shutdown impacted the integration of new technology such as 
unmanned aircraft, urban air mobility, and commercial space 
transportation into the NAS?
    Mr. Bunce. Absolutely. And especially with--we are calling 
it on-demand air mobility because my hope is someday that every 
rural community out there has a machine that is programmed to 
go to a hospital, and that we can put an occupant in and it is 
going to fly to the hospital. And we are on the cusp of this 
being able to happen.
    Back in 2015, we passed the Small Aircraft Revitalization 
Act unanimously by the U.S. Congress. And right now we are in 
that stage of trying to use those implementing rules to 
facilitate this new type of vehicle to be able to get into the 
airspace to certify it.
    So when we can have Mr. Perrone's people available to work 
on being able to set the certification standards for those 
types of vehicles. It is delaying this. And make no mistake 
that there is tremendous international competition in this 
area. The work that is being done in Europe and in China is 
absolutely dramatic.
    And my hope is that the U.S. stays, as Chairman Larsen 
mentioned, the gold standard. We are an aviation nation, and we 
have got to keep progressing forward to be able to certify 
these aircraft. So it does have a big impact.
    Mr. Graves of Louisiana. Thank you. I appreciate it. I 
yield back.
    Mr. Larsen. The Chair recognizes Chair DeFazio for 5 
minutes.
    Mr. DeFazio. Thanks. Mr. Rinaldi, there are very strict 
rules about your folks, just like pilots, not reporting to work 
when they are fatigued or ill and feel they cannot do the job 
properly. But wouldn't you say--you had a--A, it is a stressful 
job; B, we are understaffed, so people are putting in a lot of 
mandatory overtime; and then C, when you get like the example I 
had, with a younger controller doing mandatory overtime, 
feeling compelled to drive Uber to put food on the table, do 
you think--I mean, he may not have been fatigued at a level 
that he should have stayed home. But they are not at the top of 
their game. Right?
    Mr. Rinaldi. Certainly fatigue entered into the system. 
Sometimes individuals have a tough time identifying that they 
are too fatigued to come to work. And that might have been 
happening. We did see, as I said, some routine clearances where 
mistakes were being made because they were distracted.
    But we were deeply concerned about what was going on in the 
control towers and the control rooms throughout the country 
about fatigue.
    Mr. DeFazio. All right. Thank you. In addition, the extra 
stress. And then----
    Mr. Rinaldi. Oh, the stress was intense.
    Mr. DeFazio. And Mr. Perrone, what about your people that 
are told they are not essential and told to stay home? How do 
they feel about coming back to work, and what is the new burden 
on them?
    Mr. Perrone. So the problem is not being essential 
personnel. I mean, everybody in the FAA does their job and 
keeps the system up and running. Again, the safest in the 
world, most complex. And to say you are not important for these 
35 days, the morale was just tremendous that they just said, 
``Why should we stay? Why should we bother continuing to work 
if the''----
    Mr. DeFazio. A lot of your people have technical expertise. 
Couldn't they find private sector jobs if they want?
    Mr. Perrone. Absolutely, especially the inspectors. They 
can go back to industry. And our technicians and workforce, 
they can go find other jobs because they have that unique 
ability to do that.
    Mr. DeFazio. So if this uncertainty continues, is the 
future about whether these are stable, long-term jobs? You may 
have trouble getting qualified people to fill your openings.
    Mr. Perrone. Absolutely.
    Mr. DeFazio. Yes. OK.
    And Ms. Nelson, we have been discussing the safety issue. 
And just--I mean, TSA would limit lines. But again, a lot of 
them were driving Uber. They are having garage sales. They are 
checking their phone to see if they sold their table or TV yet.
    I mean, did flight attendants have an overwhelming sense 
that things were not as safe as they could be?
    Ms. Nelson. Flight attendants were seeing it every day when 
we would come to work and go through those security lines and 
talk with those security agents, who some of them did not have 
gas to get back and forth to their homes and so they were 
sleeping in their cars between shifts to make sure that they 
could keep the country moving.
    And we have to really thank them because they stayed true 
to their oath to serve and protect all of us. Think if that, 
thousands of people who came to work to make sure that that 
could keep going when that same oath was not held by people in 
power.
    And so yes, we saw every single day that there were 
distractions in safety-sensitive and security-sensitive work 
that don't need to be there, and created risk that we didn't 
need to have.
    Mr. DeFazio. Thanks.
    Mr. Calio, you talked about a whole lot of things that 
disrupted the industry. Can you quantify a number, how much, 
what the losses were? Damages?
    Mr. Calio. We can't. We have looked at it, Mr. Chairman. We 
defer to our members to quantify their losses. You have heard 
two mentioned, I think, $25 million by one airline, $15 million 
by another. I actually think the number is much greater. Those 
quantify losses in terms of flights, lost opportunities in 
terms of certifications not being made.
    But the cumulative impact of all the things that everybody 
up here has mentioned add up to much, much more in terms of 
disruption to the system and what has to happen down the line. 
Also, we were taking our own employees off the line to help TSA 
employees and CBP employees. And so that all has an impact that 
I think is not readily quantifiable. Someone, of course, could 
come up with a number. I can't.
    Mr. DeFazio. OK. Thank you.
    Just in reference to statements that have been made, I was 
not here when Carter was President, either. I cannot quantify 
what happened then. But shutdowns are stupid no matter who is 
in the White House or who is in Congress, and they have got to 
end. I am not only introducing this legislation. I am on a bill 
that has been introduced in the House to say that all agencies 
would continue under continuing resolutions, in case we do not 
agree on appropriations and a budget in the future, at their 
current levels.
    Obviously, some more powerful committee might oppose that 
because they think they are losing something in that case. I do 
not know. But it is a stupid way to get leverage in this town. 
This is not a partisan issue. And I invite all Members of the 
House on both sides of the aisle to support this bill, move it 
through, and at least we can take care of one very important 
sector of the Government and our economy by passing this 
legislation. It is a self-funding agency. Why can't we expend 
funds during a shutdown?
    With that, I thank the panel. I have got to go over to the 
other side where they don't do anything to have a conversation. 
Thank you.
    Mr. Larsen. Thank you, Mr. Chair.
    Now we will move to other Members' questions. Just a 
reminder about the process: We go by seniority, seniority based 
on if you were here at the gavel. Then after that, if you come 
in after the gavel, you get in line based on when you got here.
    So that makes Mr. Stauber from the great State of Minnesota 
next.
    Mr. Stauber. Thank you, Mr. Chair, and I appreciate the 
witnesses who are testifying. Mr. Rinaldi, I was in grade 
school, too, when President Carter was our President.
    A couple of things I just wanted to reiterate. To Mr. 
Bunce, Cirrus Aircraft in Duluth, Minnesota, is the largest 
manufacturer of piston-driven aircraft. I spoke with them, and 
they had--the certificates were delayed in sending the aircraft 
out. They have now been backed up about 4 months because of 
this.
    Can you talk to us about other general aviation 
manufacturers, some of their concerns, like Cirrus had? And by 
the way, Cirrus Aircraft employs 1,100 people in Duluth, 
Minnesota, in and around Duluth, Minnesota.
    Mr. Bunce. Well, thank you, sir. And Cirrus also delivered 
the most jets last year of any manufacturer out there with the 
new Vision Jet, so it is pretty exciting.
    So take another company in Florida that provides other 
types of aircraft out there. They were within a week of 
furloughing because they couldn't get flight test people to be 
able to keep their programs going.
    Another very large jet manufacturer, if you look at a major 
development program--I have testified in front of this 
committee before--the burn rate for a major program is about 
$10 million a month. And so if you can't get the program to 
progress, like get flight test, what happens is those flight 
test people are now booked the next month with another company. 
So you don't just push everybody to the right. You go and you 
get the folks that were scheduled, and then you have to go 
several months later.
    So it really is a burn rate where it's like lighting a 
match to the money. And that money could have been used to go 
ahead and hire more people as you ramp up production once you 
get your certification.
    So it all has ripple effects for each one of the 
manufacturers when we have delays like that.
    Mr. Stauber. Thank you. Then the second comment I would 
like to make. Ranking Member Graves made it, and this is about 
the inability of elected officials in Washington to come to a 
compromise. And it is extremely disappointing. I hope it does 
not happen again.
    And you talk about safety. I have to ask this one more 
time. Was there any flight in this country that took off, flew, 
that we knowingly felt was unsafe? Anybody?
    Mr. Calio. I will take it again. I would say no.
    Mr. Stauber. To Ms. Nelson, you talked about safety is 
first, the flight attendants and the assistants. You guys and 
gals do a magnificent job. You make the flights peaceful, and 
through some stressful situations. And I have only been a 
Member for a month and a half, but I have flown enough to 
really see the spectacular job that you and your folks do, so I 
appreciate that.
    My last comment will be this. I will support 100 percent 
the aviation industry beyond 10 years.
    Thank you, Mr. Chair.
    Mr. Larsen. Thank you, Mr. Stauber.
    Next is Mrs. Napolitano, recognized for 5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chair. And this question is 
aimed at all witnesses because there is a piece of legislation 
that is coming up, H.R. 1108, which I have cosponsored, and 
introduced by Chairman DeFazio and the subcommittee chair, Mr. 
Larsen, that will protect the aviation industry from future 
shutdowns.
    How would this bill specifically provide the stability and 
predictability of your members, that they require, and ensure 
the safety of the system for all of us? Don't forget, I am one 
of those that travels twice a week, up and back to California. 
So it is very important. Yes, flight attendants are 
magnificent. I just wonder, when we get on the plane, are we 
going to get there safely? The attendants at either end focused 
on their job, are they all right? Or are they worried about 
having to pay bills because they have not been paid? So to each 
of you, I have the question.
    Mr. Rinaldi. Thank you for the question, Congresswoman. We 
believe it will be--this bill, if passed and enacted, will give 
us a seamless transition that if Congress failed to appropriate 
and failed to pass the CR, that we would just reach into the 
uncommitted balance of the Aviation Trust Fund and not worry 
about, 10 days before, preparing for a shutdown, and stop 
implementing equipment, shutting down our academies, stopping 
training air traffic controllers, stop implementing and 
training new technology to enhance the safety of the system.
    So I believe by passing this, it will make it more safe, 
and it will eliminate the risk of what happens during a 
shutdown.
    Mrs. Napolitano. Thank you.
    Mr. Perrone. Yes, PASS supports this as well. We believe 
again--we have two sides, the technicians who maintain the air 
traffic control equipment, certify it, make sure that the air 
traffic controllers can use it properly, that the pilots are in 
communications with them; and also the regulatory side. We have 
the regulatory side that Flight Standards has to maintain with 
the industry to make sure they are following all the 
procedures, as we said, new equipment, existing equipment.
    That is ultimately where we have to be, having those folks 
working day in and day out so there is no gap of, should we or 
shouldn't we fly? Should we or shouldn't we have a plane in the 
air, or that consideration? And everybody is focused on their 
job.
    Like I said, knock on wood, we got the safest system in the 
world because our men and women are out there day in and day 
out. And we need to have that continue. Thank you.
    Mr. Calio. Thank you, Congresswoman. First, I would like to 
say one more word about safety. When you come into the 
industry, the first thing that everybody in the industry says, 
in answer to any question, is, ``Safety always comes first.'' 
And it does. We all operate as a team, and a plane will not get 
in the air if we consider it to be unsafe, sometimes to great 
irritation to passengers.
    In terms of this legislation, it would, as Mr. Rinaldi 
said, cut the uncertainty out because right now there is always 
a chance of a Government shutdown. The effects happen. So if we 
know that there is stable funding, and even if the Congress 
cannot come to an agreement on the appropriations, we will not 
be affected.
    The money will come out of the trust fund because the money 
keeps going into the trust fund on a daily basis, gets repaid 
automatically. And it has been referenced here, and I don't 
know if the letter has been entered into the record, but it 
should. There are 40 signatories to this letter supporting H.R. 
1108.
    As I said earlier, this latest shutdown has totally 
galvanized the industry. We are together. We want this 
legislation. Thank you.
    Ms. Nelson. Yes. This should be nonpartisan. Everyone 
agrees with this. And I have never seen the industry come 
together like we have around this. It feels--well, that part 
feels great, yes. So what we said was that we were less safe 
during this shutdown because we introduced risk that we didn't 
need to and that we couldn't even calculate was having an 
impact on our safety and security.
    And so we should never do that again. Our union has opposed 
every single shutdown for this reason. And this was the longest 
one, it just so happens, so that many of us saw the effects 
much more because they grow every single day that the shutdown 
continues.
    But we absolutely have to stop this, and we have got to get 
this bill passed immediately. And we have to have a more 
fulsome response as well. But we should take care of the FAA.
    Mr. Bunce. Congresswoman, I would just add that this 
shutdown really demonstrated how important aviation is to our 
entire society. We are an aviation nation. And so just like the 
markets react to certainty, our industry has to react to 
certainty. And this legislation will provide us the certainty 
that if something again happens like this that is politically 
driven, that we can go and keep this country running by keeping 
our industry running.
    Mrs. Napolitano. Thank you. It makes no sense, does it?
    Thank you, Mr. Chair.
    Mr. Larsen. Thank you, Representative Napolitano.
    Before recognizing Representative Fitzpatrick, I ask 
unanimous consent the following items be entered into the 
record of today's hearing: A letter signed by more than 35 
aviation industry and labor organizations endorsing H.R. 1108, 
and a letter from the commercial drone sector endorsing H.R. 
1108. Hearing no objection, so ordered.
    [The two letters described follow:]

                                
   Letter of February 12, 2019, from the Aeronautical Repair Station 
      Association et al., Submitted for the Record by Hon. Larsen
                                                 February 12, 2019.
Hon. Peter A. DeFazio
Chairman, Committee on Transportation and Infrastructure
Hon. Sam Graves
Ranking Member, Committee on Transportation and Infrastructure, 
        Washington, DC.
Hon. Rick Larsen
Chairman, Subcommittee on Aviation
Hon. Garret Graves
Ranking Member, Subcommittee on Aviation, Washington, DC.
    Dear Chairman DeFazio, Ranking Member Graves, Chairman Larsen, and 
Ranking Member Graves:
    We write today to convey our strong support for the Aviation 
Funding Stability Act of 2019 (H.R. 1108) which would authorize the 
Federal Aviation Administration (FAA) to draw from the Airport and 
Airway Trust Fund (AATF) in the event of a Government shutdown.
    During the recent shutdown, air traffic controllers and other 
aviation safety professionals were forced to work without pay and 
thousands of others were furloughed. Jobs and economic growth in the 
industry were threatened as manufacturers, airlines and other 
operators, and small businesses faced disruption. The effect on the 
Nation's air transportation system and the workers charged with keeping 
the system safe was dramatic. We find this situation to be unacceptable 
and we want to work with Congress and the administration to prevent 
this from ever happening again.
    The legislation is designed to provide a limited, targeted way of 
ensuring stability for the aviation system and it does not change 
congressional direction or oversight in any way.
    H.R. 1108 allows FAA to carry out its mission by using the AATF, 
which presently has an uncommitted balance of over $6 billion. 
Additionally, users of the system continued to pay taxes and fees 
during the shutdown to fund the aviation system, but the dollars could 
not be accessed to support controllers, safety specialists, and other 
critical FAA personnel absent a legislative fix. Passengers, shippers, 
FAA employees, operators, businesses, pilots, airline employees and 
others rely on our aviation system and support its operation through 
payments to the Trust Fund.
    We look forward to working with the committee, other Members of 
Congress, and the administration to pass H.R. 1108 and ensure that the 
FAA operates safely and efficiently for the flying public.
        Sincerely,
            Aeronautical Repair Station Association
                      Aerospace Maintenance Council
                        Air Line Pilots Association
                  Air Medical Operators Association
                    Air Traffic Control Association
                   Aircraft Electronics Association
           Aircraft Mechanics Fraternal Association
             Aircraft Owners and Pilots Association
                               Airlines for America
                       Airports Consultants Council
      Airports Council International--North America
         American Association of Airport Executives
              Association of Flight Attendants--CWA
          Association for Unmanned Vehicle Systems 
                                      International
         Aviation Accreditation Board International
              Aviation Technician Education Council
                          Cargo Airline Association
                          Commercial Drone Alliance
                  Experimental Aircraft Association
         General Aviation Manufacturers Association
               Helicopter Association International
            International Air Transport Association
       International Association of Machinists and 
                                  Aerospace Workers
   International Brotherhood of Teamsters--Airline 
                                           Division
                 International Council of Air Shows
                   National Air Carrier Association
       National Air Traffic Controllers Association
            National Air Transportation Association
   National Association of State Aviation Officials
             National Business Aviation Association
       Professional Aviation Board of Certification
      Professional Aviation Maintenance Association
           Professional Aviation Safety Specialists
                   Recreational Aviation Foundation
            Regional Air Cargo Carriers Association
                       Regional Airline Association
          Transportation Trades Department--AFL-CIO
                            Transport Workers Union
                                   Travelers United
                            U.S. Travel Association

                                
Letter of February 12, 2019, from the Commercial Drone Alliance et al., 
                Submitted for the Record by Hon. Larsen
                                                 February 12, 2019.
Hon. Peter A. DeFazio
Chairman, Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Rick Larsen
Chairman, Subcommittee on Aviation, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC.
    Dear Chairman DeFazio and Chairman Larsen:
    As organizations representing the commercial drone and related 
aviation and vertical industries, we express our support for H.R. 1108, 
the Aviation Funding Stability Act of 2019, a bill designed to protect 
the Federal Aviation Administration (FAA) from the effects of future 
Federal Government shutdowns. We support this effort to alleviate the 
negative impact of shutdowns on the commercial drone industry and the 
wide range of vertical market sectors it supports in the United States, 
and appreciate your leadership on this important issue.
    We are at a critical and exciting time for the commercial drone 
industry. Once properly enabled, the safe integration of drones into 
our National Airspace System (NAS) will save countless lives and have a 
significant economic impact in the United States. While great strides 
have been made in recent years to support growth in the commercial 
drone industry, it is an industry that relies heavily upon its 
partnership and collaboration with the FAA to function properly.
    Specifically, the recent closure of many FAA and Department of 
Transportation offices that work closely with the commercial drone 
industry during the December 22, 2018-January 25, 2019 partial 
Government shutdown caused significant industry disruptions. Moreover, 
the shutdown delayed policymaking that is essential to the continued 
economic growth in the United States.
    Below are some specific examples of how the recent shutdown 
adversely impacted the commercial drone industry:
    FAA Waivers and Other Approvals Delayed: The FAA's Unmanned 
Aircraft Systems (UAS) Integration Office is responsible for processing 
thousands of waivers and other applications that are necessary to 
conduct expanded drone operations beyond the basic operations allowed 
under the current regulatory framework (14 C.F.R. Part 107), such as 
flights at night, over people or beyond visual line of sight of the 
pilot. Thousands of companies (as well as public sector stakeholders) 
rely on these types of FAA waivers to conduct advanced drone operations 
that are essential to their workers' safety and business operations, as 
well as for emergency response activities. The FAA already has a 
massive backlog of waiver applications and the processing of almost all 
existing and new applications was suspended during the shutdown. The 
processing of petitions for exemption from various Federal Aviation 
Regulations was also suspended.
    Policy and Rulemakings Delayed: All aviation rulemaking, including 
several critical drone-related regulatory actions, was suspended as a 
result of the shutdown. In August 2016, Part 107 of the Federal 
Aviation Regulations went into effect, which for the first time broadly 
authorized commercial drone use in the United States. However, the 
current rules still contain overly burdensome regulatory hurdles that 
make it impossible for companies in the United States to realize the 
full potential of drone technology and the resulting public benefits. 
Over the last several years, industry and the FAA have worked 
diligently to craft new rules that will allow for further integration 
of drones into the NAS and unlock the full potential of commercial 
drone technology. As a result of the recent shutdown, key rulemaking 
efforts necessary to enable expanded drone operations ground to a 
standstill.
    Issuance of Airman Certificates Suspended: As a result of the 
recent shutdown, the FAA suspended issuing airmen certifications. 
Thousands of would-be UAS pilots were unable to obtain the Remote Pilot 
Certificate that is necessary to conduct commercial drone operations.
    Industry Partnerships Suspended: While the public benefits of 
commercial UAS are substantial, policymaking has lagged behind the 
technology in the United States. Recognizing this, and in an effort to 
help move policy forward, the Trump administration launched an 
innovative UAS Integration Pilot Program (IPP) to accelerate the safe 
integration of drones into the NAS and to foster the development of new 
drone technologies for use in a wide range of commercial industries. 
The IPP generated a lot of industry excitement, but while significant 
progress has been made under the IPP, all work under the program was 
suspended during the shutdown. Innovative work that was being conducted 
through other FAA-drone industry collaborative efforts, such as 
Partnership for Safety Programs (PSPs), was also suspended.
    Key Industry Events Postponed: The FAA's annual UAS Symposium, 
which serves as a focal point for FAA officials, Government agencies, 
and industry stakeholders to collaborate on key issues for the 
commercial drone industry, was postponed as a result of the shutdown. 
Other industry events that are critical to fostering Government-
industry working relationships, including the Unmanned Aircraft Safety 
Team (UAST) meeting and the Commercial Drone Alliance Domestic Drone 
Safety and Security Series event, were also postponed as a result of 
the shutdown.
    The recent Government shutdown caused significant harm to America's 
commercial drone industry. We appreciate your efforts to protect the 
FAA from the effects of future shutdowns in order to enable the 
commercial drone industry to thrive.
        Sincerely,
                      Lisa Ellman and Gretchen West
                                     Co-Executive Directors
                                          Commercial Drone Alliance
                                    Peter F. Dumont
                                            President & CEO
                             Air Traffic Control Association (ATCA)
                                        Brian Wynne
                                            President & CEO
     Association for Unmanned Vehicle Systems International (AUVSI)
                                    Todd Schlekeway
                                         Executive Director
                             National Association of Tower Erectors

    Mr. Larsen. Representative Fitzpatrick for 5 minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    First, thanks to each and every one of you for the role 
that you play, which oftentimes is taken for granted. Each and 
every one of you play a separate, distinct role that is equally 
important. You all did your job when this Government did not, 
and we want to thank you for that. And as I have said many 
times, having lived through a Government shutdown as an FBI 
agent in 2013, there are significant, long-lasting impacts that 
most people do not understand.
    And to have a Government shutdown for 35 days, I can tell 
you, does irreparable harm to investigations inside the Bureau. 
And I know it does irreparable harm to each one of your 
agencies.
    Two questions I would like to ask you, Ms. Nelson, based on 
your opening testimony. The first question is with regard to 
rest periods.
    So there was an aviation tragedy about 10 years ago that 
resulted in rest requirements for pilots. Flight attendants 
were not included in those policy procedures and regulations. 
As part of the FAA reauthorization, those provisions were 
included.
    How did the Government shutdown specifically impact that 
program and implementation of it?
    Ms. Nelson. Thank you for that question.
    In fact, this has been a 30-year effort to try to get 
fatigue addressed for flight attendants. We have had seven 
congressional fatigue studies that were done that determined 
that fatigue exists today, and the best way to fight that 
fatigue is to get more rest.
    What was included in the FAA reauthorization bill was an 
increase of 2 hours' rest to make sure that flight attendants 
have a chance to get closer to 8 hours' rest in between 
flights. That has not been updated in the regulations as it was 
required by law, and there was no way to get at why it was not 
updated and how quickly it needs to be updated and implemented.
    So there was no way to get at these issues, just like the 
issues of addressing sexual harassment, of improving our 
training around human trafficking, and the other issues that I 
raised.
    Mr. Fitzpatrick. Thank you, Ms. Nelson.
    The second issue raised was that of secondary barriers. I 
think your words were that flight attendants were being asked 
to be serving as physical barriers, and you lauded the 
provision that included secondary barriers for new aircraft.
    If it makes sense for new aircraft, does it follow that it 
makes sense for current existing aircraft as well?
    Ms. Nelson. We completely support secondary barriers in all 
of our aircraft. It is an absurd practice to have flight 
attendants use their own bodies as the barrier between the 
cabin and the cockpit. And secondary barriers are a necessary 
plank of security.
    Mr. Fitzpatrick. Thank you.
    I yield back, Mr. Chairman.
    Mr. Larsen. Thank you, Representative Fitzpatrick.
    I now recognize the Representative from the Sunflower 
State, Representative Davids.
    Ms. Davids. Thank you, Chairman.
    Well, first I want to say thank you to the witnesses today. 
I really appreciate the opportunity to serve on the Aviation 
Subcommittee. Kansas is sometimes referred to as the ``Flyover 
State,'' but we have an awful lot going on there.
    One of the things that is going on there is that we have 
regional air traffic control center in Olathe, Kansas, which is 
in the district that I represent, and I had the opportunity to 
go by and actually visit the facility and walk onto the floor 
where the folks who are navigating the planes were at, and the 
stress that I felt just walking through there was pretty 
intense because you know that there are thousands of lives in 
the hands of the folks that are doing that.
    My mom was in the Army, and now she works for the post 
office. So many people in my family have been Federal employees 
and are career civil servants, and I want to thank Ms. Nelson 
and Mr. Bunce for, one, recognizing our Federal civil service 
workers as both unsung heroes and also calling out the 
sometimes demonization and that sort of thing because our 
Federal civil service really keeps this country going in a lot 
of ways.
    So one of the things I want to ask about is I have heard a 
lot of questioning about safety, and I would like to hear 
actually from anyone who wants to respond to this. The kind of 
mental health of the folks who are under the stress of keeping 
so many of us safe while we are in the air, but also the impact 
that the shutdown had on their--sometimes it is morale, but it 
extends much further than that.
    I do not know if you have been hearing from--really I feel 
like every single one of you, whether it is safety, the flight 
attendants, the air traffic controllers, but could you speak to 
that a bit?
    Mr. Rinaldi. Sure. I would love to. Thank you for the 
question.
    During the shutdown and to an extent currently right now 
because they are not made whole financially, it was 
demoralizing. They did their job. They did nothing wrong. They 
came to work. They were used as political pawns for an issue 
that, quite frankly, was not germane to aviation at all, and 
this has happened time and time again.
    We have seen, you know, over a dozen opportunities for 
possible shutdowns in the last 18 months. We have experienced 
three shutdowns, and it is demoralizing to start working on 
programs that are going to get shut down and spend time away 
from your family to be subject matter experts for the next 
generation of air traffic control equipment, and then not being 
able to implement this.
    Now we are going to start back up, but it is going to take 
6, 8 months to get back to normal. I think between the fatigue, 
the risk in the system, and the devalue that they felt coming 
to work day in and day out will have lasting, lasting effects 
throughout their career.
    Mr. Perrone. Thank you.
    You know, visiting the facility, you saw the air traffic 
controllers and where they work behind the scenes, below, back 
in the equipment room. Our folks have to maintain that 
equipment. They have to keep that up and running, and the 
pressure, the stress to make sure that it is running properly.
    Meanwhile, they have to think about their personal lives, 
their families, and all the other work, the distractions.
    And they are professionals. It takes anywhere from 3 to 5 
years for technicians at certain locations, sometimes longer, 
and they consider themselves, as the inspectors do, as our 
administrative support, we are all in this together in keeping 
the system safe.
    And to have a slap in the face, again, to say, ``You are 
not important,'' you know, some of them do not go to work. You 
get paid maybe eventually. Pulling savings out, pulling college 
out, there were just some examples I have that one of the 
technicians said, ``I can't get my insulin.''
    ``I am not going to go to the doctor and get the surgery I 
need because I don't know how to pay for it.''
    Meanwhile, he is certifying air traffic control equipment. 
His head is not in the game 100 percent, but yet they showed up 
every day to do the job they needed to do. Our inspectors, 
unfortunately, did not.
    So I know the question has been asked: is the system safe? 
Yes, it is safe, but now the inspectors have to go back and 
that pile of information that the industry sends over to the 
FAA for review, is there something that was missed? Did a plane 
take off that maybe should or shouldn't have? Did a pilot or 
someone have an issue?
    We don't know until they go through and comb through that. 
I believe, as Mr. Calio said and others, nobody is going to 
take off on an unsafe condition, but we don't know what we 
don't know.
    And these folks say, ``We want to do the job. Pay us. Let 
us do our job,'' and that is going to, as Paul said, 
reverberate in new people. We just had a meeting yesterday in 
Oklahoma City, with trainees, and we were out there talking to 
those folks. They are questioning whether they want to stay in 
the FAA now because of that. They are questioning will there be 
another shutdown, will there be another impact, or should they 
go and find another job.
    So, yes, it really is a demoralizing activity.
    Mr. Larsen. Thank you. Thank you, Representative Davids.
    I now want to recognize the pride of Dryden Township, Mr. 
Mitchell, Representative Mitchell of Michigan.
    Mr. Mitchell. You should come visit Dryden sometime, check 
out the horses.
    Mr. Larsen. Thanks for the invite.
    Mr. Mitchell. Any time you would like.
    I would like to say, you know, I grew up in a family. Dad 
built trucks on the line. Mom worked for the Salvation Army. We 
saw a lot of layoffs in the 1960s and 1970s in the auto 
industries.
    I was alive, by the way, when President Carter was here. I 
don't remember. I claim I don't remember what happened. What we 
saw in the shutdowns is that politics overwhelmed policy and 
people.
    This institution has already amazed me in my little over 2 
years with its inability to have a level of maturity that gets 
things done, and it is dismaying some days.
    Mr. Larsen, I would support your bill if we, in fact, had 
clear penalties on Members of Congress and the staff for not 
getting their job done. Don't pay them, none of them. It is 
irresponsible. They shouldn't be.
    I put my letter in to have my salary held the night before 
the shutdown when it was clear where it was going because 
people profiled about their issues rather than actually deal 
with the problem.
    But let me ask a couple of questions because I think adding 
drama to the situation--first, let me thank everyone here that 
did their jobs. Some of your folks came and visited me, and we 
talked at some length. Air traffic controllers came in to chat 
with me as well as TSA.
    Mr. Rinaldi, are you aware of any security, safety concerns 
that arose in the 35 days?
    Mr. Rinaldi. I am not. What we are aware of is that the 
system is built on layers and redundancy of safety. It is the 
ultimate safety net, and you know, if you shut down for 3 or 4 
days, you are not wearing that net out.
    But as you go 2 weeks, 3 weeks, 4 weeks, and our processes 
are not in place to mitigate risk and reduce the hazards that 
are identified, then you are increasing the risk.
    Mr. Mitchell. Oh, I heartily agree. People not paid for a 
month is unconscionable.
    Mr. Rinaldi. Well, I was not even talking about not being 
paid, but not having people at work that actually do the safety 
functions.
    Mr. Mitchell. Sure. I agree.
    I will note that, for Mr. Larsen and others on the 
committee, that, in fact, when we authorized FAA last term, we 
could have proceeded with privatizing air traffic control. It 
wouldn't have been in place by now, I readily admit, but in my 
opinion, we need to take some of these functions. Air traffic 
control; we need to take certification of aircraft as much as 
we can. It is self-funded and actually put it off in a private, 
nonprofit, not unlike the Tennessee Valley Authority.
    Now, there is a challenge I would like to talk to you about 
because we can get it outside of this alleged Government 
process that fails to function on many days around here.
    Would you like to talk about that, sir? We should do that 
sometime.
    A quick question for you, Ms. Nelson. You reference in your 
testimony some specific instances where there were concerns 
regarding failures of security and concerns about security in 
the air. I am concerned about that.
    But I think rather than generic or general descriptions, I 
think we need more specifics about what transpired that led to 
these concerns because, as I said to Mr. Rinaldi, on top of all 
the other stupidity around here, we didn't need more drama.
    So I am curious what the examples are.
    Ms. Nelson. People were stretched to the nth degree. What 
we saw at the security lines actually was really the best of 
America during this shutdown.
    Nobody likes to go through TSA security lines, and usually 
they are pretty grumpy about it, but what we saw was people 
coming with very good spirits, thanking the TSOs for being 
there, and being very grateful for them to continue to do their 
work even though they were not getting paid.
    People were also not just thanking. They were trying to 
bring money, food, other gifts to try to sustain these people, 
and what we saw during this time, and obviously, they are not 
supposed to accept any of that. We don't need people in a 
security sensitive position accepting bribes.
    So this is one example of a security concern that we had, 
was that as the shutdown wore on, management was looking the 
other way when people were bringing these issues sometimes 
because of the human need, because there was such a strain on 
people, because they were having to go to food lines, because 
people were so stressed out.
    We also don't know what causes anyone to be in personal 
distress, but we know that there were people who were thrust 
into a hopelessness that had them saying things like, ``I am 
not getting paid. It doesn't matter,'' or my member tried to 
revive someone who took his life and was pushed really to the 
limit.
    Introducing that into a security sensitive place and not 
having the backing of the fully functioning FBI and the other 
agencies behind the scenes doing the risk analysis so that 
those TSOs can get those briefings every day were all part of 
the security concerns that we had and what we were seeing and 
where the system was breaking down.
    Mr. Mitchell. I yield back. Thanks, Mr. Chair.
    Mr. Larsen. Thank you, Representative Mitchell.
    Representative Lynch of Massachusetts.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank all of the witnesses for your willingness 
to come to the committee and help us with your work.
    First of all, I want to just say how strongly I support 
H.R. 1108, Mr. DeFazio's bill. I just read it. It is three 
pages, a model of efficiency and a commonsense piece of 
legislation, and I think we should get it done.
    I do want to point out, however, a number of my colleagues 
on the other side of the aisle have commented about the sadness 
of the shutdown and how we shouldn't let that happen again. I 
want to remind my colleagues who started this shutdown. The 
President took full credit for this. We had general agreement 
on a lot of bills across Congress.
    As a matter of fact, this week we are going to have seven 
appropriations bills that are basically agreed upon, 
bipartisan, House and Senate, that will proceed. It was the 
President's decision to take hostages, flight attendants, air 
traffic controllers, TSA workers.
    That's what we objected to, and to suggest that a Member of 
Congress should give up their pay because the President decided 
to take hostages? Give me a break.
    Before coming to Congress I was an ironworker for 20 years. 
I represented people for a living. I negotiated contracts on 
behalf of my workers, the men and women of the ironworkers 
union and the carpenters union, stagehands, wardrobe workers. I 
negotiated contracts with them, for them, on their behalf.
    Coming to Congress I still do that for Federal employees 
and other workers. Even when I took my members out on strike, 
when I asked my members, the men and women of my unions, to go 
on strike, I got paid because they wanted me in there fighting 
for them, that I would have no distractions and no backsliding, 
no backstepping.
    So I advise my colleagues on the Democratic side, take your 
pay. Keep fighting. That's the attitude that the Democrats 
should have.
    It was the President's decision, reckless, reckless 
decision, irresponsible decision to shut this Government down. 
Don't forget that. And any Democrat who is willing to negotiate 
with somebody who takes workers hostage should be disgraced, 
and I am glad my colleagues did not do that.
    The starting pay for a TSO is about $28,000 a year. Are you 
kidding me? There are fast food places that pay more than that. 
So we shouldn't be surprised when TSOs making $28,000 a year 
with a 35-day shutdown are not coming back.
    And if the President shuts them down again and we have 
basic agreement, again, between House and Senate on the bill to 
go forward and end the shutdown, if the President says no and 
shuts the Government down again, again, we will face that same 
dilemma. And these TSOs after that 35 days, and some of them 
have not been paid yet, if they get put on furlough or laid off 
again, you can expect that they will just walk. The job is 
tough enough as it is.
    So I agree. It is shameful that anyone would shut this 
Government down. I mean, it just hurts the image of this 
Government in the eyes of the American people, who we all do 
work for.
    But taking hostages is not acceptable either.
    I yield back.
    Mr. Larsen. Thank you.
    The Chair now recognizes the gentleman from Zanesville, 
home of the Fighting Blue Devils and the Y Bridge, Mr. 
Balderson.
    Mr. Balderson. The Y Bridge. Thank you for recognizing 
that, Chairman.
    Chairman Larsen and Ranking Member Graves, thank you both 
for holding this hearing today.
    I know from my constituents that the partial shutdown did 
cause significant hardship to pilots, air traffic controllers 
and others in the aviation sector. I visited and communicated 
with them, making phone calls. That is one of the reasons, and 
I would ask my fellow colleague from Massachusetts to join on 
and cosponsor a bill that Senator Portman and I did, the End 
Government Shutdowns Act, to prevent this instability and 
future risk.
    And I appreciate all of you giving your input today and 
letting us know what the impacts are from your area of concern 
on the effects.
    My first question that I would like to ask is for Mr. 
Calio. Good morning, sir. Thank you for participating today.
    I want you to discuss the financial impact of the shutdown 
on the airline industry. For example, the shutdown delayed 
Southwest Airlines' plan to operate services to Hawaii. Can you 
share with the committee specific examples of how the shutdown 
financially impacted members of your organization?
    Mr. Calio. As a proud Ohioan, I am happy to try to answer 
your question.
    Mr. Balderson. O-H.
    Mr. Calio. I-O.
    [Laughter.]
    Mr. Larsen. Order, order.
    Mr. Calio. Just give us a moment.
    Mr. Balderson, as I mentioned earlier, we generally defer 
to our members to do that. That figure is well known. Southwest 
has roughly estimated about $15 million.
    There was another estimate for another airline of $25 
million. I think the greater point here is in looking back, to 
look forward. Looking back there are all sorts of cumulative 
impacts of the shutdowns that have been laid out here in terms 
of delays. The delays built up over time, create further delays 
down the line so products don't come online. New planes don't 
come into service. New routes don't get written. New procedures 
don't get written, all of which has a huge financial impact on 
an industry that is the economic engine of this country.
    So while I cannot quantify for you with any amount of 
certainty, I can say there are financial impacts that were 
immediate. There are financial impacts that will accumulate to 
the midterm and to the long term, and we can't let that happen 
again, which is why we support legislation that adds certainty 
to FAA funding so Mr. Rinaldi and I and our friends can quit 
talking about the need for stable funding all the time.
    We have been at it. It is kind of like Groundhog Day.
    Mr. Balderson. Thank you for answering the question, and it 
is good to see a fellow Ohioan.
    Back to Mr. Rinaldi since you brought that up. Good 
morning, Mr. Rinaldi.
    Mr. Rinaldi. Good morning.
    Mr. Balderson. As I said earlier, I did have the pleasure 
of touring the tower at Columbus airport, now named the John 
Glenn International Airport and have developed a relationship 
with Mike Weekley there, and it is always good to work with 
Mike.
    And someone talked about the facility in Oklahoma and the 
training facility, and that is something that I am going to 
discuss in the near future pertaining to workforce development 
and the backlog that is there and, you know, getting folks 
encouraged to go into this industry.
    But have you had any confrontations about backup plans in 
case there is a future shutdown? But hopefully we pass my bill 
and that does not happen.
    Mr. Rinaldi. Well, as far as backup plans for future 
shutdowns, you know, working with the agency as we approach a 
shutdown, the interesting thing is about 10 days out we start 
exchanging lists of who would be what we would say exempt/
nonexempt. These say essential/nonessential. Now, that is not 
politically correct, so it is exempt/nonexempt.
    We think the FAA, all employees of the FAA, are essential 
and need to come to work to continue to run the safe, most 
efficient system in the world, and we would like to see stable, 
predictable funding and make sure that we never have to see 
these shutdowns again.
    Because even if we don't shut down tomorrow night I think 
that is, we have already been planning for a shutdown for 10 
days. That is detrimental to aviation because we are not 
modernizing the system. We are not moving forward. We are 
taking two steps backwards every time we come up to a date that 
looks like a shutdown.
    Mr. Balderson. Thank you.
    One followup for you and back to that workforce development 
piece and attracting outside of the shutdown concern. Can you 
discuss any ongoing plans to recruit folks to get into this 
line of work?
    Mr. Rinaldi. We have a number of people that want to become 
air traffic controllers. The agencies, we have different tracks 
of hiring, whether it is from the military or prior experience, 
certainly off the street, or in our college programs.
    So there is a good pool of people who want this job. The 
problem is getting them through, you know, the testing, then 
security, the medical, and getting them through the Oklahoma 
academy, which has limited seats.
    And we have lost 30, basically 2 months of limited seats.
    Mr. Balderson. OK. I look forward to working with you on 
that.
    I yield back. Thank you, Mr. Chairman.
    Mr. Rinaldi. Thank you, sir.
    Mr. Larsen. Thank you.
    And the Representative from the State whose State beverage 
is milk, Angie Craig, Representative Craig from Minnesota.
    Mrs. Craig. Thank you so much, Mr. Chairman.
    So I was sworn into the United States Congress 12 days into 
this shutdown, and since 1996, we have had 22 continuing 
resolutions and 10 Government shutdowns. So as I come into this 
Congress, I take a fresh look if what we have been doing is 
working.
    And I want to say to you that that is why I have supported 
a freshman bill called The Shutdown to End All Shutdowns. Not 
only does it send us into a continuing resolution, but it also 
makes sure that our elected leaders are here every single day 
for daily quorum calls.
    It also takes away pay because I believe if your hard-
working Federal Government employees are not being paid, 
neither should we, and we should come to work every day and 
fight like hell for you, even though we are not being paid.
    So I have come in, I believe, with a number of the freshmen 
with fresh eyes looking at the way this Congress is working.
    I will support the chairmen's, both Chairman Larsen and 
Chairman DeFazio's legislation, H.R. 1108, because I believe in 
the interim of figuring out how we stop all shutdowns, we 
certainly should stop our national airspace having the risk 
that we currently have.
    Mr. Rinaldi, thank you so much for being here this morning 
and representing air traffic controllers. As you may know, I 
have a regional air traffic control center in my congressional 
district in Farmington, Minnesota, otherwise known as the 
Minneapolis Air Route Traffic Control Center. I will try not to 
be offended by it being called Minneapolis and it is in 
Farmington.
    But it is the 13th busiest center in the United States, and 
I want to share a few of the stories of the air traffic 
controllers in my center. I want to talk about Joe, Jeremy and 
Kelly.
    Joe was a new father of a baby born 10 weeks prematurely. 
He had his leave canceled, and he had to decide whether he 
would come to work every day or go to the NICU and see his 
newborn.
    Jeremy was a father of three who was on the verge of having 
to take out significant credit card debt just to pay his bills.
    And Kelly is a trainee with student loan debt, and she had 
to wonder how she was going to continue to meet those 
requirements.
    So each of them on behalf of their communities came to work 
every single day not just on behalf of their communities, but 
on behalf of communities that they will never ever know. They 
came to work every day, and they did their job.
    So I want to ask you, Mr. Rinaldi, and every single one of 
you. We are staring down another Government shutdown, and 
although I am optimistic because that tends to be my nature, I 
want you to tell us what message you would have for Congress 
and for the administration on Saturday morning if you wake up 
and this Government is shut down again.
    In one or two sentences, what is your message to us?
    Mr. Rinaldi. It has been the message during the shutdown. 
It's: open the Government. There is no reason for Federal 
employees to be held hostage for a political dispute that has 
nothing to do with them. Congress, Senate, White House need to 
do their job. They are elected to do their job. Do their job 
and keep the Government open.
    I thank you for your legislation. We will support any 
legislation that meets our four core principles, that, you 
know, supports our front-line workforce; that certainly gives a 
stable, predictable funding; and gets us out of this shutdown 
mode.
    I thank you.
    Mrs. Craig. Thank you.
    Mr. Perrone. I thank you, Congresswoman.
    Yes, the same thing: keep the Government open. Do your job. 
Pay the folks because it is a critical, critical disservice to 
them that they do not come to work or if they show up, some 
have to show up Saturday morning, midnight Friday night because 
they work rotating shifts, and have to think again, ``Here we 
go. How long are we going to go?'' But yet they are going to do 
everything they can.
    So do you job, Congress. Do your job, administration. Sign 
whatever it takes to keep the Government and the FAA open, and 
really for all Federal employees.
    Thank you.
    Mr. Calio. Thank you.
    Airlines for America would say that, number one, operating 
crisis to crisis is a terrible way to do business whether it be 
in Congress or anywhere else.
    Secondly, compromise is not a dirty word.
    And, thirdly, A4A also will support any legislation that 
prevents a future Government shutdown.
    I would say this because I am one of the old-timers here. 
Don't try to bite off too much. Seize the moment right now. Get 
H.R. 1108 done and move on from there.
    Ms. Nelson. We take our role seriously of keeping the 
American public out of danger, and if Congress chooses chaos on 
Saturday morning, working people have power, and we will come 
together and use it and we will stop the chaos.
    Mrs. Craig. Thank you.
    Mr. Bunce. I would just say: do your jobs and do not leave 
town until it is done.
    Mrs. Craig. Thank you. Thank you so much.
    I yield back my time.
    Mr. Larsen. Thank you, Representative Craig.
    Representative Spano from Florida.
    Mr. Spano. Thank you, Mr. Chair. I appreciate the 
opportunity to serve with you.
    And thank you for being here. I am really grateful for your 
testimony and your expertise and the work that you all do to 
keep us safe. It means a great deal to me as one who has never 
flown too much until very recently. So thank you very much.
    I have a couple of questions for you. I, too, would 
reiterate and just echo what the other members of the committee 
said in terms of there really being absolutely no excuse for 
the Government to shut down.
    We have a job to do, and we need to do it, and I think the 
Nation has a right to expect us to do it. And so we will look 
forward to working with those out there who do have bills that 
would continue the Government and would prevent this type of 
scenario from happening in the future. So I look forward to 
working with the Members to that effect.
    I do have a few questions. The first question I would 
direct, if I may, to Ms. Nelson. You had mentioned and you just 
reiterated, I think, or alluded to it a moment ago just in your 
response to the previous question, but you said in your 
testimony, ``If Congress will not put an end to the crisis, we 
will take action to save lives and protect U.S. aviation.''
    My assumption by that is that that means you would go on 
strike. Is that an accurate assumption?
    Ms. Nelson. No. That is not an accurate assumption. It may 
be every single day in aviation today if we see an unsafe 
condition, we are charged to raise our hand and say it is 
unsafe.
    Now, we run the safest transportation system in the world, 
really proud of that, and all of us participate in that. But 
when we see something that is unsafe, we will raise our hands 
and we will not work that flight until that is corrected.
    So that is a possibility. That is not what I am saying is 
definitely going to happen. What I am saying is that we are 
calling all American people to come to the airports and demand 
that Washington do its job and keep the Government open.
    Mr. Spano. Thank you so much.
    My next question is for Mr. Perrone. How long, in your 
opinion, do you think it will take for FAA operations until 
they are back to normal?
    Mr. Perrone. Thank you, Congressman.
    That is tough to say. Like I said, the shutdown, even the 
2013 shutdown, it took a long time to catch up, and now on top 
of that we have 35 days of shutdown. Our inspectors are trying 
to do what they need to do.
    I mean, there was an aircraft crash that they just put tape 
around, and nobody could inspect it, the NTSB, the FAA 
inspectors, and it just sat there.
    There were violations that occurred that timed out. Some 
timed out; some did not get put into the system in a timely 
manner. But, again, every day there is new work that they need 
to do. So it is hard to say, but it is going to take a long 
time.
    As Mr. Bunce said, there is aircraft certification that 
didn't happen. There are pilot certificates that didn't happen, 
and that continues to add to the frustration, and we have had a 
few of our inspectors already say, ``We are leaving. We are 
going back to industry.'' There is going to be a shortfall of 
staffing.
    And then with the academy being shut down, you cannot train 
new inspectors. So it is a compounding problem.
    Mr. Spano. Can you give me an understanding or an idea of 
what the functions were that your members continued to perform 
during the shutdown and what they did not perform?
    Mr. Perrone. So from the aviation inspector side, none of 
that work was done or completed. So there is a safety program 
volunteered by the industry that says, ``Hey, we have an issue 
or concern.'' It goes over to the FAA inspector to analyze. 
That just sat in their inbox until the inspectors came back.
    There were pilots that needed to either be recertified or 
given licenses that was not completed. Now, the registry was 
open this time around versus 2013 because the industry said 
last time that the registry not having aircraft certified or 
registered to sell, they stayed open.
    Procedures were limited. So new procedures that normally 
take a certain amount of time were delayed.
    Our technicians worked. They worked without pay the whole 
time. What they couldn't do is some of the modifications, as 
Paul has said, some of the new equipment, or I should say 
modifications to existing equipment couldn't be completed. They 
were only allowed to do safety related equipment, certify the 
existing equipment for air traffic control. They couldn't do 
other type of work.
    And we had a lot of administrative folks that were 
nonessential or nonexcepted, that that paperwork sat around.
    Mr. Spano. Thank you. Thank you.
    My next question is for Mr. Calio, and that is you 
testified about the shutdown's impact on NextGen programs. So 
my question to you is: are your member airlines still in line 
to meet the NextGen ADS-B equipage deadline for January 2020?
    Mr. Calio. Well, we are working on that with the FAA, but 
all of these shutdowns create a slowdown because nobody could 
work on it for 35 days, and if there is another shutdown, that 
will further delay it. And we have had those kinds of delays a 
number of times over the last 7 years. So every shutdown, like 
I keep saying, has a cumulative impact.
    So we are working towards it. Our expectation is to try to 
meet it. We'll see.
    Mr. Spano. Thank you.
    I yield back.
    Mr. Larsen. Thank you.
    I recognize Mr. Carson, Representative Carson, from Indiana 
for 5 minutes.
    Mr. Carson. Thank you, Mr. Chairman.
    Thank you, Mr. Bunce. This question is for Mr. Bunce and 
anyone else who would like to answer.
    You know, during the shutdown, our office received an 
urgent request for help with the Indiana Organ Donation Network 
to get their flights off the ground. They needed to get new 
aircraft to help surgeons who collect organ donations and then 
fly them to perform surgeries to even deliver the organs.
    This lifesaving network was interrupted during the shutdown 
when certification personnel were essentially furloughed. I am 
sure you have seen more than we have the examples of this kind 
of thing in general aviation.
    I am hoping you or any of the panelists can give us a 
better picture of how the shutdown impacts with this particular 
sector.
    Mr. Bunce. Well, sir, in this particular case, they were 
taking delivery of two business jets, and the operating company 
that worked these aircraft have quite a few flights that they 
do over a Midwest region that includes the State of Indiana.
    And it is just an example of what happens all throughout 
the system because pilots have retraining requirements that 
they have to do to be able to fly a business jet. So when you 
go back to training in a training center, the training center 
has to have the most current equipment that you have on that 
aircraft in the simulator. So those manuals have to be approved 
each and every time that the manufacturer or, in this case, 
someone who is moving organs and does a modification to the 
aircraft.
    That ripples into the system, and so the FAA has to approve 
each one of those manual changes. So you impact the pilot 
training. You impact the delivery of the aircraft when you have 
got to make modifications to it, and so that happened 
throughout the country.
    Take, for instance, firefighting. Up in Mr. DeFazio's 
State, they had to do modifications to get these aircraft ready 
to be able to bid on contracts for the upcoming fire season. If 
they didn't have the modifications in place, they couldn't 
submit the proper bid because they can't say they have 
equipment on the aircraft certified that they don't have.
    So all of a sudden, they miss a year of bidding on 
contracts for important elements like firefighting that we have 
to do. So it happened across the country in many different 
sectors that do these public service types of flying.
    Mr. Carson. Thank you. Thank you, Chairman.
    And I yield back.
    Mr. Larsen. Thank you, Representative Carson.
    I go with Representative Katko of New York.
    Mr. Katko. Thank you, Mr. Chairman.
    And thank you all for begin here today.
    Mr. Calio, I think you summed it up perfectly when you said 
that compromise is not a dirty word, and at the heart of what 
causes shutdowns in my mind is an inability to compromise, 
political posturing and gamesmanship that catches a lot of 
people in the crosshairs, and the lack of consideration for 
those people is stunning to me.
    Mr. Perrone, what you touched on and what others touched on 
are some of the intangibles that happen in the security arena. 
Yes, thank God, you didn't have a security event during this 
time, but when you have someone like a TSA employee, and I have 
oversight over TSA for the last 4 years and I continue to, and 
I am glad to be on this committee as well because it is an 
aviation sector, which I am very, very interested in from a 
safety and security standpoint; you are paying someone peanuts 
at TSA. They don't have all the protections other agency 
employees have, and then you are asking them to work for free, 
and then you are asking them to try and find the proverbial 
needle in the haystack, knowing that something as small as this 
could take down an airline, my cell phone.
    We are flirting with fire. We are absolutely, positively 
flirting with fire. And I look at the aircraft inspection 
security. It is the same thing. You could apply that to 
anything, not just TSA.
    So the more that we use shutdowns as a political tool, the 
more we are really flirting with disaster, and I have never 
voted for a shutdown. I have never voted to keep the Government 
closed, and I never will, and the consequence be damned to me 
politically because it is more important that we do our jobs, 
and we abdicate our responsibility when we don't do that.
    So with that in mind, I think it is sometimes helpful to 
identify with some particularity the impacts, and we have 
talked generally about them. So I want to ask. I will maybe ask 
Mr. Bunce first. Maybe, Nick, you can think about something 
from the airline side.
    But from the manufacturer's side, I used some examples 
during the shutdown of unintended consequences from a financial 
standpoint because people are thinking, oh, you just shut down 
the Government. You are saving money. We do not need these 
employees.
    Well, it is much worse than that. Airline inspectors, you 
can't get your newly manufactured planes out of your plant 
because they can't be certified because the FAA inspectors 
weren't around; is that right?
    Mr. Bunce. That is correct, sir.
    Mr. Katko. All right. So can you give me an idea from a 
dollar amount what that costs from the manufacturing side to 
have those planes stacked up and not being delivered for 35 
days?
    Mr. Bunce. So for each company, as Mr. Calio said for the 
airlines, each company has an individual case, but let me give 
you one----
    Mr. Katko. I'm talking about the manufacturer's standpoint.
    Mr. Bunce. Yes. So each company is different. So for a big 
company that I mentioned a burn rate of $10 million in a major 
development program, that is one economic impact.
    For another company, a small company that has maybe got 
just one product line, and you are upgrading to, let's say, a 
new processor that does more work, if you go and you look at 
the supply chain, all of a sudden you have got to make a 
decision, a bet that the FAA is going to certify your product 
by a certain date, and you have got to turn off delivery of the 
old processor and start ordering the new ones because you have 
to have lead time in the supply chain.
    All of a sudden now you can't get that new product out the 
door. You run out of the old processor, and now you are stuck. 
And if your product line is very small, this can put you in a 
situation where now you have to try to go out to the markets 
and find bridge funding, and who wants to invest in an industry 
that is so reliant on the Government that they have these stops 
and starts?
    So it does have a significant ripple effect.
    Mr. Katko. Mr. Calio, I know you mentioned some dollar 
figures. Do you have any hard figures for the industry as a 
whole as to how much they were impacted by this?
    I mean, I looked at some of the new routes that you said in 
your testimony were being affected that weren't going to be 
able to go into operation. You aren't taking delivery of new 
airplanes, which are more efficient from a fuel standpoint, and 
you were waiting for those new routes, maybe you had to cancel 
routes.
    All those things come into consideration that people don't 
take account of. So is there anything else you want to add to 
that?
    Mr. Calio. Not to that because I have said we can't 
quantify the figure, but there is a figure there.
    I would like to mention TSA because of your work on TSA, 
and thank you, along with Chairman DeFazio for your work in 
trying to stop the diversion of TSA fees for nonsecurity 
purposes.
    Mr. Katko. Yes.
    Mr. Calio. That was an area of the system that was 
stressed, and passengers are paying every day into that system. 
The same with CBP where----
    Mr. Katko. That is why I introduced a bill to pay them out 
of that fund.
    Mr. Calio. Yes. So why stop it?
    So there are things to do here, and I think doing it on a 
bipartisan basis is exactly the approach that has to happen, 
and again, I would encourage all the committee, without being 
presumptuous, I hope, strike while the iron is hot. People are 
thinking about this now.
    Mr. Katko. Mr. Perrone, real quickly, were the aviation 
safety inspectors at the foreign repair stations impacted by 
this at all?
    Mr. Perrone. Yes, there was none done during that 35-day 
period.
    Mr. Katko. We are over my time.
    Mr. Perrone. So we had security issues.
    Mr. Katko. We are, are we not? We are flirting with fire.
    Mr. Perrone. Absolutely.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you all.
    Mr. Larsen. Thank you.
    I recognize Representative Garcia from Illinois for 5 
minutes.
    Mr. Garcia. Thank you, subcommittee Chair Larsen and 
Ranking Member Graves.
    So once again, we are possibly on the cusp of yet another 
potential Government shutdown. It is for this reason that I am 
very happy to join Chairman DeFazio and subcommittee Chairman 
Larsen in cosponsoring the Aviation Funding Stability Act of 
2019.
    This bill would ensure that all FAA programs, projects, and 
activities would continue uninterrupted during a future 
Government shutdown. While we talk about the effects of 
shutdowns, I want to make sure that we keep at the fore the 
human impact shutdowns have on real, hard-working people.
    This morning I met a TSA agent working at O'Hare Airport, 
one of the busiest in the country. Christine worked hard to buy 
her manufactured, or mobile, home in Chicago, where she and her 
23-year-old son live. During the last shutdown, Christine had 
to pull out the $200 she had in savings just to buy food and 
gas. At one point, Christine called out because she didn't have 
enough money to make her 22-mile commute to work.
    On January 10th, Christine was served a 5-day notice of 
eviction. In a recent interview, she recounted the internal 
dialogue she had during the shutdown.
    ``How long can we last? I have got a $15 gift card, and it 
is 2 degrees out this morning. What the heck am I going to do? 
I am worried about my car, and I am worried about losing my 
home. Even if the Government is reopened, this has hurt us 
tremendously. We missed paychecks, and there will be late fees. 
Who would work at a job for 1 month and not get a paycheck?''
    Mr. Chairman, I also listened to stories of air traffic 
controllers who are on the brink of resigning because they were 
being forced to make the decision on whether to come to work or 
find another job to pay the bills.
    In fact, amidst the shutdown, I joined my Illinois 
delegation colleagues at O'Hare to hear directly from workers 
about the problems they faced. There were over 600 air traffic 
controllers and other aviation professionals who live and work 
throughout northern Illinois, including my district.
    One controller whose wife had been diagnosed with a heart 
condition while their first child was in the middle of medical 
tests fell into quite deep hardship. You see, dealing with 
medical conditions is more difficult at the beginning of the 
year because working families have not yet met their insurance 
deductibles and have a larger out-of-pocket responsibility.
    In St. Louis, there were reports of a young air traffic 
controller selling his plasma just to make his monthly 
payments. These are simply devastating stories of real 
individuals suffering from the political gamesmanship that 
threatens shutdown after shutdown. This brinksmanship has the 
effect of reducing Federal employees, contractors and their 
families to mere political bargaining chips during the 
shutdown.
    Chicago Center was in the middle of implementing new 
equipment which will enhance communication abilities with 
pilots. This equipment is commonly known as DataComm. Once the 
shutdown started, training and implementation stopped. NATCA 
estimates that $1.5 million that was spent on training was lost 
and will need to be reaccomplished next fall or later.
    Not only did the new equipment training come to a halt, but 
on-the-job training was ground to a standstill as well.
    I thank all of the witnesses who have come here today to 
show us what the full impact of a shutdown on aviation is. I do 
have a question for Mr. Rinaldi.
    With, as I understand, about 20 percent of current air 
traffic controllers eligible to retire and the current 30-year 
low in staffing, there is a critical need for new controllers 
to expand airport capacity at O'Hare and Midway and other large 
airports. What will the impact of the shutdown be on 
encouraging air traffic controllers to retire and on the 
ability to hire new controllers?
    Mr. Rinaldi. Thank you, sir. Thank you for your passion and 
your support for the Federal workers. We really appreciate 
that.
    As far as, you know, we are still in catchup mode from the 
shutdown of 2013, the sequester that kicked in. The FAA closed 
the academy, and then we had the October shutdown for 16 days. 
The academy was closed for a full year, and we are still 
catching up there.
    If we shut down again, the catchup will be well into the 
2022-2025 mode.
    Mr. Garcia. Thank you, Mr. Chairman.
    Mr. Larsen. Thank you, Representative Garcia.
    I recognize Representative Woodall from Georgia for 5 
minutes.
    Mr. Woodall. Thank you, Mr. Chairman.
    And to Mr. Rinaldi, any time bad things happen and folks 
are focused, you either had a chance to have your stock rise or 
your stock fall. I don't think folks realize your members were 
working 60-hour weeks before shutdowns and 60-hour weeks during 
shutdowns and 60-hour weeks after shutdowns. That is just the 
kind of work that your members do day in and day out.
    And at least from the Metropolitan Atlanta area, where we 
count on your folks to show up and do their very best 
absolutely every single day, I know things were getting tough, 
well, from the beginning to the end, but your folks showed up 
and did what America was asking them to do, and folks are 
grateful. So I just wanted you to know that that certainly did 
not go unnoticed.
    Mr. Rinaldi. Thank you.
    Mr. Woodall. We spend a lot of time these days talking 
about the demise of the aviation industry not because of 
shutdowns, but because we will stop flying planes, because we 
will have lots of new alternative modes of transportation to 
replace our aviation industry.
    Not to get ahead of ourselves, but I know the aviation 
industry has been working hard to take care of its carbon 
footprints, to reduce emissions, to do what the private sector 
always does, which is try to be the very best corporate citizen 
it has.
    I was hoping Mr. Bunce and Mr. Calio could take just a 
moment and talk to me about what has been going on in the 
industry to try to be the very best steward of the environment 
that you can be, to continue making advancements whether the 
Government mandates them or not.
    Mr. Bunce. Yes, sir. I think I join my colleagues here. I 
am extremely proud of what we have been able to do as an 
industry. This industry came together. We went out to ICAO, 
which is the United Nations of aviation up in Montreal, came 
together and arrived at a carbon standard or a CO2 standard 
that now is applied worldwide.
    We have programs going on to be able to use what is called 
sustainable alternative jet fuel, and obviously Mr. Calio's 
membership uses the bulk of that fuel, but we in business 
aviation, everybody that is using turbine fuel, jet fuel, will 
be able to meet our goals if we are able to go ahead and start 
producing or getting the demand for this and having refiners be 
able to give us that type of fuel.
    On the piston side, for avgas, this committee has been 
tremendous supporters for us of a program that we are doing to 
be able to make that fuel more clean.
    So in so many areas, this industry is working together, and 
because the whole planet is relying on aviation and we have 
this new, exciting dimension coming out of an ability to use 
electric and hybrid propulsion, which is even going to make us 
further green.
    So it is a very exciting time in aviation, and we are doing 
our part for environmental sustainability.
    Thank you.
    Mr. Woodall. Thank you.
    Mr. Calio. Thank you, Mr. Woodall.
    As Mr. Bunce laid out, there is a lot that has been going 
on, and the industry has come together to do it. Please forgive 
my voice. But I point out that between 1978 and 2017, aviation 
reduced its emissions by 125 percent. That is the equivalent of 
taking 25 million cars off the road every year.
    In addition to that, we have carried 34 percent more 
passengers at the same time and more cargo as we did in 2000 
without emitting any more carbon dioxide.
    We have aspirational goals for the years coming up, short 
term and long term, that would take more off, and so you know, 
the proposals are nice, but the world can't live without 
aviation. We all know that. I tried to book a high-speed rail 
train to Brussels. I couldn't get one. So we are going to have 
to keep planes in the air, but we have to do better.
    And it is a multipronged effort from the manufacturers to 
everybody across the board. From our perspective, the less fuel 
we burn, the better.
    Mr. Woodall. I appreciate that. We spend a lot of time 
challenging each other to do better. I wish we spent as much 
time celebrating the successes when we achieve them. It is 
worth celebrating, and I am grateful to you for sharing it.
    Mr. Chairman, I yield back.
    Mr. Larsen. Thank you, Mr. Woodall.
    The entire subcommittee will have an opportunity to show 
their love for the greening of aviation, aerospace, and 
airports sometime in the future when we have a hearing. I look 
forward to everyone's full support for things we need to do, 
including having been mocked on the floor of the House 10 years 
ago for introducing even a sense of Congress for an emissions 
training system during the cap and trade debate. I am glad we 
are all catching up to where I am. I appreciate that.
    So with that, I recognize for 5 minutes Representative 
Norton from the District of Columbia.
    Ms. Norton. Thank you, Mr. Chairman.
    I think it is important that you quickly held this hearing 
so we can learn from it, particularly since we don't know if 
there is going to be another shutdown.
    And I would like to ask about the actions of the industry 
in preparation for shutdowns. I suppose I should go to Mr. 
Calio first.
    Everyone saw the shutdown coming. We just couldn't believe 
it would really occur, but there it was. And, of course, there 
have been shutdowns in prior years repeatedly, and we have been 
unable to stop them. I don't know whether some of the bills 
that are coming forward will ever have that effect because 
there are some negatives to those bills as well.
    So in seeing this shutdown coming, were there actions that 
the industry took or could take?
    And in light of the fact that although we believe the 
current bill will be signed, are there actions being taken in 
preparation for a possible shutdown as we speak here today?
    Mr. Calio. Thank you, Madam Congresswoman.
    Yes, from our perspective there is always planning 
operationally and what we can do in which we have to anticipate 
what will happen with the rest of our partners in the aviation 
community as a shutdown progresses and how we can make it up.
    Frankly, there is a lot of piecing and patching that takes 
place to try to get airplanes in the air, to keep airplanes in 
the air, to handle the fact that we can't get new planes 
certified, the fact that we can't get airworthiness directives 
approved, the fact that the FAA inspectors are out of the 
system, you know, who we welcome because we need and want the 
oversight.
    So a lot----
    Ms. Norton. You will be flying during a certain shutdown.
    Mr. Calio. Yes, we will.
    Ms. Norton. So are there actions with planes going to be in 
the air that you take or must take when you know that there is 
going to be a shutdown?
    Mr. Calio. Yes, we have to take overall account for what is 
going to be in the system and what the level of capability is 
to fly what number of planes and which number of passengers.
    Ms. Norton. So if there is going to be shutdown with 
various parts of your staff or various parts of the system, I 
should say, not being paid and, therefore, not sure that they 
will be there, are there actions that are taken considering 
that planes do not stop circulating during that time?
    For example, are there fewer planes in the air? We were 
told that there were long periods of times when planes could 
not safely land. Those are the kinds of safety issues I am 
interested in.
    Mr. Calio. Well, what happens is, depending on the 
capability of the rest of the system, what the FAA will do is 
decrease the number of planes in the air; will stretch out the 
timing between flights, all of which slows the entire system 
down; and----
    Ms. Norton. And decreasing the number of planes, it may 
mean you have to cancel some flights?
    Mr. Calio. Yes, absolutely, which has a terrible impact on 
the people who are trying to fly, for the people and businesses 
that are waiting for their packages, and all of the knockon 
effects for the surrounding communities for people not flying, 
not going to hotels.
    It all in all is a bad situation. Again, what we need to do 
is look forward and pass a bill like H.R. 1108, which will 
prevent any future shutdowns in this industry and allow for 
stable funding so we can make long-term plans rather than have 
to plan for shutdowns.
    Ms. Norton. Do any other witnesses have anything to say?
    Mr. Rinaldi. I would just add to that every time we 
approach a lapse in appropriations in the FAA, about 2 weeks 
out we start scaling down our modernization activity. We 
certainly start looking at our list of who is essential/
nonessential, who is going to be coming to work, and basically, 
we stop moving the organization and the industry forward 
because we actually have to take a step back to actually 
prepare for the incoming shutdown or the eventual shutdown if 
it happens.
    And all too often in high drama, Congress will pass it on 
the 11th hour and give us another 2 weeks. Well, all that does 
is give us another 2 weeks to prepare for another shutdown 
because those lists change all the time.
    It is an endless circle with the hamster just pawing away 
going nowhere because we are preparing for shutdowns. It is 
ridiculous. It needs to end.
    Ms. Norton. I just want to thank all of our witnesses who 
had to confront this shutdown, that you were able to keep the 
United States of America safe in the air during the shutdown. 
So we owe you.
    Thank you, Mr. Chairman.
    Mr. Larsen. Thank you, Representative Norton.
    I move to now grant 5 minutes to Representative Carbajal of 
California.
    Mr. Carbajal. Thank you, Mr. Chair.
    And thank you for being here and sharing with us the 
important work the industries and the workers you represent do 
day in and day out to keep us all safe.
    Mr. Rinaldi, in your testimony, you mentioned the personal 
toll the 35-day shutdown took on air traffic controllers. In my 
district, I represent three airports, Santa Maria, Santa 
Barbara, and San Luis Obispo, community airports.
    I personally met with a number of air traffic controllers 
and other airport workers in my district who echoed some of the 
same concerns you outlined in your testimony. Many were anxious 
as to when their next paycheck would come or when the shutdown 
would end.
    For some of the workers in my district, this took an 
extraneous toll on their personal lives, as some were 
recovering from losing friends and family members or homes 
during the Thomas fire and Montecito debris flow.
    Can you speak further how the shutdown impacted staffing 
for smaller community airports?
    Mr. Rinaldi. Yes, sir. Thank you, and thank you for your 
passion for our members.
    Certainly, I am assuming you are talking about Trisha 
Pesiri-Dybvik, which has been out there. She lost a home. They 
lost everything they had during the fires. Then to continue to 
come to work and not get paid while they are trying to rebuild 
their home a year later is devastating and demoralizing.
    And it is around the country. It is not just at our core 30 
airports or our large en route centers or our core 30 TRACONs. 
It is every airport out there. Controllers showed up every day 
to maintain the safety of the National Airspace System, with 
the uncertainty of when they were going to get a paycheck, and 
it weighed on them and they were doing side jobs just to put 
food on the table. And they didn't know how long it was going 
to last because there was a lot of rhetoric that was going on 
that this could go on for months or years, and people were 
really, really concerned at that point.
    Mr. Carbajal. Thank you, Mr. Rinaldi.
    Mr. Bunce, this shutdown took a huge toll on our economy. 
Could you share with us a little bit of the impact that this 
shutdown had on the manufacturing, aviation manufacturing 
industry?
    What did it do to many of those production lines? What was 
the fiscal impact?
    Mr. Bunce. Again, it is because each company has a 
different level of activity and where they are in a production 
process of new aircraft. It could be all from one company was 
very close to bankruptcy to another company that was just 
burning a tremendous amount of cash, but they had more product 
lines to be able to absorb it.
    So I cannot give you a quantification of the overall dollar 
amount of impact, but what you really do in that situation is 
you hurt our ability to be able to service markets all over the 
world because if you look at content-wise, most of the aircraft 
that are delivered in this very competitive marketplace have a 
lot of U.S. content.
    So one example, there is an Italian company during the 
shutdown that was supposed to have FAA test pilots come over 
and fly the test aircraft in icing conditions in Europe so that 
they could deliver to a U.S. airline that is here on the east 
coast. Those aircraft have a significant amount of U.S. 
content.
    Now, all of that flight tests now, they do not know when 
they are going to be able to get it done, and they may miss the 
icing season that they needed to be able to get those tests 
done.
    So even what is happening overseas is impacting U.S. 
companies here because of the global nature of our trade back 
and forth.
    Mr. Carbajal. Thank you.
    Clearly, we have been told that the impact was over $11 
billion to our economy, $3 billion of which we will not be able 
to get back. That was part of our GDP.
    So thank you for sharing, and thank you all again for the 
work you do and those you represent.
    Mr. Chair, I yield back.
    Mr. Larsen. Thank you, Representative Carbajal.
    Now, I will do a second round of questions, and I will 
start by recognizing Mr. Graves for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Mr. Rinaldi, do you believe that the FAA is going to hit is 
fiscal year 2019 targets for training controllers?
    Mr. Rinaldi. For training controllers or hiring 
controllers? For hiring through the academy?
    Mr. Graves of Louisiana. I am trying to remember their 
target. Was their target for training or hiring?
    Mr. Rinaldi. It is for hiring through the FAA Academy.
    Mr. Graves of Louisiana. OK. For hiring then.
    Mr. Rinaldi. I believe they are going to struggle to make 
that. They are going to try, but I think through the process 
and through the limited seats in the classes out in Oklahoma 
City, they are certainly going to try, but I think they are 
going to miss their target this year.
    Mr. Graves of Louisiana. Do you have any suggestions or 
recommendations on what we could be doing, I guess more 
specifically, what the FAA could be doing to address the 
failure rate of those graduating from the academy?
    Mr. Rinaldi. The failure rate is actually at the academy to 
screen, right? So, you know, we much prefer that we would 
screen them out at the academy than to bring people that quite 
possibly are not qualified into our facilities and train them 
on live traffic if they do not have the skills and the aptitude 
to become a certified air traffic controller.
    So those screens that are happening out in the academy 
roughly depending on the class, it goes from 50, 60 sometimes 
success rate. I think that is a good path because the end 
product we are seeing out of the academy, we are seeing a 
higher success rate at our larger facilities.
    Mr. Graves of Louisiana. Thank you.
    Mr. Perrone, do you have any other ideas on things we could 
be doing to help address or, I guess, mitigate some of the 
safety impacts that you have raised from the shutdown?
    Mr. Perrone. Thank you.
    And I think the biggest thing is keep the Government open, 
keep people employed, and making it where they want to come to 
the agency and continue to keep the safest system in the world.
    You know, the FAA reauthorization bill has some training 
and staffing models that we haven't gotten to yet because we 
were just starting and then the shutdown occurred. So we need 
to get involved in that.
    It is just important that the Government stays open. You 
know, we have people that go to Oklahoma City and get trained 
at other locations continually throughout their career. It is 
not a one-time event. So the academy has to stay open for 
people to get trained.
    New equipment comes onboard. They have to get out there to 
get trained and then go back and get on-the-job training and 
certification of equipment.
    So it is a continuing process for us. It is not just a one 
time here is a new-hire and that is it. Myself, I spent over 
2\1/2\ years in the academy in training. So it is important to 
keep everything going.
    The FAA reauthorization bill has training that we want to 
work with the FAA on other ways or avenues of getting them 
trained, locally, colleges, other events. So we appreciate 
keeping the Government open.
    Mr. Graves of Louisiana. Thank you.
    Ms. Nelson, I believe other folks commented on the 
performance, FAA leadership. I am just curious if you had any 
reaction in regard to their performance or suggestions on how 
things could be done differently in the event we would run into 
an awful situation like this in the future.
    Ms. Nelson. I appreciate the leadership of the FAA, and 
certainly of all the people who came and tried to keep the 
system running and make it safe. When they talk about pulling 
down capacity and efficiency, that is a direct impact on my 
members' jobs.
    And the conditions that the air traffic controllers were 
describing here that they were put in, where they were having 
to make a determination to keep the system safe, that that 
efficiency rate would have to go down. The capacity rate would 
have to go down and could result in massive furloughs for 
airline workers and a cascading effect from there.
    So we actually appreciate Administrator Elwell's very close 
watch on this and work with us, but the fact of the matter is 
that we were hearing both out of the FAA and the TSA that the 
only way to keep us safe is to have certain long-term funding.
    Mr. Graves of Louisiana. Thank you.
    Lastly, Mr. Chairman, I just want to make note there were a 
few comments about the shutdown that were made, and I want to 
commend and associate myself with the comments from Mrs. Craig 
regarding the Members not being paid.
    And I think also her comments regarding Members having to 
show up, mandatory showing up 7 days a week, I think that is 
absolutely, absolutely what needs to happen.
    And let me just go back, and I want to thank all of you. I 
want to thank the people you represent and say it again. I 
think it is awful that the folks who were impacted by this 
didn't deserve it, and they couldn't solve it. I think that is 
wrong.
    And I think for us to continue to be paid under that 
scenario is inappropriate. It takes two sides to any 
negotiation, and while Chairman DeFazio and Mr. Larsen have 
introduced legislation that mitigates this impact in the 
aviation industry, I do think that we need to be focusing more 
broadly on shutdowns as well.
    So thank you all very much for being here.
    Mr. Larsen. Thank you, Representative Graves.
    So just to wrap up, I have a question and a couple of other 
additional comments. The question I have is for Ms. Nelson.
    Would you like to clarify your comments on the general 
strike and what that actually means?
    Ms. Nelson. I would be happy to.
    So we have called for a general strike in response to this 
shutdown, and the reason for that is because nowhere in private 
industry would anyone come to work without getting paid. 
Through all of the pain that we went through as aviation 
workers during the bankruptcies, the first day order in those 
bankruptcies was to make sure everyone got paid, and there was 
no determination of who was essential and who was nonessential. 
The only way to keep the business running is to have everybody 
chip in and make sure that it works and make sure that people 
get paid.
    So we had 2 million people who were not getting paid here 
and others who were forced to come to work without pay. This 
was unprecedented, and we believe that it requires an 
unprecedented response.
    So we were calling on all workers to talk about a general 
strike in response to this. If Congress can't do their job and 
can actually or if Washington can't do its job and can actually 
put us in a position where people are thrown into hopelessness, 
2 million American workers and the rest of us who were feeling 
the impacts of that, where this doesn't happen anywhere else in 
the country, where we have said over and over again that we do 
not agree with making people come to work without getting paid, 
then it requires an unprecedented response from the American 
people.
    And so we know that maybe we are not ready to have a 
general strike. We haven't even talked about it in this country 
for over 50 years. We believe that the conditions were that 
serious that we needed to talk about it.
    Separately, our members will continue to assess the 
conditions at work if there is a continued shutdown, and in 
situations where we believe that it is unsafe, we will withhold 
our service and not go to work and make sure that the American 
people are safe.
    Mr. Larsen. Thank you.
    I just ask unanimous consent the following items be entered 
in the record of today's hearing: two additional written 
statements from the National Business Aviation Association, and 
the Regional Airline Association.
    Without objection, so ordered.
    [The information follows:]

                                
 Statement from the National Business Aviation Association, Submitted 
                     for the Record by Hon. Larsen
    Chairman DeFazio, Ranking Member Graves and members of the 
Committee on Transportation and Infrastructure, thank you for holding 
this important hearing to address the significant challenges faced by 
the entire aviation system during the most recent 35-day partial 
government shutdown. On behalf of our 11,000-member companies, the 
National Business Aviation Association (NBAA) is pleased to submit this 
statement.
    The United States has the largest, safest and most diverse aviation 
system in the world, and this system functions so well thanks to tens 
of thousands of dedicated Federal Aviation Administration (FAA) 
employees. While much of the discussion during the most recent shutdown 
focused on our traffic control system, there were also negative impacts 
on the general aviation industry. General aviation annually contributes 
$219 billion to the U.S. economy and provides more than 1 million jobs, 
many of which are dependent on a fully-functioning FAA.
    One of the major challenges for NBAA members during the shutdown 
was reduced staffing at Flight Standards District Offices (FSDO). While 
certain aviation safety inspectors were deemed essential and worked 
without pay during the shutdown, the reduced staffing meant that only 
safety-critical functions could be performed. Safety is of course the 
number one priority; however, FSDOs perform other functions that 
general aviation operators rely upon to conduct their business.
    This meant that during the most recent shutdown, Part 135 air 
charter operators were unable to add new aircraft to their fleets. For 
NBAA member company Jet Logistics Inc., which transports human organs 
for transplant using Part 135 aircraft, this presented a significant 
challenge. The company was prepared to add two new aircraft to its 
charter certificate as there is a growing need for operators who are 
qualified to conduct organ-transplant flights. However, due to the 35-
day shutdown, the two new aircraft, representing a $12 million-dollar 
investment were grounded, halting transplant flights.
    For another Part 135 operator that provides cargo flights to a 
small community lacking service from larger carriers, the shutdown 
reduced their ability to provide service. In order for its pilots to be 
qualified and meet FAA requirements, the operator needed a check airman 
that had a current authorization. During the shutdown, this 
authorization could not be issued, and the operator was forced to 
ground four of its five cargo aircraft. This had serious financial 
consequences for both the cargo company and the clients that rely upon 
its service.
    For flight training providers, the shutdown resulted in delays and 
slowdowns that reduced the number of qualified pilots available to the 
industry. To issue pilot certificates, flight training providers 
require regular authorizations from the FAA, and these could not be 
renewed during the shutdown. The inability of training providers to 
issue certificates had the potential to halt pilot training and prevent 
aircraft from having the necessary crews to operate.
    During the shutdown, the qualifications for training center 
evaluators also expired and there was a backlog for approval of flight 
simulators. This made it impossible for organizations to conduct 
critical training activities, resulting in negative economic impacts. 
Training providers work in close partnership with the FAA, and for this 
system to generate qualified pilots, there simply cannot be extended 
government shutdowns where critical authorizations expire.
    With passage of the FAA Reauthorization Act of 2018, the FAA 
Aircraft Registry was deemed essential, meaning that dedicated registry 
staff worked without pay during the shutdown. This change allowed 
aircraft transactions to continue, and NBAA appreciates the leadership 
of this committee in working to deem the Aircraft Registry as 
essential. However, although the registry was operating, the Office of 
Aeronautical Central Counsel was closed during the shutdown. This meant 
that aircraft registrations requiring a FAA legal opinion, including 
those involving limited liability corporations and trusts, could not be 
processed. Many companies utilize these structures for regulatory 
compliance and the inability to secure FAA legal opinions delayed 
aircraft being placed into service.
    With the far-reaching impacts of the 35-day government shutdown on 
general aviation, NBAA supports a targeted solution to providing the 
FAA with funding certainty. We thank Chairman DeFazio and Aviation 
Subcommittee Chairman Larsen for their leadership in introducing H.R. 
1108, the Aviation Funding Stability Act of 2019. Under this bill, the 
FAA would be permitted to use funds from the Airport and Airway Trust 
Fund to continue operations and pay employees during a shutdown. With 
balances in the trust fund growing, this approach provides funding 
certainty, while maintaining congressional oversight of our nation's 
airspace system. NBAA supports this legislation which ensures our 
aviation system continues to operate safely and efficiently.
    The 11,000-member companies with NBAA appreciate the dedication and 
commitment of FAA employees during the extended shutdown. Through their 
work, our system continued operating, but we must understand the 
significant consequences and work to avoid another FAA shutdown in the 
future.

                                
   Statement from Faye Malarkey Black, President and Chief Executive 
Officer, Regional Airline Association, Submitted for the Record by Hon. 
                                 Larsen
    The Regional Airline Association (RAA) would like to express strong 
support for the February 13, 2019 Aviation Subcommittee hearing 
entitled, ``Putting U.S. Aviation at Risk: The Impact of the Shutdown'' 
and submits this written testimony to convey that another government 
shutdown would carry severe and unsustainable consequences for RAA's 22 
regional airline members and the 153 million passengers we serve each 
year.
    As you know, the U.S. aviation system drives $1.6 trillion in 
annual economic activity and supports 10.6 million jobs, with $446.8 
billion in earnings. Regional airlines play a critical role in 
upholding this system and operate 41 percent of all commercial airline 
departures. Further, fully 409 airports (about two-thirds of our 
nation's commercial airports) are too small to support air service from 
larger airlines with larger aircraft, yet still need reliable air 
service to connect with loved ones, business contacts, travel 
destinations and the global economy. For these 409 airports, regional 
airlines provide the only source of scheduled, commercial air service. 
Regional airlines therefore play a singular, critical role for smaller 
communities and this air service to smaller communities also supports 
the nation's economy writ large. In fact, regional airline service to 
the nation's smallest airports alone (non-hub and small hub) drives a 
conservatively estimated $134 billion in annual economic activity and 
supports more than 1 million jobs, with $36.4 billion in earnings.
    We appreciate the committee's leadership in holding this hearing 
today. RAA is gravely concerned at the prospect of another shutdown on 
February 15 and the negative impact this would carry for the commercial 
aviation system. While RAA firmly believes the best scenario is 
avoiding future shutdowns altogether, we are especially grateful to 
Transportation and Infrastructure Committee Chairman DeFazio and 
Aviation Subcommittee Chairman Larsen for introducing H.R. 1108, the 
Aviation Funding Stability Act of 2019, to protect the U.S. aviation 
industry during any future shutdowns that do take place. We endorse and 
support this targeted approach, which assures stability and the 
continued safe operation of the aviation system in the event of another 
shutdown.
     consequences for regional airlines during government shutdown
    As you know, airlines, along with employees at the Federal Aviation 
Administration and Transportation Security Administration, are still 
overcoming the impacts of the previous shutdown. RAA and its members 
are deeply grateful to the dedicated professionals at the FAA, TSA and 
Customs and Border Protection who kept air travelers safe and secure 
despite missed paychecks and the accompanying financial hardship, as 
the shutdown continued. You already know some of the serious impacts on 
the FAA and the Transportation Security Administration, as the shutdown 
forced air traffic controllers to slow the flow of flights in the 
airspace to maintain high safety standards and led to long lines at 
security checkpoints at U.S. airports. In addition to these highly 
visible impacts, regional airlines experienced other shutdown-related 
consequences that impacted our operations and passengers. Future 
government shutdowns would bring these same consequences and more, with 
problems compounding as the duration extends.
      furlough of safety reporting and oversight professionals is 
                              unacceptable
    The FAA is a safety organization and therefore, all FAA functions 
are essential. During the last shutdown, FAA employees responsible for 
safety and reporting systems were furloughed. Additionally, guidance 
for the agency's Certificate Management Office (CMO) was interpreted 
inconsistently across field offices, and it was unclear which essential 
functions employees could perform. Due to this confusion, offices 
responded differently to non-emergency--but still difficult--situations 
encountered by air carriers. Over the course of the 35-day shutdown, 
guidance was clarified, and consistency improved. However, if 
subsequent shutdowns cannot be prevented, then essential and non-
essential functions must have a clear definition, so individual 
Certificate Management Office professionals are not left to interpret 
which functions are essential and which are not.
 pilots training, certifications and upgrades were delayed or disrupted
    Because regional airlines are the career entry point for most Part 
121 commercial airline pilots, our members are constantly hiring. Pilot 
demand is at an unprecedented high, and major airline hiring has led to 
high attrition and the need for a dynamic workforce. During the 
shutdown, the FAA was unable to issue new student pilot certificates, 
unable to participate in check rides, unable to administer the ATP 
written test for new pilots, unable to certify new Advanced 
Qualification Program (AQP) providers and unable to certify new Aircrew 
Program Designees (APD), which constrained training for countless 
prospective pilots and exacerbated a pilot shortage that is already 
seriously straining smaller U.S. communities. Carriers were also unable 
to upgrade pilots to new positions (from Second in Command [SIC] or 
First Officer, to Pilot in Command [PIC] or Captain) during the 
shutdown.
    New hire training was further delayed or halted because the FAA was 
unable to process mandated pilot background checks through the FAA-
provided data base during the shutdown. While some airlines were able 
to use the online Pilot Records Data base tool during the shutdown, 
others experienced access problems and were unable to obtain these 
records. This created an uneven playing field when some carriers could 
gain access and others could not. Many regional airlines also have 
Extended Envelope Training programs, training manual revisions, and 
Advanced Qualification Program curriculum awaiting FAA approval. The 
shutdown delayed these approvals and their timely incorporation into 
pilot training programs.
    This complex matrix of observations and checks required to inspect 
qualifications of all pilots in various phases requires timely renewals 
and certification by the FAA in its role and of those authorized to 
provide the same. When one part of the system is delayed, there is a 
cascading effect on the entire system. In this way, the shutdown 
delayed planned operations and, in some cases, grounded pilots.
    shutdown impacted aircraft certification and delayed new routes
    Airlines had difficulty or were unable to place new aircraft into 
service because the FAA did not have the resources to authorize new 
aircraft, leading to service disruptions and, in some cases, delayed 
starts of planned routes. Airlines must gain FAA approval to start new 
routes or increase frequency on existing routes. This is routine, and 
flight tickets are often sold well in advance with the understanding 
that new aircraft will be able to flow into the network. A shutdown 
disrupts this process because critical FAA certification and oversight 
work that is required to add aircraft to fleets is delayed or halted.
    This has resulted in substantial revenue losses for airlines and 
service delays for communities. One regional airline is currently 
adding up to five new aircraft per month; if those aircraft cannot 
enter service, up to 30 flights daily may be disrupted. For small and 
non-hub airports with more limited connections to the air transport 
network, such as Essential Air Service (EAS) communities, these delays 
can have particularly devastating economic consequences. Unlike larger 
markets, these airports don't have a range of other service options to 
mitigate the consequences of disrupted air service. Passengers and 
businesses simply go elsewhere, and it is unclear if these communities 
can recover from a protracted shutdown.
                               conclusion
    A healthy, reliable and safe aviation system is only possible with 
the collaboration and cooperation of all aviation stakeholders and the 
Federal Government. Another shutdown would again seriously impact 
airline operations and should be avoided. However, if a shutdown cannot 
be prevented, steps must be taken to ensure the full operation of the 
FAA throughout.
    The Regional Airline Association stands ready to support the 
Committee in its work to bring certainty to the commercial aviation 
industry and the Federal workers who support it, giving passengers 
confidence that airline operations will continue and their future 
travel plans will not be disrupted.
    Thank you for this opportunity to provide comments.

    Mr. Larsen. And finally, I just want to note about the 
National Transportation Safety Board had to furlough employees. 
The NTSB is the independent agency responsible for 
investigating transportation accidents and advocating for 
safety improvements. It stopped work on more than 1,800 ongoing 
general aviation and limited aviation safety investigations, 
and it prevented the Board from working with the FAA to 
investigate 15 general aviation accidents that occurred during 
the 35 days.
    So we want to be sure that was clear in the record.
    If there are no further questions from the subcommittee and 
seeing none, I would like to say thank you to the witnesses for 
your testimony today. Your contribution to today's discussion 
has been informative. It has been helpful, and I hope we have 
set down into the record what the impacts of a shutdown is on 
aviation and aerospace.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing.
    And I ask unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    Thank you.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              


 Statement of Hon. Stacey E. Plaskett, a Delegate in Congress from the 
                             Virgin Islands
    Thank you, Chairman DeFazio, and thank you to all the witnesses for 
your testimony.
    The 35-day Trump shutdown had a significant, real-world impact on 
the Virgin Island Port Authority's readiness, ability to receive 
passengers efficiently and safely, and capacity to meet FAA's consent 
decree requirements. The 35-day shutdown worsened an already tenuous 
situation at the Territory's airports.
    To date, the V.I. Port Authority has not been able to receive any 
feedback from the FAA on the status of its two applications for FAA 
natural disaster funding. . .all attributable to the 35-day Trump 
shutdown. These applications are for our two airports; one located in 
St. Croix, the second located in St. Thomas. This $400 million in 
potential airport improvement program funding would provide both 
airports in the Virgin Islands sorely needed dollars for expansion and 
modernization projects.
    Finally, long overdue repairs to the Instrument Landing System at 
our airport in St. Thomas has been delayed indefinitely because the FAA 
Tech Ops Department was furloughed during the shutdown. As everyone is 
acutely aware, my District was ravaged in 2017 by two category five (5) 
hurricanes. The impact of the 35-day government shutdown is 
immeasurable and we cannot afford another Trump shutdown as the Virgin 
Islands continues rebuilding its economy and a better, more resilient 
infrastructure.

                                
 Statement of Hon. Greg Stanton, a Representative in Congress from the 
                            State of Arizona
    Mr. Chairman, thank you for holding this important hearing today to 
examine the impacts to the Federal Aviation Administration (FAA) of the 
recent 35-day partial government shutdown. I want to thank each of the 
witnesses for being here today and for sharing with us some of the 
impacts that resulted from the shutdown.
    The government shutdown impacted 800,000 Federal workers across the 
country and had an $11 billion impact on our economy according to the 
Congressional Budget Office.
    The shutdown not only impacted air traffic controllers who worked 
long hours without pay, it also halted safety inspections and many 
other critical functions the FAA is charged with to keep our air system 
safe, secure, and efficient. The shutdown also had a ripple effect that 
extended beyond that to airlines, general aviation, airports, 
manufacturers, and passengers.
    Last year, Phoenix Sky Harbor Airport hit a record for the number 
of passengers it served, more than 44.9 million, a 2.3 percent increase 
compared to 2017. And the Mesa Gateway Airport also saw a record 
setting year for passengers. To keep these passengers on the move and 
the air system running as it should, our Federal employees from air 
traffic controllers to Customs officials to security screeners are 
vital and without them, everything would come to a halt.
    As someone who travels every week by air, I am thankful for the 
dedicated service of our Federal employees during the very difficult 
and challenging time of the shutdown. They performed admirably, and I 
appreciate the community in my state for coming together to support 
them. They should not have had to go through this and it is important 
we look for solutions to prevent this situation from happening again. 
It is vital that the FAA be able to function without interruption to 
ensure the safety of our air system and those passengers traveling 
through our nation's airports, like Sky Harbor and Mesa Gateway.
    I want to thank the Chairman DeFazio and Chairman Larsen for the 
proposal they have advanced--the Aviation Funding Stability Act--which 
I support and have cosponsored, to make sure the FAA is funded during a 
government shutdown by allowing it to tap the resources in the Airport 
and Airway Trust Fund. This would allow the FAA to keep operations 
funded and make sure our dedicated Federal employees are paid for their 
work. We shouldn't have to resort to this type of legislation, but it 
is clear we need to find a reasonable way forward should we ever be 
faced with another government shutdown.
    Mr. Chairman, thank you again for holding this important hearing 
and for our witnesses here today.

                                
    Statement from the American Federation of Government Employees, 
                Submitted for the Record by Hon. DeFazio
                                                 February 12, 2019.
U.S. Representative Peter A. DeFazio
Chairman, House Transportation/Infrastructure Committee, Washington, 
        DC.
U.S. Representative Rick Larsen
Chairman, House Aviation Subcommittee, Washington, DC.
    Dear Chairman DeFazio and Chairman Larsen,
    Our AFGE Local Bargaining Unit represents approximately 310 Federal 
employees at the Federal Aviation Administration William J. Hughes 
Technical Center in New Jersey. Our employees perform essential support 
of the National Airspace System (NAS). Air Traffic Control personnel 
rely on us for the deployment of new and improved NAS products and on 
expert repair and restoration services when Air Traffic Control systems 
fail.
    We first wish to express our appreciation for your efforts to ward 
off FAA Privatization over the past years. Your subject matter 
expertise and advocacy resulted in Non-Privatization legislation 
essential to the FAA labor force.
    You are both keenly aware of the risks to the FAA Mission, 
America's flying public, and the tens of thousands of FAA employees and 
stakeholders resulting from the Federal Government Shutdown of 2018/
2019. We have become aware of your 02-13-19 ``Putting U.S. Aviation at 
Risk: The Impact of the Shutdown'' hearing.
    We now write to you with a sense of urgency. We have unique insight 
on the Shutdown effects on the FAA Mission/Operations, on the Technical 
Center Community, small businesses and the economy of Southern New 
Jersey. AFGE Local 200 organized two Public Awareness Events bringing 
together Senator Menendez, Congressmen Norcross and Van Drew, four 
Unions, the FAA Managers Association, small businesses and most 
importantly Federal and contractor employees to share their hardships 
(all while meeting the FAA Mission).
        https://www.pressofatlanticcity.com/news/breaking/Federal-
        workers-rally-for-
        return-to-work-paychecks/article_47ad152f-6f40-56f0-be94-
        fe8a78628dbe.html
    Please consider including AFGE 200 in deliberations on protecting 
the FAA from shutdowns as well as short term ``CRs''. We are capable of 
giving fact and data based input, as well as the human/community cost 
of FAA shutdowns as shown in the attached statement submitted for 
consideration in tomorrow's hearing.
statement for consideration regarding house aviation hearing: ``putting 
          u.s. aviation at risk: the impact of the shutdown''
    Good Day Chairman Larsen and Ranking Member Graves,
    AFGE Local 200 represents approximately 310 Federal employees at 
the Federal Aviation Administration (FAA) William J. Hughes Technical 
Center located at Atlantic City International Airport, New Jersey.
    Our employees are assigned to three Lines of Businesses in the 
FAA's Air Traffic Organization (ATO). They are: En Route & Oceanic 
Services, Terminal Services and Technical Operations.
    Our employees perform Air Traffic System Hardware, Software and 
System Administration Engineering and Test, as well as Field Support 
and Restoration of the FAA National Airspace System (NAS). The systems 
used by Air Traffic Control personnel rely on us for the deployment of 
new and improved NAS products, expert repair and restoration services 
when systems fail.
    Our prior organization was simply known as ``Operational Support''. 
Our motto was ``AOS Makes It Work''. The same is true today. And we 
keep it working. Even during Shutdowns.
                           executive summary
    Furloughs offer no benefits to America. Quite the contrary. The 
calculated monetary cost of FAA Shutdowns is great. But worse, there is 
long-term decline in confidence, increased fear and uncertainty, and 
rising pessimism in the FAA Mission and among its workforce. The FAA 
value to the flying public and taxpayer can be lost.
    FAA Shutdowns have directly resulted in failed privatization 
efforts. The Agency and our workforce had wrongly been held accountable 
for slipping schedules and cost overruns. Such artificial and unfounded 
findings have cut into morale, staffing/retention, and public 
perception of our workforce. Our mission suffers from Shutdowns.
                    the unique faa shutdown problem
    Since 1995 when the FAA was authorized as an ``Excepted Agency'' 
under Federal law, the FAA has been shut down more than any other 
Federal Agency. We have been shutdown for long duration large 
appropriations lapses affecting multiple Executive Departments and 
Agencies. The recent damaging Shutdown being the worst. These 
``appropriation'' events always involve non-aviation industry, non-FAA 
issues. As well, we have been shutdown individually as an Agency 
multiple times. For these ``FAA reauthorization shutdowns'', some have 
been over aviation issues while others have not.
    Risking the integrity of the FAA Mission, NAS Modernization and NAS 
Operations during unrelated political fights is harmful to all three, 
to the flying public and to the American taxpayer. And though FAA 
Reauthorization requires robust debate to reach good business sense and 
structural/organizational improvement, shutdowns would only complicate 
meeting our mission.
            the unique faa technical center shutdown problem
    The Technical Center is largely not an operational facility. The 
main Technical Center function is to research, engineer, test and 
certify new NAS system and safety technology. Our workforce is split 
between Federal and contractor Subject Matter Expert employees. In the 
recent shutdown, AFGE 200 roughly estimates there were:
    <bullet>  1,000 Federal Employees working without pay
    <bullet>  1,000 Federal Employees furloughed without pay
    <bullet>  1,000 Contractor employees layed off immediately or 
incrementally who who get no back pay
    With the Technical Center the hub of Southern New Jersey 
Technology, many of our employees are spouses. Moms and sons. Dads and 
daughters. Families. Both or more may be ``Feds''. Or Contractors. Or a 
mix. The bottom line is that many families will lose income. Sometimes 
two incomes. Many times, the loss is for good.
    Then there are the small businesses, many of them being minority or 
female owned. These businesses do not have `corporate cash reserves'. 
What comes in, goes out. In many cases, finance and contracts 
processers were furloughed meaning several companies got paid nothing 
for work already performed before the Shutdown.
    One community impact is our Daycare facility known as ``The Little 
Flyers Academy''. It is a non-profit entity. With little cash reserves 
and while trying to defer employee payments due to losses of income, 
``Little Flyers'' almost had to lay off staff. Had layoffs occurred, 
``Little Flyers'' may have lost its State certification to operate.
    Further community and Small Business impacts can be addressed under 
separate cover.
 the unique faa nas operational support and afge 200 employee shutdown 
                                problem
    As stated, our lines of business deploy of new and improved NAS 
products. This is often under the purview of Facilities & Engineering 
funding which is cutoff during shutdowns. We also perform expert repair 
and restoration services when systems fail. This is under Operations 
funding which is deemed ``Essential''.
    This causes half of our workforce to be furloughed while the other 
is Working Without Pay. This is indeed unique in the FAA. Virtually all 
FAA Controllers of NATCA and the System Specialists of PASS work 
without pay. Our workforce is split between ``Essential'' and ``Non-
Essential'' leading to inconsistencies and arguments over what is 
essential. A resulting morale issue is hard to measure because of the 
professionalism of our workforce. But though management must take the 
`inequity' into account, there is no mechanism to do so.
               the shutdown effect on modernizing the nas
    On top of direct monetary shutdown losses, impacts to the many 
Operational and Acquisition programs under FAA responsibility must be 
considered. The calculations of the lost time and funds on these 
projects adds complex program and financial analyses not accounted for 
in program baselines. All time lost or expended is money lost.
    Critical National Security Fixes, the modernization of existing 
programs, the development of new more efficient systems and programs 
all come to a halt. Shutdowns postpone efforts to improve the programs 
and systems. A shutdown even of a couple weeks can delay progress by 
months, therefore delaying the improvements critical to many systems 
currently fielded. When work stops, the trickledown effect can be felt 
in every aspect of the Government and our vendors/stakeholders. And 
short term ``CRs'' continuing delaying this work.
    Finally, when Human Resources and Contract process overhead is 
added to our work, our core mission focus is not optimal. Through no 
fault of their own, employees/managers face pay, benefit, allotment, 
unemployment, unemployment repayment, leave accrual, canceled 
vacations, use or lose recovery issues. And worse.
    AFGE Local 200 Conclusion--The FAA should never be Shutdown again.
    Respectfully Submitted--The Officers and Employees of AFGE Local 
200


                                Appendix

                              ----------                              


          Questions from Hon. Steve Cohen for Paul M. Rinaldi

    Question 1. In your testimony, you mentioned that the Federal 
Aviation Administration (FAA) scheduled the ASDE-X Taxiway Arrival 
Prediction (ATAP) Alerting System to be enabled on March 31, 2019, at 
the Memphis International Airport. This new technology enables air 
traffic controllers to detect potential runway conflicts by providing 
detailed coverage of movement on runways and taxiways.\1\ Regrettably, 
due to the shutdown, the implementation date of this system has been 
postponed from March until June 2019. Can you describe in detail the 
financial and staff burdens that this placed and will continue to place 
on the Memphis International Airport?
---------------------------------------------------------------------------
    \1\ https://www.faa.gov/news/fact_sheets/
news_story.cfm?newsId=23154&omniRss=
fact_sheetsAoc&cid=103_F_S
---------------------------------------------------------------------------
    Answer. There are direct financial and staff burdens related to the 
delay in implementing ATAP at Memphis International Airport (MEM). As 
the March 2019 implementation was being accomplished, it required staff 
from Memphis Air Traffic Control Tower to perform duties related to 
that implementation, which means the personnel were not available to 
perform their normal air traffic operations duties. In some cases they 
were backfilled with overtime to perform the operations duties. The 
implementation work must be repeated, which means additional time 
during which staffing at MEM will be affected. This delay also led to 
unexpected costs.

    Question 2a. As you know, the Memphis Air Route Traffic Control 
Center has been heavily involved in training for the implementation of 
Controller Pilot Data Link Communications (CPDLC), also known as 
DataComm. This program allows the National Airspace System (NAS) to 
handle more traffic, reduce flight delays, route aircraft more 
efficiently and improve safety, all while reducing operational costs 
for airspace users.\2\ Because of the shutdown, has the implementation 
date of DataComm changed?
---------------------------------------------------------------------------
    \2\ https://www.harris.com/content/federal-aviation-administration-
faa-data-communications-data-comm-user-information
---------------------------------------------------------------------------
    Answer. Yes, the implementation date for Enroute Data Comm at 
Memphis ARTCC has changed. The original implementation date was 
December of 2018. NATCA is currently working with the FAA on a new 
implementation date, but at this time Memphis ARTCC is scheduled to re-
start implementation in late 2020, with the goal of January of 2021 as 
an implementation date.

    Question 2b. Will the completed training on the program have to be 
repeated?
    Answer. Due to extended delay in the implementation date, all air 
traffic controller training related to CPDLC will have to be repeated. 
Due to many factors including the need to train our next generation of 
air traffic controllers, the decision was made to move Memphis Center 
from early in the old Data Comm implementation waterfall to late in the 
new waterfall.

    Question 2c. Can you describe in detail the financial and staff 
burdens that this placed and will continue to place on the Memphis Air 
Route Traffic Control Center?
    Answer. Memphis ARTCC, like many FAA facilities, has staffing 
challenges. Any and all additional tasks placed upon the workforce, 
which includes much more than just Data Comm, place a burden on 
staffing by removing air traffic controllers from operational duties 
for a period of time to complete the other task. In many cases, this 
requires back-fill overtime for the operational positions. Memphis 
ARTCC had already begun training on CPDLC, which took employees out of 
the operation and required staffing to be reallocated. With the new 
timeline and the need to re-train all employees, all financial 
expenditures from initial workforce training were in vain and like the 
training itself, the expenses will have to be born again.

 Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Paul M. Rinaldi

    Question 1. Instead of heeding the desperate pleas of our fellow 
Americans, President Trump doubled-down on the shutdown and stated, 
``Many of those people that won't be receiving a paycheck . . . agree 
100 percent with what I am doing.'' Is there any evidence within your 
membership that most federal workers supported a government shutdown in 
exchange for a down payment on a border wall?
    Answer. NATCA did not poll our membership on this subject. NATCA 
represents its members on issues related to collective bargaining, 
workplace rights, employee benefits, and the safety of the National 
Airspace System.

    Question 1a. Did President Trump meet with your organization during 
the shutdown to support this claim?
    Answer. NATCA members contacted the Administration and Members of 
Congress to urge them to end the shutdown.

    Question 1b. Did your organization make a public statement to 
support this assertion?
    Answer. NATCA's national and local leadership who spoke publicly 
during the shutdown educated the public about the ever increasing 
safety concerns related to the shutdown and the stress and fatigue that 
the shutdown created for our membership.

    Question 2. At the heart of our National Airspace System is 
Atlanta's Hartsfield-Jackson International Airport, which handles over 
100 million passengers per year. The shutdown ended on January 25th and 
Atlanta hosted the Super Bowl on February 3rd. What kind of pressures 
and challenges did the shutdown impose to air traffic controllers who 
were preparing for air traffic volume like the Super Bowl?
    Answer. The partial government shutdown made planning for the Super 
Bowl very difficult because the large-scale formal meetings that had 
been periodically occurring were stopped. These meetings were attended 
by NATCA, FAA, NFL, various airport authorities, fixed base operators, 
and any other stakeholders that would have been invited to participate 
in the planning for the Super Bowl. At least one formal meeting was 
canceled. This meeting would have been used to troubleshoot any 
foreseen issues, to better streamline the procedures, and validate any 
changes that had been investigated or implemented since the previous 
meeting. There was also no training related to Super Bowl operations 
provided to the workforce during the majority of the shutdown, which 
caused a lot of concern about whether the plan could be executed 
properly.

    Question 2a. Is it true that air traffic controllers did not 
receive critical training and weekly safety meetings during the 
shutdown?
    Answer. Controllers did not receive any kind of training on Super 
Bowl procedures until later in the shutdown. The FAA recalled a number 
of non-excepted staff back to work. They were able to quickly produce 
and distribute training materials to the workforce and finalize some 
last minute planning to make sure we could execute the plan.

    Question 2b. Could you detail what kind of information is shared at 
these meetings or what kinds of drills are reviewed?
    Answer. The formal meeting covered items such as pre-coordinated 
arrival routing plans, parking procedures, flow slot time assignments, 
Traffic Management Unit restrictions, departure routings and 
procedures. There was a great deal of information covered that needed 
to be widely disseminated to a number of parties to ensure that 
everyone was operating on the same plan.

    Question 2c. Do you think this impacted how prepared air traffic 
controllers felt prior to the Super Bowl?
    Answer. Early on during the shutdown, the controllers absolutely 
felt like they weren't prepared for the Super Bowl. Once the FAA 
recalled a number of non-excepted employees back to work and we were 
able to better prepare, the workforce began to relax and felt better 
prepared for the event.

    Question 2d. Has your membership expressed whether the FAA 
expressed sensitivity to their situation or provided additional support 
when possible? Especially in the lead up to the Super Bowl?
    Answer. FAA leadership was sensitive to the situation. They were, 
unfortunately, unable to help until later in the shutdown when they 
recalled a number of non-excepted employees back to work. Those 
employees worked diligently to make sure the air traffic control 
workforce was as prepared as possible. FAA management held face to face 
briefings during team training times, distributed electronic training 
materials to the workforce and answered the concerns brought to them by 
the workforce. FAA leadership and local management worked 
collaboratively with NATCA to make sure all of our concerns were 
addressed and all plans and procedures were executed as well as 
possible.

       Questions from Hon. Stacey E. Plaskett for Paul M. Rinaldi

    Question 1. Finally, long overdue repairs to the Instrument Landing 
System at our airport in St. Thomas has been delayed indefinitely 
because the FAA Tech Ops Department was furloughed during the shutdown. 
As everyone is acutely aware, my district was ravaged in 2017 by two 
category five (5) hurricanes. The impact of the 35-day government 
shutdown is immeasurable and we cannot afford another Trump shutdown as 
the Virgin Islands continues rebuilding its economy and a better, more 
resilient infrastructure.
    Will you speak to what the impact is when an air traffic control 
tower is unable to operate its Instrument Landing System? Better put, 
how does the lack of this equipment impact the safety of the traveling 
public?
    Answer. Although the lack of an Instrument Landing System has a 
definite effect on an air traffic facility, it doesn't necessarily 
affect the safety of the traveling public. The more likely effect would 
be a lack of accessibility. An Instrument Landing System (ILS) is 
defined as a precision runway approach aid based on two radio beams, 
which together provide pilots with both vertical and horizontal 
guidance during an approach to land. This allows aircraft to operate 
when the weather dictates that visual flight rules (VFR) are unusable. 
VFR requires a pilot to be able to see outside the cockpit, to control 
the aircraft's altitude, navigate, and avoid obstacles and other 
aircraft. Instrument flight rules (IFR) are required when VFR rules are 
not available due to weather conditions. When an ILS is unavailable, 
aircraft would be unable to operate, unless another IFR procedure is 
available.

 Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Michael Perrone

    Question 1. Instead of heeding the desperate pleas of our fellow 
Americans, President Trump doubled-down on the shutdown and stated, 
``Many of those people that won't be receiving a paycheck. . .agree 100 
percent with what I am doing.'' Is there any evidence within your 
membership that most federal workers supported a government shutdown in 
exchange for a down payment on a border wall?
    Answer. While PASS did not survey our membership on that particular 
question, what was clear is federal employees preferred to be working 
and getting paid instead of reporting to work without pay while others 
were furloughed.

    Question 1a. Did President Trump meet with your organization during 
the shutdown to support this claim?
    Answer. No, he did not.

    Question 1b. Did your organization make a public statement to 
support this assertion?
    Answer. During the government shutdown our message internally and 
externally was consistent: end the shutdown and get federal employees 
paid.

      Questions from Hon. Stacey E. Plaskett for Nicholas E. Calio

    Question 1. In my district air travel is essential to moving off 
our islands. Additionally, we presently are heavily reliant on tourism: 
cruise ships of course but the larger dollar spending come from those 
visitors who come by air and stay. So l am curious as to the change in 
the number of people who elected not to travel during the shutdown. 
Have we been able to quantify the number of cancelled flights by 
travelers?
    Answer. Thank you for your question. A4A is not aware of a specific 
quantifiable number pertaining to `cancelled flights' by travelers 
during the shutdown. Some individual airlines did put financial figures 
out on the impact reduced demand had on their operations, but not all.
    However, as it pertains to the U.S. Virgin Islands (USVI) market, 
as a broad generalization, with respect to leisure travelers, those 
consumers traditionally tend to book their trips further in advance 
than business travelers. Given the USVI market reliance on tourism, 
there is a better chance those trips that were already booked and paid 
for were completed during the shutdown since airline operations were 
not directly impacted as far as maintaining a normal schedule. To the 
extent there was a subset of those leisure travelers who were also 
impacted government employees, it would be very speculative to account 
for direct cancellations for that reason or to ascertain how many 
consumers elected not to travel during that time frame.
    As local data becomes available, we would recommend you work with 
your local airport officials to determine passenger number fluctuations 
compared to previous years for your particular market during that time 
period. Local airport officials may be in a better position to have 
that data on a real-time basis.

                                    
</pre></body></html>
